<html>
<title> - HEARING TO EXAMINE THE JOINT PERFORMANCE OF APHIS, U.S. DEPARTMENT OF AGRICULTURE, AND CBP, U.S. DEPARTMENT OF HOMELAND SECURITY IN PROTECTING U.S. AGRICULTURE FROM FOREIGN PESTS AND DISEASES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                      HEARING TO EXAMINE THE JOINT
                 PERFORMANCE OF APHIS, U.S. DEPARTMENT
                     OF AGRICULTURE, AND CBP, U.S.
                   DEPARTMENT OF HOMELAND SECURITY IN
                    PROTECTING U.S. AGRICULTURE FROM
                       FOREIGN PESTS AND DISEASES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                  HORTICULTURE AND ORGANIC AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, OCTOBER 3, 2007

                               __________

                           Serial No. 110-29


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                   U.S. GOVERNMENT PRINTING OFFICE
48-534 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 TIM WALBERG, Michigan
NICK LAMPSON, Texas
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff
                     Andrew W. Baker, Chief Counsel
                 April Slayton, Communications Director
           William E. O'Conner, Jr., Minority Staff Director
                                 ______

          Subcommittee on Horticulture and Organic Agriculture

                DENNIS A. CARDOZA, California, Chairman

BOB ETHERIDGE, North Carolina        RANDY NEUGEBAUER, Texas, Ranking 
LINCOLN DAVIS, Tennessee             Minority Member
TIM MAHONEY, Florida                 JOHN R. ``RANDY'' KUHL, Jr., New 
JOHN BARROW, Georgia                 York
KIRSTEN E. GILLIBRAND, New York      VIRGINIA FOXX, North Carolina
                                     K. MICHAEL CONAWAY, Texas

                Keith Jones, Subcommittee Staff Director

                                  (ii)
















                             C O N T E N T S

                              ----------                              
                                                                   Page
Cardoza, Hon. Dennis A., a Representative in Congress from 
  California, opening statement..................................     1
    Prepared statement...........................................     2
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  opening statement..............................................     7
    Prepared statement...........................................     8
Mahoney, Hon. Tim, a Representative in Congress from Florida, 
  prepared statement.............................................     9
Neugebauer, Hon. Randy, a Representative in Congress from Texas, 
  opening statement..............................................     3
    Prepared statement...........................................     4
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     5
    Prepared statement...........................................     6

                               Witnesses

Jurich, John, Investigator, Committee on Agriculture, U.S. House 
  of Representatives, Washington, D.C............................    10
    Prepared statement...........................................    13
Shames, Lisa, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office, Washington, D.C..............    82
    Prepared statement...........................................    83
Taylor, James L., Deputy Inspector General and Acting Assistant 
  Inspector General for Audits, Office of Inspector General, U.S. 
  Department of Homeland Security, Washington, D.C.; accompanied 
  by Kathleen S. Tighe, Deputy Inspector General, Office of 
  Inspector General, U.S. Department of Agriculture, Washington, 
  D.C............................................................    92
    Prepared statement...........................................    94
Bronson, Hon. Charles H., Commissioner, Florida Department of 
  Agriculture and Consumer Services, Tallahassee, FL.............   115
    Prepared statement...........................................   117
McClung, John M., President and CEO, Texas Produce Association, 
  Mission, TX....................................................   120
    Prepared statement...........................................   121
Nelsen, Joel A., President, California Citrus Mutual, Exeter, CA.   123
    Prepared statement...........................................   125

                          Submitted Statements

Neff, Michael W., Executive Director, American Society for 
  Horticultural Science, Alexandria, VA..........................   137

 
                      HEARING TO EXAMINE THE JOINT
                 PERFORMANCE OF APHIS, U.S. DEPARTMENT
                     OF AGRICULTURE, AND CBP, U.S.
                   DEPARTMENT OF HOMELAND SECURITY IN
                    PROTECTING U.S. AGRICULTURE FROM
                       FOREIGN PESTS AND DISEASES

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2007

                  House of Representatives,
          Subcommittee on Horticulture and Organic 
                                       Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Dennis 
A. Cardoza [Chairman of the Subcommittee] presiding.
    Members present: Representatives Cardoza, Etheridge, Davis, 
Mahoney, Barrow, Gillibrand, Peterson (ex officio), Neugebauer, 
Kuhl, Foxx, Conaway, and Goodlatte (ex officio).
    Staff present: Adam Durand, Alejandra Gonzalez-Arias, Keith 
Jones, Scott Kuschmider, John Riley, Kristin Sosanie, Patricia 
Barr, Bryan Dierlam, John Goldberg, Pam Miller, Pete Thomson, 
and Jamie Weyer.

 OPENING STATEMENT OF HON. DENNIS A. CARDOZA, A REPRESENTATIVE 
                  IN CONGRESS FROM CALIFORNIA

    The Chairman. Good morning. This hearing of the 
Horticulture and Organic Agriculture Subcommittee to examine 
the joint performance of the Animal and Plant Health Inspection 
Service, U.S. Department of Agriculture, and the Customs and 
Border Protection, U.S. Department of Homeland Security in 
protecting the U.S. agriculture from foreign pests and diseases 
will come to order. I would like to welcome you all here. I 
heard from my Ranking Member, Mr. Neugebauer, that one of the 
elevators is not working. That is why he was late. And I 
assured him that I was not in charge of that part of this. We 
are very happy to have him and the rest of the Committee here 
today.
    We are here to look at protecting the United States from 
agricultural pests, from foreign pests and disease, but the 
issue at hand as most of the audience is well aware; hidden 
within the authorization of the Homeland Security Department 
was a little noticed provision that mandated Animal and Plant 
Health Inspection Services, 1,800 agriculture inspectors to 
move from USDA to the newly created Department of Homeland 
Security's Customs and Border Protection Division. This move 
was made in order to consolidate customs and border enforcement 
into one agency, a decision I am sure was made with all good 
intentions in mind.
    However, as the GAO reported in 2006 since the transfer of 
these USDA employees to Customs and Border Protection has not 
developed sufficient performance measures that take into 
account the agency's expanded mission or to consider all the 
pathways by which prohibited agricultural items or foreign 
pests may enter the country. In essence, the GAO found that the 
Department of Homeland Security was not meeting its mission to 
guard our domestic agricultural industry from foreign threats 
at the border. This deficiency cannot stand and should not be 
tolerated. Stopping foreign pests and prohibited agricultural 
products from entering the U.S. might not be as sexy a topic as 
stopping weapons or drugs, but it is certainly as important.
    These are six and eight-legged terrorists that can wreck 
havoc on our nation's agricultural industry by costing billions 
of taxpayer dollars in eradication efforts and decimating our 
ability to access new export markets. While I certainly would 
prefer to see these inspection employees moved immediately back 
to USDA where I believe they belong, my greater concern is that 
wherever they are right now, they must certainly have the tools 
and the resources at their disposal to do their job effectively 
and efficiently. Today with the input from our esteemed 
panelists, I want to take an in-depth look at the staffing, 
training, and morale problems that persist within the homeland 
security apparatus.
    With this information the Committee Members will be more 
prepared when the Agriculture Committee and the Homeland 
Security Committee hold a joint full Committee hearing now 
scheduled for November 1. While today's hearing will focus on 
the problems persisting within our nation's agriculture 
inspection programs the joint hearing in November will focus on 
possible solutions to this impending crisis including 
encouraging USDA and the Department of Homeland Security to 
develop a standardized reputable training program that properly 
identifies and assesses the major threats posed by foreign 
agricultural pests and disease. Preventing pest and disease 
infestation is a paramount concern to all of American 
agriculture but primarily to our specialty crop industry. As 
Chairman of this Subcommittee, I have vowed to fight for them 
on this issue, and I promise again today that I will not back 
down.
    [The prepared statement of Mr. Cardoza follows:]

   Prepared Statement of Hon. Dennis A. Cardoza, a Representative in 
                        Congress From California
    I would like to welcome everyone to the Subcommittee on 
Horticulture and Organic Agriculture's review of the joint performance 
of the Animal and Plant Health Inspection Service, U.S. Department of 
Agriculture and Customs and Border Protection, U.S. Department of 
Homeland Security in protecting U.S. agriculture from foreign pests and 
disease.
    But to the issue at hand, as most of the audience is well aware, 
hidden within the authorization of the Homeland Security Department, 
was a little-noticed provision that mandated Animal and Plant Health 
Inspection Service's 1,800 agricultural inspectors to move from USDA to 
the newly created Department of Homeland Security's Custom and Border 
Protection Division.
    This move was made in order to consolidate customs and border 
enforcement into one agency, a decision that I am sure was made with 
all good intentions in mind.
    However, as the GAO reported in 2006, since the transfer of these 
USDA employees ``Customs and Border Protection has not developed 
sufficient performance measures that take into account the agency's 
expanded mission or consider all pathways by which prohibited 
agricultural items or foreign pests may enter the country.''
    In essence, the GAO found that the Department of Homeland Security 
was not meeting its mission to guard our domestic agriculture industry 
from foreign threats at the border. This deficiency can not and should 
not be tolerated.
    Stopping foreign pests and prohibited agricultural products from 
entering the U.S. might not be as sexy as stopping terrorists, weapons 
or drugs but it is certainly just as important.
    These are six and eight-legged terrorists that can wreak havoc on 
our nation's agricultural industry, costing billions of taxpayer 
dollars in eradication efforts and decimate our ability to access new 
export markets.
    While I certainly would prefer to see these inspection employees 
moved immediately back to USDA, where I believe they belong, my greater 
concern is that wherever they are right now, they must certainly have 
the tools and resources at their disposal to do their job effectively 
and efficiently.
    Today, with the input from our esteemed panelists, I want to take 
an in-depth look at the staffing, training and morale problems that 
persist within Homeland Security. With this information, Committee 
Members will be more prepared when the Agriculture Committee and the 
Homeland Security Committee hold a joint Full Committee hearing on 
November 1st.
    While today's hearing will focus on the problems persisting within 
the our nation's agricultural inspection programs, the joint hearing in 
November will focus on possible solutions to this impending crisis 
including encouraging USDA and the Department of Homeland Security to 
develop a standardized, reputable training program that properly 
identifies and assess the major threats posed by foreign agricultural 
pests and diseases.
    Preventing pest and disease infestation is a paramount concern to 
all of American agriculture, but primarily to our specialty crop 
industry. As Chairman of this Subcommittee, I have vowed to fight for 
them on this issue and I promise again today that I will not back down.
    I greatly appreciate the panelists for their willingness to testify 
here today and with that I would like to invite the first panel to 
begin.

    The Chairman. I greatly appreciate the panelists' work, and 
their willingness to be here to testify. And with that, I would 
like to recognize my friend and Ranking Member, Mr. Neugebauer.

OPENING STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                      CONGRESS FROM TEXAS

    Mr. Neugebauer. Well, thank you, Chairman Cardoza, for 
calling today's Subcommittee hearing. Much of what we do in 
Congress is about national security, and protection of our 
country's agriculture is an important component of national 
security, one that the Agriculture Committee should take 
seriously, and does take seriously. Certainly it is impossible 
to prevent the introduction of all foreign agricultural pests 
and diseases into our country but we also know an effective 
agricultural inspection at our borders and ports goes a long 
way in minimizing the introduction of these threats. These 
pests and diseases cost farmers millions of dollars in lost 
production and put many out of business; not to mention the 
huge cost to states and the USDA to contain and eradicate these 
pests.
    It is imperative that our Agricultural Quarantine 
Inspection service, a cooperative effort between USDA-APHIS, 
and the Department of Homeland Security's Customs and Border 
Protection Division is performing at an optimal level. We know 
performance has been sub-par in the past few years since the 
transfer of the inspection responsibilities to CBP. The DHS 
Inspector General, the GAO, and the independent investigator 
from the House Agriculture Committee have all concluded that: 
staffing was insufficient; interagency coordination was weak; 
vital data was not being collected in the field; inspections 
and interceptions decreased; and staff morale suffered. These 
reviews have brought many shortcomings to light. To their 
credit, CBP and APHIS have acted on many of the 
recommendations, but the question is and what we want to hear 
today, has enough been done?
    The question before us now is whether agriculture is coming 
out ahead in this transition of inspection services to Homeland 
Security, is there sufficient emphasis in coordination within 
CBP for the agriculture mission when the agency is tasked with 
other important border security missions or are APHIS and CBP 
truly incompatible agencies keeping the agricultural security 
mission from becoming a success. The Agriculture Committee sent 
a strong message through efforts to return the inspection 
functions to USDA in the House farm bill, but we can't make 
that change without the concurrence of the Homeland Security 
Committee. I hope the witnesses today can help us better 
understand why some of the things have gone wrong, whether 
anything is going right, and what Congress may need to do to 
help make sure that our nation has the best agricultural pest 
and disease protection possible.
    This Committee has a responsibility to make sure that 
agriculture is fully protected. And, Mr. Chairman, I look 
forward to hearing from these witnesses today.
    [The prepared statement of Mr. Neugebauer follows:]

   Prepared Statement of Hon. Randy Neugebauer, a Representative in 
                          Congress From Texas
    Thank you, Chairman Cardoza, for calling today's Subcommittee 
hearing. A central and large part of Congress' work concerns national 
security. Protection of our country's agriculture is an important 
component of national security that we on the Agriculture Committee 
take seriously.
    Certainly it is impossible to prevent the introduction of all 
foreign agriculture pests and diseases into our country. But we also 
know an effective agriculture inspection at our borders and ports goes 
a long way toward minimizing introduction of threats.
    These pests and diseases cost farmers millions of dollars in lost 
production and put many out of business, not to mention the huge cost 
to states and USDA to contain and eradicate these pests.
    It is imperative that our Agriculture Quarantine Inspection 
Service, a cooperative effort between USDA-APHIS and the Department of 
Homeland Security's Customs and Border Protection division, is 
performing at an optimal level. We know for performance has been sub-
part in the first few years since the transfer of inspection 
responsibilities to CBP.
    The DHS Inspector General, the GAO, and an independent investigator 
from the House Agriculture Committee have all concluded that staffing 
was insufficient; inter-agency coordination was weak; vital data were 
not being collected in the field; inspections and interceptions 
decreased; and staff morale suffered.
    These reviews have brought many shortcomings to light. To their 
credit, CBP and APHIS have acted on many of the recommendations. But 
has enough been done?
    The question before us now is whether agriculture is coming out 
ahead in this transition of inspection services to Homeland Security. 
Is there sufficient emphasis and coordination within CBP for the 
agriculture mission when that agency is tasked with other important 
border security missions? Or are APHIS and CBP incompatible agencies, 
keeping the agriculture security mission from becoming a success?
    The Agriculture Committee sent a strong message through efforts to 
return the inspection functions to USDA in the House farm bill. But we 
can't make that change without the concurrence of the Homeland Security 
Committee.
    My hope is that the witnesses today can help us better understand 
why some things have gone wrong, whether anything is going right and 
what Congress needs to do from here to ensure our nation has the best 
agriculture pest and disease protection possible. This Committee has a 
responsibility to the American people to make sure agriculture is fully 
protected.

    The Chairman. Thank you, Mr. Neugebauer. I would like to 
now recognize the Chairman of the full Committee, a good 
friend, who did a fabulous job getting the House version of the 
farm bill passed before the farm bill expired. We are looking 
for our friends in the Senate to get busy with their portion of 
the farm bill any day now. But, Mr. Chairman, thank you for all 
the work that you did during the writing of the farm bill on 
our side. And I would now like to recognize you for an opening 
statement.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and thank you for 
calling this hearing and for your excellent persistent work 
that you have done on this issue. I know this topic has been a 
priority of yours for some time and you called repeated 
attention to APHIS inspections during the farm bill process 
both in Committee and on the House floor. And I know because of 
jurisdictional issues we couldn't do all that you wanted to do 
in this regard. We couldn't do all that we should have done, 
but we are going to keep the pressure on and keep this topic on 
the front burner. I welcome today's witnesses, and particularly 
I want to welcome John Jurich, who is on our first panel this 
morning. John is the Investigator of the House Agriculture 
Committee having been with this Committee for 7 years.
    Earlier this year John performed a review at the request of 
this Committee under then-Chairman Goodlatte to examine 
coordination between APHIS and the Customs and Border 
Protection staffs following the 2002 transfer. This Committee 
has had longstanding issues with the APHIS transfer, and having 
read the report Mr. Jurich compiled those concerns, and in my 
opinion, were well founded. He visited almost 20 ports from 
coast to coast, interviewed hundreds of employees and produced 
a very interesting report that calls into question the priority 
of agricultural inspection under our chief government agency 
responsible for protecting our borders from threats of all 
shapes and sizes.
    We will also hear from the Government Accountability Office 
and from Homeland Security's Inspector General, who will also 
testify that much needs to be done at the border level to 
enhance security of our nation's food supply although they are 
getting a little carried away. I don't know if Members are 
aware but over the weekend the duck and goose season started in 
Canada, and somehow or other they got the bright idea that they 
were going to enforce the bird flu deal and they apparently 
confiscated 4,600 ducks and geese, including 160 from some 
friends of mine who went ballistic over this, and they want 
some heads to roll. But I don't know what in the world is going 
on over there that they don't know if these ducks are dead and 
they probably don't have much of a chance to go infect anybody 
else at that point.
    Apparently on Monday they realized the error of their ways 
and changed the rule, but we may see if anybody knows any more 
about that this morning. Anyway, these agriculture inspectors 
who were interviewed by our witnesses say that the agriculture 
inspection mission has been threatened by the transfer. Mr. 
Jurich's investigation revealed that the transfer itself caused 
a major shake-up in staffing where many experienced and able-
bodied inspectors were transferred to other agencies or left 
the workforce altogether. Those who have remained feel as if 
the prevention of plant pests and diseases are very low on the 
Customs and Border Patrol priority list. Even worse, people who 
should be performing vital inspections are tasked with data 
entry or other cursory exercises which do nothing to protect 
our nation's food supply.
    We know that if foreign pests and diseases are allowed to 
threaten our food supply, they cause serious damage throughout 
the agriculture food chain from producer to processor to 
retailer to consumer. Last month the State of California was 
forced to establish a 114 mile quarantine zone around the City 
of Dixon after discovering Mediterranean fruit fly infestation. 
Farmers and growers in that area, big and small, are going to 
lose tens of thousands of dollars a week in sale of fruits and 
vegetables and will continue to do so until inspectors are 
certain that the medfly is no longer present, a process that 
will take, we are being told, at least 9 months or maybe 
longer.
    If we do not get a handle on this situation and get these 
jurisdictional issues ironed out, this kind of thing will 
continue to happen. It is my hope here today that the 
discussion will provoke serious and pointed questions when the 
full Committee gathers in the future to take up this issue by 
speaking with Acting Agriculture Secretary Conner and Homeland 
Security Chairman Chertoff. So I welcome today's witnesses. I 
look forward to their testimony and appreciate the Chairman 
making time for me.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress From Minnesota
    Thank you, Chairman Cardoza, for calling this hearing today and for 
the excellent and persistent work you have done on this issue. I know 
this topic has been a priority of yours for some time and you called 
repeated attention to APHIS inspections during the farm bill process, 
both in Committee and on the House floor. I know because of 
jurisdictional issues we couldn't do all that we wanted to do in this 
regard. We couldn't do all that we should have done, frankly, but we 
are going to keep the pressure on and keep this topic on the front 
burner.
    I welcome today's witnesses and in particular I want to welcome 
John Jurich who is on our first panel this morning. John is the 
Investigator of the House Agriculture Committee, having been with the 
Committee for 7 years. Earlier this year, John performed a review at 
the request of this Committee under then-Chairman Goodlatte to examine 
coordination between APHIS and the Customs and Border Protection staffs 
following the 2003 transfer of APHIS out of USDA and over to CBP as 
part of the creation of the Department of Homeland Security.
    This Committee has had long standing issues with the APHIS transfer 
and having read the report Mr. Jurich compiled, those concerns were 
well founded. He visited almost twenty ports from coast to coast, 
interviewed hundreds of employees, and produced a very interesting 
report that calls into question the priority of agricultural inspection 
under our chief government agency responsible for protecting our 
borders from threats of all shapes and sizes.
    Indeed, we will also hear from the Government Accountability Office 
and from Homeland Security's Inspector General who will also testify 
that much needs to be done at the border level to enhance the security 
of our nation's food supply. After reading the testimony presented 
today, it is clear CBP must address several management problems to 
reduce the vulnerability of U.S. agriculture to foreign pests and 
diseases.
    Those agricultural inspectors who were interviewed by our witnesses 
say that the agriculture inspection mission has been threatened by the 
transfer. Mr. Jurich's investigation revealed the transfer itself 
caused a major shakeup in staffing, where many experienced and able-
bodied inspectors transferred to other agencies or left the workforce 
altogether. Those who have remained feel as if the prevention of plant 
pests and diseases are very low on the CBP priority list. Even worse, 
people who should be performing vital inspections are tasked with data 
entry or other cursory exercises which do nothing to protect our 
nation's food supply.
    We know that if foreign pests and diseases are allowed to threaten 
our food supply, they cause serious damage throughout the agricultural 
food chain, from producer to processor to retailer to consumer. Last 
month, the State of California was forced to establish a 114 mile 
quarantine zone around the City of Dixon after discovering a 
Mediterranean fruit fly infestation. Farmers and growers in that area, 
big and small, are going to lose tens of thousands of dollars a week in 
sales of fruits and vegetables and will continue to do so until 
inspectors are certain that the medfly is no longer present, a process 
that will take at least 9 months, maybe longer. If we do not get a 
handle on this situation and get these jurisdictional issues ironed 
out, this kind of thing will continue to happen.
    It is my hope that the discussion today will provoke serious and 
pointed questions when the full Committee gathers in the future to take 
up this issue by speaking with Acting Agriculture Secretary Conner and 
Homeland Security Chairman Chertoff. I welcome today's witnesses, I 
look forward to their testimony, and I yield back my time.

    The Chairman. Thank you, Mr. Chairman. I want to recognize 
that you have been a tireless advocate in support of what we 
are trying to do here, and thank you for your leadership in 
many areas. Now I would like to recognize the Ranking Member of 
the full Committee, Mr. Goodlatte, who initially sent out the 
investigator to start looking into this area. Thank you for 
your work, Mr. Goodlatte, you are recognized for your opening 
statement.

 OPENING STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Mr. Goodlatte. Thank you, and I want to first thank you, 
Chairman Cardoza, for holding this hearing today, and for the 
leadership that Congressman Neugebauer, our Ranking Member, has 
shown as well. I have been concerned about how the Agricultural 
Quarantine Inspection program has been faring in the Department 
of Homeland Security for quite some time. Early in 2005 while 
serving as Chairman of the full Committee, I assigned our 
Committee Investigator, Mr. Jurich, to look into this issue, 
and I am pleased that he will be a witness at the witness table 
today to share his results and conclusions with the 
Subcommittee.
    As we consider this issue, there should be no mistake about 
the fact that the Members of this Committee and all of our 
constituents are fully committed to the war on terrorism. The 
creation of a Department of Homeland Security struck many as a 
logical step in that effort. Further, given the importance of 
protecting the production capability of our rural areas this 
Committee recognized that DHS should have a role in protecting 
agriculture as well. When I sat on the Select Committee on 
Homeland Security, I had hoped that by raising concerns with 
DHS early in the process of merging the legacy Agriculture 
Customs and Immigration inspectors into the Customs and Border 
Protection Program DHS program managers would understand the 
importance of the agricultural inspection mission which had 
been entrusted to them, and proper management of the program 
would be a priority. Yet, 5 years and at least three audit 
investigations later, we remain concerned that AQI is not a 
priority, and many of us have come to the conclusion that the 
AQI program simply does not fit in with the law enforcement 
structure of the Customs and Border Protection program.
    It is my understanding that DHS believes that its principal 
mission is to protect this nation against intentional acts of 
terrorism. This is without a doubt a vital mission. Protecting 
our food supply against the intentional or unintentional 
introduction of foreign pests and disease is an equally 
important mission. When it comes to plant and animal pests and 
disease the end result of crop or livestock illness or 
devastation is the same regardless of intentionality. What DHS 
program managers have failed to appreciate is that the AQI 
program mission is equally concerned with the intentional and 
unintentional introduction of plant and animal diseases and 
pests. In its efforts to prevent terrorist attacks, I believe 
that DHS has relegated its responsibility of protecting 
agriculture to the back burner as evidenced by the reduction in 
the number of inspections and interceptions.
    Over the years hundreds of millions of taxpayer dollars, 
countless man hours, and a wealth of education and experience 
have been devoted to the AQI function, and the current 
management of the program stands to put all of that in 
jeopardy. Those with experience in this field understand the 
old adage, ``An ounce of prevention is worth a pound of cure.'' 
If an accidental introduction of foot and mouth disease were to 
occur it could cost our economy tens of billions of dollars and 
possibly decimate our domestic cattle herd. Compare this to the 
simple investment of time and personnel and preventive measures 
to adequately safeguard our agricultural production against the 
introduction of such foreign diseases, and you could begin to 
understand our concern with reports that DHS is dropping the 
ball in this mission.
    In our zeal to focus the attention of the intentional 
threat to America, we cannot afford to neglect our 
responsibility to protect against the introduction of threats 
facing our agricultural producers. After a trial period of 
nearly 5 years, I continue to be concerned that the simple 
logic of this prevention equation is lost on the program 
managers within the Department of Homeland Security. It is my 
hope that now that this and subsequent hearings will be jointly 
held with the Committee on Homeland Security on this issue we 
will finally raise awareness of our concerns within the 
political circles of DHS, and we will see a new found and 
permanent commitment to insuring that the AQI program does not 
wither on the vine.
    Again, I want to thank Chairman Cardoza for his focus on 
this issue, as well as Chairman Peterson, and I look forward to 
the testimony of today's witnesses. I yield back.
    [The prepared statement of Mr. Goodlatte follows:]

Prepared Statement of Hon. Bob Goodlatte, a Representative in Congress 
                             From Virginia
    I want to first thank Chairman Cardoza for holding this hearing 
today. I have been concerned about how the Agricultural Quarantine 
Inspection (AQI) operational port inspection program has been faring in 
the Department of Homeland Security for quite some time. Early in 2005 
while serving as Chairman of the full Committee, I assigned our 
Committee Investigator Mr. Jurich to look into this issue. I am pleased 
that Mr. Jurich will be at the witness table today to share his results 
and conclusions with the Subcommittee.
    As we consider this issue, there should be no mistake about the 
fact that the Members of this Committee and all of our constituents are 
fully committed to the war on terrorism. The creation of a Department 
of Homeland Security struck many as a logical step in that effort. 
Further, given the importance of protecting the production capability 
of our rural areas, this Committee recognized that DHS should have a 
role in protecting agriculture as well.
    When I sat on the Select Committee on Homeland Security, I had 
hoped that by raising concerns with DHS early in the process of merging 
the legacy agriculture, customs and immigration inspectors into the 
Customs and Border Protection program, DHS program managers would 
understand the importance of the agricultural inspection mission which 
had been entrusted to them and proper management of the program would 
be a priority. Yet, 5 years and at least three audit investigations 
later, we remain concerned that AQI is not a priority and many of us 
have come to the conclusion that the AQI program simply does not fit in 
with the law enforcement structure of the Customs and Border Protection 
program.
    It is my understanding that DHS believes that its principal mission 
is to protect this nation against intentional acts of terrorism. This 
is, without a doubt, a vital mission.
    Protecting our food supply against the intentional or unintentional 
introduction of foreign pests and disease is an equally important 
mission. When it comes to plant and animal pests and disease, the end 
result of crop or livestock illness or devastation is the same 
regardless of intentionality. What DHS program managers have failed to 
appreciate is that the AQI program mission is equally concerned with 
the intentional and unintentional introduction of plant and animal 
diseases and pests. In its efforts to prevent terrorist attacks, I 
believe that DHS has relegated its responsibility of protecting 
agriculture to the back burner as evidenced by the reduction in the 
number of inspections and interceptions. Over the years, hundreds of 
millions of taxpayer dollars, countless man hours, and a wealth of 
education and experience have been devoted to the AQI function. And the 
current management of the program stands to put all of that in 
jeopardy.
    Those with experience in this field understand the old adage: ``An 
ounce of prevention is worth a pound of cure.'' If an accidental 
introduction of foot and mouth disease were to occur, it would cost our 
economy tens of billions of dollars and possibly decimate our domestic 
cattle herd. Compare this to the simple investment of time and 
personnel in preventive measures to adequately safeguard our 
agricultural production against the introduction of such foreign 
diseases and you can begin to understand our concern with reports that 
DHS is dropping the ball in this mission. In our zeal to focus the 
attention on the intentional threat to America, we cannot afford to 
neglect our responsibility to protect against the introduction of 
threats facing our agricultural producers.
    After a trial period of nearly 5 years, I continue to be concerned 
that the simple logic of this prevention equation is lost on the 
program managers within DHS.
    It is my hope now that this and subsequent hearings to be held 
jointly with the Committee on Homeland Security on this issue will 
finally raise awareness of our concerns within the political circles of 
DHS and we will see a new-found and permanent commitment to ensuring 
that the AQI program does not wither on the vine.
    Again, I want to thank Chairman Cardoza for his focus on this 
issue. I look forward to the testimony of today's witnesses and I yield 
back.

    The Chairman. Thank you, Congressman Goodlatte. The Chair 
would request that other Members submit their opening 
statements for the record so that witnesses may begin their 
testimony and it will be assured that there is ample time for 
questions.
    [The prepared statement of Mr. Mahoney follows:]

 Prepared Statement of Hon. Tim Mahoney, a Representative in Congress 
                              From Florida
    I want to thank Chairman Collin Peterson, Subcommittee Chairman 
Dennis Cardoza, and my colleagues on the Committee. I would also like 
to thank Commissioner Bronson and our other distinguished guests for 
taking the time to talk with us on this important matter.
    I'd like to start by saying that the stakes are high for Florida. 
On average, Florida sees the introduction of one new pest every month! 
This one statistic alone is staggering in its implications for 
prevention, control, and eradication of devastating pests and disease.
    The effects of invasive pests and diseases can be devastating. In 
my district, the Village of Wellington is home to a large equestrian 
industry and is the home of the National Horse Show. When several 
horses tested positive for equine herpes, the show was nearly cancelled 
and many competitors chose to stay away anyway. Through the efforts of 
the Florida Department of Agriculture, this outbreak was limited to 10 
premises, with 18 infected or presumed infected horses, and six deaths. 
These efforts required approximately 4,000 man hours of Division 
employee time and other Department related expenses exceeded $130,000. 
Without the rapid detection and an immediate response provided by 
FDACS, the potential losses could have been enormous.
    In this year's Agriculture Appropriations bill alone, the House 
appropriated $1.7 million for Citrus Canker/Greening research, on top 
of the millions of dollars that the state and Federal Government have 
already spent to eradicate this problem from Florida. The Ag 
Appropriations bill also provides $36 million for a Citrus Health 
Response Plan as a management tool for citrus canker because USDA APHIS 
has determined that complete eradication is just not feasible. I am 
proud that we are able to provide this level of support to our states 
and our local producers who are on the front line.
    However, I much prefer an ounce of prevention instead of millions 
of dollars worth of cure. I hope that we all walk away from this 
hearing with a clear understanding of the threat that pests and disease 
pose to agriculture. But I also hope that we walk away with a clear 
path to a solution.
    Thank you.

    The Chairman. I now would like to introduce the first panel 
of witnesses. We have to my left Mr. John Jurich, Investigator, 
House Committee on Agriculture, Washington, D.C. Welcome, Mr. 
Jurich. Ms. Lisa Shames, Director, Natural Resources and the 
Environment, U.S. Government Accountability Office, Washington, 
D.C. Mr. James L. Taylor, Acting Assistant Inspector General 
for the Office of Audits, Office of Inspector General, U.S. 
Department of Homeland Security, Washington, D.C., accompanied 
by Ms. Kathleen S. Tighe, Deputy Inspector General, Office of 
the Inspector General of U.S. Department of Agriculture, 
Washington, D.C. Mr. Jurich, the floor is yours. Please feel 
free to proceed.

     STATEMENT OF JOHN JURICH, INVESTIGATOR, COMMITTEE ON 
  AGRICULTURE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, D.C.

    Mr. Jurich. Chairman Cardoza, Ranking Member Neugebauer, 
Chairman Peterson, Ranking Member Goodlatte, and other Members 
of the Committee, my name is John Jurich, and I am the 
Investigator for the House Agriculture Committee. I have been 
employed by the Committee for the past 7 years as an 
investigator. Prior to that, I was an Investigator for the 
Office of Inspector General, U.S. Department of Agriculture, 
for 22 years. I am pleased to testify before you this morning 
about the review I performed on behalf of the Agriculture 
Committee this past year. The review examined the degree of 
coordination and cooperation between the Animal and Plant 
Health Inspection Service, APHIS, and the Customs and Border 
Protection staff, CBP, between APHIS' policy making and CBP's 
program implementation of the AQI function at ports of entry 
across the country.
    The review also examined the effect of the split 
authorities on the performance of the agricultural mission. 
During the course of the review, I visited nine cities and 19 
ports of entries on the East and West Coasts and at land border 
stations on both the Canadian and the Mexican borders. I 
formally interviewed over 250 APHIS and CBP employees at these 
ports of entry, at district state and regional field units, and 
in headquarters offices in Riverdale, Maryland and Washington, 
D.C. I also examined performance and financial data provided by 
both agencies to confirm or to complement the oral statements 
from field and headquarters personnel.
    As my formal report to the Committee this past April 
indicates, the results of the review are definitely mixed and 
often troubling. The effect of the transfer of the AQI function 
from the Department of Agriculture to Homeland Security has 
been both traumatic and quite polarizing, especially for the 
legacy agricultural field personnel. The transition itself from 
APHIS to CBP was rife with turmoil. The CPB agricultural 
inspectors lost their internal leadership, their professional 
status, much of their independence and authority, many of their 
managers and supervisors, considerable overtime, offices, cars, 
computers, desks, a career ladder, and contact with their 
former colleagues and technical resources in APHIS.
    As a result of these negative factors, there was a 
consequent exodus of agricultural officers from CBP back to 
APHIS, to other agencies, and to retirement. As one legacy 
inspector said to me in the field, ``the inspection staff voted 
with their feet on the effect of the changes upon the 
agricultural mission.'' A few examples of the initial problems 
the agricultural staff at the ports have faced over the past 
few years are instructive. At one location in the field the 
agricultural compactor, which was used to destroy wet products 
such as confiscated fruits and vegetables, broke down. When the 
agricultural supervisor asked CBP management for the equipment 
to be repaired or replaced, he was told there was no money in 
the budget to do so. He was instructed by management to use the 
facility's incinerator for such products.
    He immediately objected to this order saying that such use 
would also harm the incinerator. However, his objection was 
ignored and he was told to follow orders. Within a few months 
the seals of the incinerator gave out too, and that piece of 
equipment was broken. Again, there was no money to repair or 
replace the incinerator. The staff from that area which 
included three ports of entry was obliged to transport all of 
their seized items to a port many miles distant for destruction 
at a time when they could not spare the officers. When this 
became too onerous for the staff, the port management hired a 
contractor to assume such a role. Eventually, CBP management 
realized how expensive the contractor was and finally, after 
nearly 2 years, replaced both pieces of equipment. What the 
agricultural staff told me at those ports of entry that this 
never would have occurred under APHIS. When something broke in 
APHIS, it was immediately repaired or replaced.
    At another port of entry a microscope used by the staff at 
the airport wasn't used for years because the port officials 
simply refused to buy a replacement bulb. Similar complaints 
about the inability to obtain routine supplies and to replace 
broken equipment surfaced at many of the ports I visited. In a 
third port agricultural specialists were working out of the 
trunks of their cars because they didn't have sufficient desks 
and cabinetry in the warehouse to accommodate their equipment, 
their manuals, and other inspection materials. That warehouse 
was rather aptly called the ``house of pain.'' It was dank, it 
was dark, and it was uncomfortable for the staff. They simply 
didn't have accommodations to allow them to do their work 
correctly.
    With respect to the interviews of field staff, many of the 
senior inspectors and supervisory staff at the ports of entry 
stated that coordination and cooperation between the two 
agencies, APHIS and CBP, was basically subordinated, was either 
nominal or non-existent, and that the agricultural mission at 
the ports of entry was basically subordinated to the agency's 
terrorist, illegal alien, and illicit drug concerns. A minority 
of the field inspectors held just the opposite view and 
stressed the positive accomplishments of the transfer of 
function for the agricultural mission. These accomplishments 
included improved cooperation between the agriculture 
specialist and CBP officers at the ports of entry, increased 
use of electronic technology in administrative and programmatic 
areas, better targeting capabilities, more discipline and 
greater staff accountability. The performance data like 
statements of field personnel is also somewhat contradictory in 
character. Many of the general performance results have 
suffered since CBP assumed full responsibility for the 
agricultural function at the start of Fiscal Year 2004.
    The numbers of inspections, clearances, and violations 
trailed off in 2004, 2005, and 2006, in many major categories 
and pathways. This was most evident at the airports with 
dramatic reductions in the number of inspections, the number of 
interceptions, and the number of written violations involving 
both passengers and aircraft. There has been on the other hand 
an increase in the number of regulated cargo clearances and 
inspections and interceptions under CBP over the past 3 years. 
Overall interceptions when you look at all the pathways, both 
for cargo and for passengers, have declined. Animal products, 
plant pathogens, and pests have all gone down since the 
transfer of function from APHIS to CBP by 25 percent in pests, 
21 percent in plant pathogens, and 11 percent in animal 
products. Overall violations also dropped off markedly by 43 
percent.
    Communication and coordination between APHIS and CBP staffs 
was also marked by contrasts. At headquarters levels in 
Riverdale and Washington, D.C., the leadership and the liaison 
staffs of the agencies worked well together. In the field there 
was generally similar cooperation between CBP staff, the ag 
specialists, at the ports of entry and the APHIS entomologists, 
plant pathologists, and safeguarding specialists at local PPQ 
inspection stations who carried out the identification of 
interceptions, the inspection of viable plant products, and the 
fumigation of infested commodities. There was, however, 
somewhat less success at the port level within the pest risk 
committees which were set up by CBP for the sole purpose of 
promoting interagency coordination and cooperation.
    Some CBP ports were much more successful than others in 
establishing rapport with their local APHIS counterparts in the 
Plant Protection and Quarantine Division, Smuggling 
Interdiction and Trade Compliance units, Veterinary Services, 
and Investigations and Enforcement Service. They met regularly, 
discussed and resolved problems, provided physical access to 
ports, shared program information and intelligence, assessed 
risk and participated in joint blitzes or other cooperative 
activities. Other port committees served only in a perfunctory 
and formal manner as a forum to meet and greet without any 
genuine collaboration between subordinate field units.
    There was a fundamental conflict in the field between some 
APHIS policy mandates and CBP inspection practices and 
procedures. Such conflicts involved wood packing prohibitions, 
the conduct of AQIM surveys, the in bond transit of regulated 
products, and the release of cargo and passengers at the 
expense of inspections. There were also systemic changes in the 
organization of ports and the assignment of personnel into 
compartmentalized units and shifts by CBP that have left the 
actual inspection staff undermanned. The conflicts and changes 
cited upon have compromised both the quality and the quantity 
of AQI inspections in the field.
    For example, at one border port I visited, two ag 
inspectors spent the bulk of their time on computers inputting 
data into CBP's ACE system and then sealing the trucks, while a 
single specialist scurried from bay to bay in the warehouse 
performing quick and cursory tailgate inspections of trucks 
laden with agricultural products. All three inspectors said 
this kind of inspection simply did not serve or protect 
American agriculture. It should be noted that this port of 
entry was a potential avenue for the entry of Mediterranean 
fruit flies from Mexico into Southern California. Finally, I 
asked all of the CBP ag personnel I interviewed what changes 
would improve the present AQI function at the ports of entry. 
Many simply said return the function to USDA. Others said 
basically to increase the number of ag inspectors and 
technicians at inspection points, near terminals, and at cargo 
examination sites, supply the budgetary resources to fund 
needed overtime, provide routine supplies and replace broken 
down equipment, give agriculture a position and a voice in 
management at the ports of entry that was sorely missed. There 
simply was not an agriculture person in the decision-making 
process at the ports of entry.
    Fourth, promote the agricultural staff to the supervisory 
and chief levels rather than relying on legacy Customs and 
Immigration personnel to serve as first and second line 
supervisors, and finally provide a means for better 
communication and coordination between disparate agricultural 
elements both within and among CBP ports. They also ask for 
basically a much better means of communication and coordination 
with both APHIS elements in the field surrounding the ports and 
with state and with county health authorities. Thank you very 
much.
    [The prepared statement of Mr. Jurich follows:]

     Prepared Statement of John Jurich, Investigator, Committee on 
      Agriculture, U.S. House of Representatives, Washington, D.C.
    Subcommittee Chairman Cardoza, Ranking Member Neugebauer, and 
members of the subcommittee:

    I am pleased to testify before you this morning about the review I 
performed on behalf of the Agriculture Committee this past year. The 
review examined the degree of coordination and cooperation between the 
Animal and Plant Health Inspection Service and Customs and Border 
Protection staffs, between APHIS' policy making and CBP's program 
implementation of Agricultural Quarantine Inspections at ports of entry 
across the country. The review also examined the effect of the split 
authorities on the performance of the agricultural mission.
    During the course of the review I visited nine cities and nineteen 
ports of entry on the east and west coasts and at land border stations 
on both the Canadian and Mexico borders. I formally interviewed over 
two hundred and fifty APHIS and CBP employees at these ports of entry; 
at district, state, and regional field units; and in headquarter 
offices in Riverdale, Maryland, and Washington, D.C. I also examined 
performance and financial data provided by both agencies to confirm or 
to complement statements from field and headquarters personnel.
    As my formal report to the Committee this past April indicates, the 
results of the review are definitely mixed and often troubling. The 
effect of the transfer of the AQI function from the Department of 
Agriculture to Homeland Security has been both traumatic and quite 
polarizing, especially for the legacy agricultural field personnel. The 
transition itself from APHIS to CBP was rife with turmoil. The CBP 
agricultural inspectors lost their internal leadership, their 
professional status, much of their independence and authority, many of 
their managers and supervisors, overtime, offices, cars, computers, 
desks, a career ladder, and contact with their former colleagues in 
APHIS. As a result of these adverse factors, there was a consequent 
exodus of agricultural officers from CBP back to APHIS, to other 
agencies, and to retirement. As one legacy inspector said to me, the 
inspection staff voted with their feet on the effect of the changes 
upon the agricultural mission.
    A few examples of the initial problems the agricultural staff at 
the ports have faced over the past few years are instructive. At one 
location the agricultural compactor, which was used to destroy wet 
products such as confiscated fruits and vegetables, broke down. When 
the agricultural supervisor asked CBP management for the equipment to 
be repaired or replaced, he was told that there was no money in the 
budget to do so. He was instructed to use the facility's incinerator 
for such products. He immediately objected to this order saying that 
such use would also harm the incinerator which was used for destroying 
dry goods, not wet products. However, he was ordered to do so. Within a 
few months the seals of the incinerator gave out too. Again, there was 
no money to repair or replace the incinerator. The staff then from 
three ports in the immediate area was obliged to transport all of their 
seized items to a port many miles away for destruction at a time when 
they could spare few officers. When this became too onerous for the 
staff, the port management hired a contractor to assume such a role. 
Eventually, management realized how expensive the contractor was and 
finally, after nearly 2 years, replaced both pieces of equipment. The 
agricultural staff was adamant that such conduct would never have 
occurred under APHIS management.
    At another port, a microscope went unused for years because the 
port officials simply refused to buy a replacement bulb. Similar 
complaints about the inability to obtain routine supplies and to 
replace broken equipment surfaced at many of the ports I visited. In a 
third port, agricultural specialists were working out of the trunks of 
their cars because did not have sufficient desks and cabinetry in a 
warehouse to accommodate their equipment, manuals, and other inspection 
materials. The warehouse was aptly called ``the house of pain.''
    With respect to the interviews of field staff, many of the senior 
inspectors and supervisory staff at the ports of entry stated that 
coordination and cooperation between the two agencies was either 
nominal or non-existent and that the agricultural mission at the ports 
of entry was basically subordinated to the agency's terrorist, illegal 
alien and illicit drug concerns. A minority of the field inspectors 
held just the opposite view and stressed the positive accomplishments 
of the transfer of function for the agricultural mission. These 
accomplishments included improved cooperation between agricultural 
specialists and CBP officers at the ports of entry, increased use of 
electronic technology in administrative and programmatic areas, better 
targeting capabilities, more discipline and greater staff 
accountability.
    The performance data, like statements of field personnel, is also 
somewhat contradictory in character. Many of the general performance 
results have suffered since CBP assumed full responsibility for the 
agricultural function at the start of Fiscal Year 2004. The numbers of 
inspections, clearances, and violations tailed off in FY 2004, FY 2005, 
and FY 2006 in many major categories and pathways. This was most 
evident at the airports with dramatic reductions in the number of 
inspections, interceptions, and written violations involving both 
passengers and aircraft. There has been, on the other hand, an increase 
in the number of regulated cargo clearances, inspections, and 
interceptions under CBP over the past 3 years. Overall interceptions--
the animal products, plant pathogens, and pests that have been 
confiscated at the ports of entry--have declined since the transfer of 
function from APHIS to CBP--by 25% in pests, 21% in plant pathogens, 
and 11% in animal products. Overall violations also dropped off 
markedly by 43%.
    Communication and coordination between APHIS and CBP staffs was 
also marked by contrasts. At headquarters levels in Riverdale and 
Washington, D.C., the leadership and liaison staffs of the agencies 
worked well together. In the field there was generally similar 
cooperation between CBP staff at the ports of entry and the APHIS 
entomologists, plant pathologists, and safeguarding specialists at 
local PPQ inspection stations who carried out the identification of 
interceptions, the inspection of viable plant products, and the 
fumigation of infested commodities.
    There was, however, somewhat less success at the port level within 
the pest risk committees which were set up for the sole purpose of 
promoting inter-agency coordination and cooperation. Some CBP ports 
were much more successful than others in establishing rapport with 
their local APHIS counterparts in Plant Protection and Quarantine; 
Smuggling Interdiction and Trade Compliance; Veterinary Services, and 
Investigations and Enforcement Service. They met regularly; discussed 
and resolved problems; provided physical access; shared program 
information and intelligence; assessed risk; and participated in joint 
blitzes or other cooperative activities. Other port committees served 
only in a perfunctory manner, as a forum to meet and greet without any 
genuine collaboration between subordinate field units.
    There was a fundamental conflict in the field between some APHIS 
policy mandates and CBP inspection practices and procedures. Such 
conflicts involved wood packing prohibitions; the conduct of AQIM 
surveys; the ``in bond'' transit of regulated products; and the release 
of cargo and passengers at the expense of inspections. There were also 
systemic changes in the organization of ports and the assignment of 
personnel into compartmentalized units and shifts by CBP that have left 
the actual inspection staff undermanned. The conflicts and changes 
cited above have compromised both the quality and the quantity of AQI 
inspections in the field.
    At one border port I visited two agricultural inspectors spent the 
bulk of their time on computers inputting data into CBP's ACE system 
and then sealing trucks, while a single specialist scurried from bay to 
bay in the warehouse performing quick and cursory tailgate inspections 
of trucks laden with agricultural products. All three inspectors said 
that this kind of inspection simply did not protect American 
agriculture. It should be noted that this port of entry was a potential 
avenue for the entry of Mediterranean fruit flies from Mexico into 
Southern California.
    Finally, I asked all of the CBP agricultural personnel I 
interviewed what changes would improve the present AQI function at the 
ports of entry. Among their principal recommendations were the 
following: (1) increasing the numbers of agricultural inspectors and 
technicians at inspection points in air terminals and at cargo 
examination sites; (2) supplying the budgetary resources to fund needed 
overtime, provide routine supplies, and replace broken down equipment; 
(3) giving agriculture a position and a voice in management at the port 
level; (4) promoting agricultural staff to the supervisory and chief 
levels rather than relying on legacy customs and immigration personnel 
to serve as their first and second line supervisors; and finally (5) 
providing a means for better communications and coordination between 
disparate agricultural elements both within and between CBP ports.
    I would ask that my report and the accompanying transmittal 
memorandum be made a permanent part of the record of the Subcommittee 
hearing.
            Thank you,

John Jurich,
Investigator,
House Agriculture Committee.
                              Attachment 1



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Attachment 2



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Mr. Jurich, for a comprehensive 
report, and we will be looking forward to asking you some 
additional questions. Ms. Shames, it is your turn. Please 
proceed.

          STATEMENT OF LISA SHAMES, DIRECTOR, NATURAL
           RESOURCES AND ENVIRONMENT, U.S. GOVERNMENT
            ACCOUNTABILITY OFFICE, WASHINGTON, D.C.

    Ms. Shames. Thank you. Chairman Cardoza, Ranking Member 
Neugebauer and Members of the Subcommittee, I am pleased to be 
here today to discuss our work on the Agricultural Quarantine 
Inspection Program, AQI. This program is the first line of 
defense to protect U.S. agriculture from either the accidental 
or deliberate introduction of foreign pests and diseases. Thus, 
the effective management of the AQI program is essential. This 
morning I would like to focus on three key findings. First, CBP 
and APHIS have taken steps that are intended to strengthen the 
AQI program since its transfer; second, our survey of 
agricultural specialists found that many believe that the 
agricultural inspection mission has been compromised; and, 
third, several management problems if not addressed could 
increase the vulnerability of U.S. agriculture to foreign pests 
and diseases.
    First, regarding the steps CBP and APHIS have taken: 
Training hours have been increased and now newly hired CBP 
officers receive 16 hours of training on agriculture issues. 
Also, based on our survey, 75 percent of the agriculture 
specialists believe that they received sufficient training to 
enable them to perform their duties. Agricultural specialists 
have access to CBP's computer system that is designed to help 
target high risk shipments and passengers, and to identify 
companies that have previously violated quarantine laws. Joint 
agency quality assurance reviews were started to ensure that 
inspections comply with policies and procedures. We were told 
that 13 were completed in Fiscal Year 2004 through 2006. Seven 
reviews were underway in 2007, and seven are scheduled for 
2008.
    Last, all CBP district field offices established an 
agricultural liaison position as of January 2006. Liaisons were 
to help disseminate information between APHIS and CBP. However, 
many agriculture specialists believe that the agricultural 
mission has been compromised according to our January 2006 
survey. While 86 percent reported feeling at least somewhat 
prepared for their duties, 60 percent indicated that they were 
doing either somewhat or many fewer inspections and 
interceptions. In addition, there appear to be morale issues. 
When asked what is improving, 18 percent cited working 
relationships. However, the second most frequent response was 
nothing, that is, 13 percent reported that nothing is going 
well with their work. Ten percent were positive about their 
salary and benefits.
    When asked what should be changed or improved, responses 
were: declining agricultural mission, 29 percent; working 
relationships, 29 percent; and CBP chain of command, 28 
percent. We note that these morale issues are not unexpected in 
a merger. Among the lessons learned from private sector 
experiences is that employees often worry about their place in 
the new organization and productivity declines. We found 
several management problems that may leave U.S. agriculture 
vulnerable to foreign pests and diseases. CBP had not used 
available data to monitor changes in activities. Our analysis 
of the average inspection and interception rates before and 
after the transfer showed significant increases or decreases in 
some of the district field offices. During our review CPB was 
unable to explain these changes. Recently CBP told us that it 
is now routinely using these data such as in monthly reports.
    The AQI program had an incomplete set of measures to assess 
program performance. CBP carried over two performance measures 
addressing international air and border vehicle passengers. 
However, they address only two pathways and neglect others. 
Recently, CBP said that it implemented measures for land, air, 
and maritime shipments for Fiscal Year 2007 and plans to add 
additional performance measures for Fiscal Years 2008 and 2009. 
K-9 teams are critical for targeting inspections. However, 
their numbers have decreased from 140 to 80. In our survey, 46 
percent of K-9 specialists said they were frequently directed 
to perform outside duties. They were concerned that the dogs 
were becoming less proficient. In fact, 60 percent of the 43 K-
9 teams failed proficiency tests in 2005. Currently, CBP tells 
us that it has 94 teams.
    Finally, CBP still lacks adequate numbers of agricultural 
specialists. Positively, APHIS and CBP developed a national 
staffing model to ensure sufficient levels at each port as we 
had recommended. However, this model shows that as of August 
2007, CBP still needs over 1,000 additional specialists. In 
conclusion, although we have reported that CBP and APHIS have 
taken steps intended to strengthen the AQI program, we found 
serious management problems. Further, many agriculture 
specialists believe that the mission has been compromised. 
Until the AQI program is better integrated into CBP, U.S. 
agriculture may be left vulnerable to the threat of foreign 
pests and diseases.
    Mr. Chairman, this concludes my prepared statement, and I 
would be pleased to answer any questions that you or Members of 
the Subcommittee may have.
    [The prepared statement of Ms. Shames follows:]

  Prepared Statement of Lisa Shames, Director, Natural Resources and 
  Environment, U.S. Government Accountability Office, Washington, D.C.
    Mr. Chairman and Members of the Subcommittee:

    We are pleased to be here to discuss our work on the Agricultural 
Quarantine Inspection (AQI) program. Under the AQI program, 
international passengers and cargo are inspected at U.S. ports of entry 
to seize prohibited material and intercept foreign agricultural pests. 
The AQI program is the first line of defense for agriculture, which is 
the largest industry and employer in the United States, generating more 
than $1 trillion in economic activity annually. The entry of foreign 
pests and diseases can harm this important sector of our economy, the 
environment, plant and animal health, the food supply, and public 
health. The U.S. Department of Agriculture (USDA) estimates that 
foreign pests and diseases cost the American economy tens of billions 
of dollars annually in lower crop values, eradication programs, and 
emergency payments to farmers. The terrorist attacks of September 11, 
2001 heightened concerns about agriculture's vulnerability to 
terrorism, including the deliberate introduction of livestock, poultry, 
and crop diseases, such as foot-and-mouth disease or avian influenza.
    The Homeland Security Act of 2002 transferred responsibility for 
agricultural quarantine inspections from USDA to the Department of 
Homeland Security's (DHS) Customs and Border Protection (CBP) effective 
in March 2003, but left certain other agricultural quarantine 
responsibilities with USDA's Animal and Plant Health Inspection Service 
(APHIS). APHIS's responsibilities are to set agriculture inspection 
policy, provide related training, and collect AQI user fees. Beginning 
in March 2003, more than 1,800 agriculture specialists who had formerly 
reported to USDA became CBP employees, as CBP incorporated the 
protection of U.S. agriculture into its primary anti-terrorism mission. 
In addition to protecting U.S. agriculture and other functions, CBP's 
mission is to detect and prevent terrorists and their weapons from 
entering the United States, interdict illegal drugs and other 
contraband, and apprehend individuals who are attempting to enter the 
United States illegally. CBP faces a daunting task in protecting U.S. 
agriculture from accidental or deliberate introduction of diseases or 
pests, while attending to these missions.
    After examining concerns that the transfer of agricultural 
inspections to CBP could shift the focus away from agriculture to CBP's 
other mission priorities, we reported in May 2006 on the coordination 
between USDA and DHS and made several recommendations to help ensure 
that U.S. agriculture is protected from accidentally or intentionally 
introduced pests and diseases.\1\ USDA and DHS generally agreed with 
the report's recommendations. In preparing this report, we surveyed a 
representative sample of CBP's agriculture specialists on their work 
experiences before and after the transfer and included the responses to 
the survey's 31 multiple-choice questions in the report.\2\ The survey 
also asked two open-ended questions: (1) What is going well with 
respect to your work as an agriculture specialist? and (2) What would 
you like to see changed or improved with respect to your work as an 
agriculture specialist? In November 2006, we separately reported on the 
common themes in the narrative responses.\3\ My testimony today is 
based on these two reviews. We conducted the reviews from April 2005 
through October 2006 in accordance with generally accepted government 
auditing standards.
---------------------------------------------------------------------------
    \1\ GAO, Homeland Security: Management and Coordination Problems 
Increase the Vulnerability of U.S. Agriculture to Foreign Pests and 
Disease, GAO-06-644 (Washington, D.C.: May 19, 2006).
    \2\ Specifically, we drew a random probability sample of 831 
agriculture specialists from the approximately 1,800 specialists 
(current as of Oct. 14, 2005) in CBP. In general, strata were defined 
by the number of specialists at the respective ports. We conducted a 
web-based survey of all specialists in the sample. Each sampled 
specialist was subsequently weighted in the analysis to account 
statistically for all specialists in the population. Thus, the 
percentages given for each question or theme can be generalized to the 
entire population of CBP agriculture specialists and are estimates (at 
the 95 percent confidence level). We received a response rate of 76 
percent.
    \3\ GAO, Homeland Security: Agriculture Specialists' Views of Their 
Work Experiences After Transfer to DHS, GAO-07-209R (Washington, D.C.: 
Nov. 14, 2006).
---------------------------------------------------------------------------
    This morning I will focus on three key findings:

  <bullet> CBP and APHIS have taken steps intended to strengthen the 
        AQI program since the transfer of inspection responsibilities 
        from USDA to DHS following passage of the Homeland Security Act 
        of 2002. CBP and APHIS have expanded the hours of agricultural 
        training for CBP officers and developed a national standard for 
        this training; given agriculture specialists access to CBP's 
        Automated Targeting System to focus inspections on higher-risk 
        passengers and cargo; and established a joint review process 
        for assessing compliance with the AQI program on a port-by-port 
        basis. Lastly, CBP has created new agricultural liaison 
        positions at the field office level to advise regional port 
        directors on agricultural issues. We have not assessed the 
        implementation and effectiveness of these actions.

  <bullet> Our survey of CBP agriculture specialists found that many 
        believe the agriculture inspection mission has been compromised 
        by the transfer. Although 86 percent of agriculture specialists 
        reported feeling very well prepared or somewhat prepared for 
        their duties, 59 and 60 percent of specialists answered that 
        they were conducting fewer inspections and interceptions, 
        respectively, of prohibited agricultural items since the 
        transfer. When asked what is going well with respect to their 
        work, agriculture specialists identified working relationships 
        (18 percent), nothing (13 percent), salary and benefits (10 
        percent), training (10 percent), and general job satisfaction 
        (6 percent). When asked what areas should be changed or 
        improved, they identified working relationships (29 percent), 
        priority given to the agriculture mission (29 percent), 
        problems with the CBP chain of command (28 percent), training 
        (19 percent), and inadequate equipment and supplies (17 
        percent). Agriculture specialists typically provided more 
        examples or went into greater detail in answering these 
        questions and submitted 185 pages of comments about what needs 
        improvement--roughly four times more than their responses about 
        what was going well. Based on private and public sector 
        experiences with mergers, these morale issues are not 
        unexpected because employees often worry about their place in 
        the new organization.

  <bullet> CBP must address several management challenges to reduce the 
        vulnerability of U.S. agriculture to foreign pests and 
        diseases. Specifically, as of our May 2006 report, CBP had not 
        used available inspection and interception data to evaluate the 
        effectiveness of the AQI program, although the agency told us 
        it has subsequently taken some steps--such as publishing 
        monthly reports on inspections, arrivals, and seizures of 
        various prohibited items, including agricultural quarantine 
        material and pest interceptions--that we have not evaluated. 
        Moreover, at the time of our May 2006 review, CBP had not 
        developed sufficient performance measures to manage and 
        evaluate the AQI program. CBP's measures focused only on two 
        pathways--the percentage of (1) international air passengers 
        and (2) border vehicle passengers that comply with AQI 
        regulations--by which foreign pests and diseases may enter the 
        country, but did not consider other important pathways such as 
        commercial aircraft, vessels, and truck cargo that may pose a 
        risk to U.S. agriculture. In early 2007, a joint team from CBP 
        and APHIS agreed to implement additional performance measures 
        for AQI activities in all major pathways at ports of entry. 
        Some of these measures were implemented in Fiscal Year 2007; 
        others are planned for Fiscal Years 2008 and 2009. However, we 
        have not evaluated the adequacy of these new measures for 
        assessing the AQI program's effectiveness at intercepting 
        foreign pests and diseases. In addition, CBP has allowed the 
        agriculture canine program to deteriorate, with fewer canine 
        teams and declining proficiency scores. In the past, these dogs 
        have been a key tool for targeting passengers and cargo for 
        detailed inspections. Lastly, CBP does not have the agriculture 
        specialists needed to perform its AQI responsibilities based on 
        its staffing model. Specifically, as of mid-August 2007, CBP 
        said it had 2,116 agriculture specialists on staff, compared to 
        3,154 specialists needed, according to the model.
CBP and APHIS Have Taken Steps Intended to Strengthen the AQI Program
    CBP and APHIS have taken four major steps intended to strengthen 
the AQI program since the transfer of responsibilities following 
passage of the Homeland Security Act of 2002. To date, we have not done 
work to assess the implementation and effectiveness of these actions.
    First, CBP and APHIS expanded the hours of training on agricultural 
issues for CBP officers, whose primary duty is customs and immigration 
inspection, and for CBP agriculture specialists, whose primary duty is 
agricultural inspection. Specifically, newly hired CBP officers receive 
16 hours of training on agricultural issues, whereas before the 
transfer to CBP, customs inspectors received 4 hours of agricultural 
training, and immigration inspectors received 2 hours. CBP and APHIS 
also expanded agriculture training for CBP officers at their respective 
ports of entry to help them make better-informed decisions on 
agricultural items at high-volume border traffic areas. Additionally, 
CBP and APHIS have standardized the in-port training program and have 
developed a national standard for agriculture specialists with a 
checklist of activities for agriculture specialists to master. These 
activities are structured into an 8 week module on passenger inspection 
procedures and a 10 week module on cargo inspection procedures. Based 
on our survey of agriculture specialists, we estimate that 75 percent 
of specialists hired by CBP believe that they received sufficient 
training (on the job and at the Professional Development Center) to 
enable them to perform their agriculture inspection duties.\4\
---------------------------------------------------------------------------
    \4\ The full survey results are available in Appendix II of GAO-06-
644.
---------------------------------------------------------------------------
    Second, CBP and APHIS have taken steps designed to better target 
shipments and passengers that potentially present a high risk to U.S. 
agriculture. Specifically, some CBP agriculture specialists received 
training and were given access to CBP's Automated Targeting System, a 
computer system that, among other things, is designed to focus limited 
inspection resources on higher-risk passengers and cargo and facilitate 
expedited clearance or entry for low-risk passengers and cargo. This 
system gives agriculture specialists detailed information from cargo 
manifests and other documents that shipping companies are required to 
submit before the ship arrives in a port to help them select high-risk 
cargo for inspection. CBP and APHIS headquarters personnel also use 
this information to identify companies that had previously violated 
U.S. quarantine laws. For example, according to a senior APHIS 
official, the two agencies used this system to help identify companies 
that have used seafood containers to smuggle uncooked poultry products 
from Asia, which are currently banned because of concerns over avian 
influenza.
    Third, CBP and APHIS established a formal assessment process 
intended to ensure that ports of entry carry out agricultural 
inspections in accordance with the agricultural quarantine inspection 
program's regulations, policies, and procedures. The process, called 
Joint Agency Quality Assurance Reviews, covers topics such as (1) CBP 
coordination with other Federal agencies; (2) agriculture specialist 
training; (3) specialist access to regulatory manuals; and (4) 
specialist adherence to processes for handling violations at the port, 
inspecting passenger baggage and vehicles, and intercepting, seizing, 
and disposing of confiscated materials. The reviews address best 
practices and deficiencies at each port and make recommendations for 
corrective actions to be implemented within 6 weeks. For example, 
regarding best practices, a review of two ports found that the 
placement of CBP, APHIS, and Food and Drug Administration staff in the 
same facility enhanced their coordination. This review also lauded 
their targeting of non-agricultural products that are packed with 
materials, such as wood, that may harbor pests or diseases that could 
pose a risk to U.S. agriculture. Regarding deficiencies, this review 
found that the number of CBP agriculture specialists in each port was 
insufficient, and that the specialists at one of the ports were 
conducting superficial inspections of commodities that should have been 
inspected more intensely. According to CBP, the agency took actions to 
correct these deficiencies, although we have not evaluated those 
actions. In September 2007, CBP said that the joint review team had 
conducted 13 reviews in Fiscal Years 2004 through 2006, and seven 
reviews were completed or underway for Fiscal Year 2007. Seven 
additional reviews are planned for Fiscal Year 2008.
    Last, in May 2005, CBP required each director in its 20 district 
field offices to appoint an agriculture liaison, with background and 
experience as an agriculture specialist, to provide CBP field office 
directors with agriculture-related input for operational decisions and 
agriculture specialists with senior-level leadership. The agriculture 
liaisons are to, among other things, advise the director of the field 
office on agricultural functions; provide oversight for data 
management, statistical analysis, and risk management; and coordinate 
agriculture inspection alerts. CBP officials told us that all district 
field offices had established the liaison position as of January 2006. 
Since the creation of the position, agriculture liaisons have 
facilitated the dissemination of urgent alerts from APHIS to CBP. They 
also provide information back to APHIS. For example, following a large 
increase in the discovery of plant pests at a port in November 2005, 
the designated agriculture liaison sent notice to APHIS, which then 
issued alerts to other ports. APHIS and CBP subsequently identified 
this agriculture liaison as a contact for providing technical advice 
for inspecting and identifying this type of plant pest.
Many Agriculture Specialists Believe That the Agricultural Mission Has 
        Been Compromised
    In Fiscal Year 2006, we surveyed a representative sample of CBP 
agriculture specialists regarding their experiences and opinions since 
the transfer of the AQI program from APHIS to CBP.\5\ In general, the 
views expressed by these specialists indicate that they believe that 
the agricultural inspection mission has been compromised. We note that 
morale issues are not unexpected in a merger such as the integration of 
the AQI mission and staff into CBP's primary anti-terrorism mission. 
GAO has previously reported on lessons learned from major private and 
public sector experiences with mergers that DHS could use when 
combining its various components into a unified Department.\6\ Among 
other things, productivity and effectiveness often decline in the 
period following a merger, in part because employees often worry about 
their place in the new organization.
---------------------------------------------------------------------------
    \5\ The survey was available from November 15, 2005, until January 
9, 2006.
    \6\ GAO, Mergers and Transformation: Lessons Learned for a 
Department of Homeland Security and Other Federal Agencies, GAO-03-
293SP (Washington, D.C.: Nov. 14, 2002) and Results-Oriented Cultures: 
Implementation Steps to Assist Mergers and Organizational 
Transformations, GAO-03-669 (Washington, D.C.: July 2, 2003).
---------------------------------------------------------------------------
    Nonetheless, based on the survey results, while 86 percent of 
specialists reported feeling very well or somewhat prepared for their 
duties as an agriculture specialist, many believed that the agriculture 
mission had been compromised by the transfer. Specifically:

  <bullet> 59 percent of experienced specialists indicated that they 
        are doing either somewhat or many fewer inspections since the 
        transfer, and 60 percent indicated that they are doing somewhat 
        or many fewer interceptions.

  <bullet> 63 percent of agriculture specialists believed their port 
        did not have enough specialists to carry out agriculture-
        related duties.

  <bullet> Agriculture specialists reported that they spent 62 percent 
        of their time on agriculture inspections, whereas 35 percent of 
        their time was spent on non-agricultural functions such as 
        customs and immigration inspections.

    In addition, there appear to be morale issues based on the 
responses to two open-ended questions: (1) What is going well with 
respect to your work as an agriculture specialist? and (2) What would 
you like to see changed or improved with respect to your work as an 
agriculture specialist? Notably, the question about what needs 
improving generated a total of 185 pages of comments--roughly four 
times more than that generated by the responses to our question on what 
was going well. Further, ``Nothing is going well'' was the second-most 
frequent response to the question on what is going well.
    We identified common themes in the agriculture specialists' 
responses to our first question about what is going well with respect 
to their work as an agriculture specialist. The five most common themes 
were:

  <bullet> Working relationships. An estimated 18 percent of 
        agriculture specialists cited the working relationship among 
        agriculture specialists and CBP officers and management as 
        positive. These specialists cited increasing respect and 
        interest by non-specialists in the agriculture mission, and the 
        attentiveness of CBP management to agriculture specialists' 
        concerns.

  <bullet> Nothing. An estimated 13 percent of agriculture specialists 
        reported that nothing is going well with their work. For 
        example, some respondents noted that the agriculture inspection 
        mission has been compromised under CBP and that agriculture 
        specialists are no longer important or respected by management.

  <bullet> Salary and Benefits. An estimated 10 percent of agriculture 
        specialists expressed positive comments about their salary and 
        benefits, with some citing increased pay under CBP, a flexible 
        work schedule, increased overtime pay, and retirement benefits 
        as reasons for their views.

  <bullet> Training. An estimated 8 percent of agriculture specialists 
        identified elements of classroom and on-the-job training as 
        going well. Some observed that new hires are well trained and 
        that agriculture-related classroom training at the Professional 
        Development Center in Frederick, Maryland, is adequate for 
        their duties.

  <bullet> General job satisfaction. An estimated 6 percent of 
        agriculture specialists were generally satisfied with their 
        jobs, reporting, among other things, that they were satisfied 
        in their working relationships with CBP management and 
        coworkers and that they believed in the importance of their 
        work in protecting U.S. agriculture from foreign pests and 
        diseases.

    In contrast, agriculture specialists wrote nearly four times as 
much in response to our question about what they would like to see 
changed or improved with respect to their work as agriculture 
specialists. In addition, larger proportions of specialists identified 
each of the top five themes.

  <bullet> Declining mission. An estimated 29 percent of agriculture 
        specialists were concerned that the agriculture mission is 
        declining because CBP has not given it adequate priority. Some 
        respondents cited the increase in the number of cargo items and 
        flights that are not inspected because of staff shortages, 
        scheduling decisions by CBP port management, and the release of 
        prohibited or restricted products by CBP officers.

  <bullet> Working relationships. An estimated 29 percent of the 
        specialists expressed concern about their working relationships 
        with CBP officers and management. Some wrote that CBP officers 
        at their ports view the agriculture mission as less important 
        than CBP's other priorities, such as counter-narcotics and 
        anti-terrorism activities. Others noted that CBP management is 
        not interested in, and does not support, agriculture 
        inspections.

  <bullet> CBP chain of command. An estimated 28 percent of agriculture 
        specialists identified problems with the CBP chain of command 
        that impede timely actions involving high-risk interceptions, 
        such as a lack of managers with an agriculture background and 
        the agency's rigid chain of command structure. For example, 
        agriculture specialists wrote that requests for information 
        from USDA pest identification experts must be passed up the CBP 
        chain of command before they can be conveyed to USDA.

  <bullet> Training. An estimated 19 percent of agriculture specialists 
        believed that training in the classroom and on the job is 
        inadequate. For example, some respondents expressed concern 
        about a lack of courses on DHS's targeting and database 
        systems, which some agriculture specialists use to target high-
        risk shipments and passengers. Also, some agriculture 
        specialists wrote that on-the-job training at their ports is 
        poor, and that CBP officers do not have adequate agriculture 
        training to recognize when to refer items to agriculture 
        specialists for inspection.

  <bullet> Lack of equipment. An estimated 17 percent of agriculture 
        specialists were concerned about a lack of equipment and 
        supplies. Some respondents wrote that the process for 
        purchasing items under CBP results in delays in acquiring 
        supplies and that there is a shortage of agriculture-specific 
        supplies, such as vials, gloves, and laboratory equipment.

    These themes are consistent with responses to relevant multiple-
choice questions in the survey. For example, in response to one of 
these questions, 61 percent of agriculture specialists believed their 
work was not respected by CBP officers, and 64 percent believed their 
work was not respected by CBP management.
Management Problems May Leave U.S. Agriculture Vulnerable to Foreign 
        Pests and Diseases
    Although CBP and APHIS have taken a number of actions intended to 
strengthen the AQI program since its transfer to CBP, several 
management problems remain that may leave U.S. agriculture vulnerable 
to foreign pests and diseases. Most importantly, CBP has not used 
available data to evaluate the effectiveness of the program. These data 
are especially important in light of many agriculture specialists' 
views that the agricultural mission has been compromised and can help 
CBP determine necessary actions to close any performance gaps. 
Moreover, at the time of our May 2006 review, CBP had not developed 
sufficient performance measures to manage and evaluate the AQI program, 
and the agency had allowed the agricultural canine program to 
deteriorate. Furthermore, based on its staffing model, CBP does not 
have the agriculture specialists needed to perform its AQI 
responsibilities.
    CBP has not used available data to monitor changes in the frequency 
with which prohibited agricultural materials and reportable pests are 
intercepted during inspection activities. CBP agriculture specialists 
record monthly data in the Work Accomplishment Data System for each 
port of entry, including (1) arrivals of passengers and cargo to the 
United States via airplane, ship, or vehicle; (2) agricultural 
inspections of arriving passengers and cargo; and (3) inspection 
outcomes, i.e., seizures or detections of prohibited (quarantined) 
agricultural materials and reportable pests. As of our May 2006 report, 
CBP had not used these data to evaluate the effectiveness of the AQI 
program.
    For example, our analysis of the data for the 42 months before and 
31 months after the transfer of responsibilities from APHIS to CBP 
shows that average inspection and interception rates have changed 
significantly in some geographical regions of the United States, with 
rates increasing in some regions and decreasing in others. (Appendixes 
I and II provide more information on average inspection and 
interception rates before and after the transfer from APHIS to CBP.) 
Specifically, average inspection rates declined significantly in the 
Baltimore, Boston, Miami, and San Francisco district field offices, and 
in preclearance locations in Canada, the Caribbean, and Ireland. 
Inspection rates increased significantly in seven other districts--
Buffalo, El Paso, Laredo, San Diego, Seattle, Tampa, and Tucson. In 
addition, the average rate of interceptions decreased significantly at 
ports in six district field offices--El Paso, New Orleans, New York, 
San Juan, Tampa, and Tucson--while average interception rates have 
increased significantly at ports in the Baltimore, Boston, Detroit, 
Portland, and Seattle districts.
    Of particular note are three districts that have experienced a 
significant increase in their rate of inspections and a significant 
decrease in their interception rates since the transfer. Specifically, 
since the transfer, the Tampa, El Paso, and Tucson districts appear to 
be more efficient at inspecting (e.g., inspecting a greater proportion 
of arriving passengers or cargo) but less effective at interceptions 
(e.g., intercepting fewer prohibited agricultural items per 
inspection). Also of concern are three districts--San Juan, New 
Orleans, and New York--that are inspecting at about the same rate, but 
intercepting less, since the transfer.
    When we showed the results of our analysis to senior CBP officials, 
they were unable to explain these changes or determine whether the 
current rates were appropriate relative to the risks, staffing levels, 
and staff expertise associated with individual districts or ports of 
entry. These officials also noted that CBP has had problems 
interpreting APHIS data reports because CBP lacked staff with expertise 
in agriculture and APHIS's data systems in some district offices. As of 
our May 2006 report, CBP had not yet completed or implemented its plan 
to add agriculture-related data to its system for monitoring customs 
inspections. However, in September 2007, CBP said it had taken steps to 
use these data to evaluate the program's effectiveness. For example, 
CBP publishes a monthly report that includes analysis of efficiency 
inspections, arrivals, exams, and seizures of prohibited items, 
including agricultural quarantine material and pest interceptions, for 
each pathway. CBP also conducts a mid-year analysis of APHIS and CBP 
data to assess agricultural inspection efficiency at ports of entry. 
While these appear to be positive steps, we have not assessed their 
adequacy to measure the AQI program's effectiveness.
    A second management problem for the AQI program is an incomplete 
set of performance measures to balance multiple responsibilities and 
demonstrate results. As of our May 2006 report, CBP had not developed 
and implemented its own performance measures for the program. Instead, 
according to CBP officials, CBP carried over two measures that APHIS 
had used to assess the AQI program before the transfer: the percentages 
of international air passengers and border vehicle passengers that 
comply with program regulations. However, these measures addressed only 
two pathways for agricultural pests, neglecting other pathways such as 
commercial aircraft, vessels, and truck cargo. Further, these 
performance measures did not provide information about changes in 
inspection and interception rates, which could help assess the 
efficiency and effectiveness of agriculture inspections in different 
regions of the country or at individual ports of entry. They also did 
not address the AQI program's expanded mission--to prevent agro-
terrorism while facilitating the flow of legitimate trade and travel. 
In early 2007, a joint team from CBP and APHIS agreed to implement 
additional performance measures for AQI activities in all major 
pathways at ports of entry. Specifically, CBP said that in Fiscal Year 
2007 it implemented measures for the percentages of land border, air, 
and maritime regulated cargo and shipments in compliance with AQI 
regulations. Furthermore, the agency plans to add additional 
performance measures such as percentage of passengers, vehicles, or 
mail in compliance in Fiscal Years 2008 and 2009. However, we have not 
evaluated the adequacy of these new performance measures for assessing 
the AQI program's effectiveness at intercepting foreign pests and 
diseases.
    Third, the number and proficiency of canine teams decreased 
substantially between the time of the transfer, March 2003, and the 
time of our review, May 2006. In the past, these dogs have been a key 
tool for targeting passengers and cargo for detailed inspections. 
Specifically, APHIS had approximately 140 canine teams nationwide at 
the time of the transfer, but CBP had only 80 such teams at the time of 
our review. With regard to proficiency, 60 percent of the 43 
agriculture canine teams tested by APHIS in 2005 failed proficiency 
tests. These tests require the dog to respond correctly in a 
controlled, simulated work environment and ensure that dogs are working 
effectively to catch potential prohibited agricultural material. In 
general, canine specialists we interviewed expressed concern that the 
proficiency of their dogs was deteriorating due to a lack of working 
time. That is, the dogs were sidelined while the specialists were 
assigned to other duties. In addition, based on our survey results, 46 
percent of canine specialists said they were directed to perform duties 
outside their primary canine duties daily or several times a week. 
Furthermore, 65 percent of canine specialists indicated that they 
sometimes or never had funding for training supplies. Another major 
change to the canine program, following the transfer, was CBP's 
elimination of all canine management positions.
    Finally, based on its staffing model, CBP lacks adequate numbers of 
agriculture specialists to accomplish the agricultural mission. The 
Homeland Security Act authorized the transfer of up to 3,200 AQI 
personnel from USDA to DHS. In March 2003, APHIS transferred a total of 
1,871 agriculture specialist positions, including 317 vacancies, to CBP 
and distributed those positions across CBP's 20 district field offices, 
encompassing 139 ports of entry. Because of the vacancies, CBP lacked 
adequate numbers of agriculture specialists from the beginning and had 
little assurance that appropriate numbers of specialists were staffed 
at each port of entry. Although CBP has made some progress in hiring 
agriculture specialists since the transfer, we previously reported that 
CBP lacked a staffing model to ensure that more than 630 newly hired 
agriculture specialists were assigned to the ports with the greatest 
need, and to ensure that each port had at least some experienced 
specialists. Accordingly, in May 2006 we recommended that APHIS and CBP 
work together to develop a national staffing model to ensure that 
agriculture staffing levels at each port are sufficient. Subsequently, 
CBP developed a staffing model for its ports of entry and provided GAO 
with its results. Specifically, as of mid-August 2007, CBP said it had 
2,116 agriculture specialists on staff, compared to 3,154 such 
specialists needed according to the model.
Conclusions
    The global marketplace of agricultural trade and international 
travel has increased the number of pathways for the movement and 
introduction into the United States of foreign and invasive 
agricultural pests and diseases such as foot-and-mouth disease and 
avian influenza. Given the importance of agriculture to the U.S. 
economy, ensuring the effectiveness of Federal programs to prevent 
accidental or deliberate introduction of potentially destructive 
organisms is critical. Accordingly, effective management of the AQI 
program is necessary to ensure that agriculture issues receive 
appropriate attention. Although we have reported that CBP and APHIS 
have taken steps to strengthen agricultural quarantine inspections, 
many agriculture specialists believe that the agricultural mission has 
been compromised. While morale issues, such as the ones we identified, 
are to be expected in the merger establishing DHS, CBP had not used key 
data to evaluate the program's effectiveness and could not explain 
significant increases and decreases in inspections and interceptions. 
In addition, CBP had not developed performance measures to demonstrate 
that it is balancing its multiple mission responsibilities, and it does 
not have sufficient agriculture specialists based on its staffing 
model. Until the integration of agriculture issues into CBP's overall 
anti-terrorism mission is more fully achieved, U.S. agriculture may be 
left vulnerable to the threat of foreign pests and diseases.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have at this time.
Contact and Staff Acknowledgments
    Contact points for our Offices of Congressional Relations and 
Public Affairs may be found on the last page of this statement. For 
further information about this testimony, please contact Lisa Shames at 
(202) 512-3841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e4d565f535b4d527e595f511059514810">[email&#160;protected]</a> Key contributors to this testimony 
were James Jones, Jr.; Assistant Director, and Terrance Horner, Jr.; 
Josey Ballenger; Kevin Bray; Chad M. Gorman; Lynn Musser; Omari Norman; 
Alison O'Neill; and Steve C. Rossman also made important contributions.

              Appendix I: Average Inspection Rates Before and After the Transfer From APHIS to CBP 
----------------------------------------------------------------------------------------------------------------

                Table 1: Average Inspection Rates Before and After the Transfer From APHIS to CBP
----------------------------------------------------------------------------------------------------------------
                          Average inspection     Average inspection
 District field office   rate before (October    rate after (March        Difference a           Statistical
                         1999-February 2003)    2003-September 2005)                           significance b
----------------------------------------------------------------------------------------------------------------
           Atlanta                     9.7                    8.8                 - 0.9                    No
         Baltimore                    18.2                   10.0                 - 8.2                   Yes
            Boston                    30.9                   13.0                - 17.9                   Yes
           Buffalo                     0.1                    0.5                   0.3                   Yes
           Chicago                    18.0                   18.5                   0.5                    No
           Detroit                     3.1                    2.9                 - 0.2                    No
           El Paso                     2.9                    4.4                   1.5                   Yes
           Houston                    13.2                   12.1                 - 1.1                    No
                  Laredo               7.7                    8.8                   1.1                   Yes
                  Los Angeles         12.5                   10.4                 - 2.1                    No
             Miami                    35.8                   23.1                - 12.7                   Yes
       New Orleans                    37.6                   41.8                   4.3                    No
          New York                    12.0                   11.8                 - 0.2                    No
    Preclearance c                     7.8                    3.4                 - 4.4                   Yes
          Portland                    13.0                   12.6                 - 0.4                    No
         San Diego                    12.6                   16.3                   3.6                   Yes
     San Francisco                    40.4                   19.0                - 21.4                   Yes
          San Juan                    62.4                   57.6                 - 4.8                    No
           Seattle                     2.3                    3.1                   0.8                   Yes
             Tampa                    19.6                   30.7                  11.1                   Yes
            Tucson                     2.6                    4.0                   1.4                   Yes
----------------------------------------------------------------------------------------------------------------
Source: GAO calculations of APHIS's Work Accomplishment Data System, Fiscal Years 2000 through 2005.
 a Because of rounding, values in the difference column may not equal the difference between rounded inspection
  rates.
 b Statistical significance for each field office was calculated at the 99.75 percent confidence level so that
  the confidence level of all 21 statistical significance outcomes, collectively, is about 95 percent.
 c Preclearance inspections were conducted at 14 locations in Canada, the Caribbean, and Ireland. Individuals
  arriving in the U.S. from those locations did not undergo another inspection upon arrival in the United
  States. According to CBP, preclearance inspections were done only as a pilot and not as an ongoing program
  within the agency.


             Appendix II: Average Interception Rates Before and After the Transfer From APHIS to CBP 
----------------------------------------------------------------------------------------------------------------

               Table 2: Average Interception Rates Before and After the Transfer From APHIS to CBP
----------------------------------------------------------------------------------------------------------------
                         Average interception   Average interception
 District field office   rate before (October    rate after (March        Difference a           Statistical
                         1999-February 2003)    2003-September 2005)                           significance b
----------------------------------------------------------------------------------------------------------------
           Atlanta                    10.7                   11.5                   0.8                    No
         Baltimore                     7.6                   10.4                   2.8                   Yes
            Boston                     3.9                   12.4                   8.5                   Yes
           Buffalo                    15.4                   30.2                  14.8                    No
           Chicago                     6.8                    5.6                 - 1.3                    No
           Detroit                     7.7                   20.7                  13.0                   Yes
           El Paso                     9.4                    5.7                 - 3.7                   Yes
           Houston                     7.9                    8.4                   0.4                    No
                  Laredo               4.4                    3.9                 - 0.5                    No
                  Los Angeles          7.4                    8.7                   1.3                    No
             Miami                     5.3                    5.8                   0.4                    No
       New Orleans                     5.9                    3.5                 - 2.4                   Yes
          New York                    18.1                   10.2                 - 7.9                   Yes
     Preclearancec                    10.1                   24.4                  14.2                   Yes
          Portland                     9.6                   14.9                   5.3                   Yes
         San Diego                     1.3                    1.4                   0.2                    No
     San Francisco                    10.5                   10.6                   0.1                    No
          San Juan                     6.1                    3.5                 - 2.5                   Yes
           Seattle                    30.1                   46.5                  16.4                   Yes
             Tampa                     8.3                    3.0                 - 5.2                   Yes
            Tucson                     9.0                    7.0                 - 2.0                   Yes
----------------------------------------------------------------------------------------------------------------
Source: GAO calculations of APHIS's Work Accomplishment Data System, Fiscal Years 2000 through 2005.
 a Because of rounding, values in the difference column may not equal the difference between rounded
  interception rates.
 b Statistical significance for each field office was calculated at the 99.75 percent confidence level so that
  the confidence level of all 21 statistical significance outcomes, collectively, is about 95 percent.
 c Preclearance inspections were conducted at 14 locations in Canada, the Caribbean, and Ireland. Individuals
  arriving in the United States from those locations did not undergo another inspection upon arrival in the
  United States. According to CBP, preclearance inspections were done only as a pilot and not as an ongoing
  program within the agency.

                          Related GAO Products
    Department of Homeland Security: Progress Report on Implementation 
of Mission and Management Functions. GAO-07-1240T. Washington, D.C.: 
September 18, 2007.
    Department of Homeland Security: Progress Report on Implementation 
of Mission and Management Functions. GAO-07-454. Washington, D.C.: 
August 17, 2007.
    Customs Revenue: Customs and Border Protection Needs to Improve 
Workforce Planning and Accountability. GAO-07-529. Washington, D.C.: 
April 12, 2007.
    Homeland Security: Agriculture Specialists' Views of Their Work 
Experiences after Transfer to DHS. GAO-07-209R. Washington, D.C.: 
November 14, 2006.
    Invasive Forest Pests: Recent Infestations and Continued 
Vulnerabilities at Ports of Entry Place U.S. Forests at Risk. GAO-06-
871T. Washington, D.C.: June 21, 2006.
    Homeland Security: Management and Coordination Problems Increase 
the Vulnerability of U.S. Agriculture to Foreign Pests and Disease. 
GAO-06-644. Washington, D.C.: May 19, 2006.
    Homeland Security: Much Is Being Done to Protect Agriculture from a 
Terrorist Attack, but Important Challenges Remain. GAO-05-214. 
Washington, D.C.: March 8, 2005.
    Results-Oriented Cultures: Implementation Steps to Assist Mergers 
and Organizational Transformations. GAO-03-669. Washington, D.C.: July 
2, 2003.
    Mergers and Transformation: Lessons Learned for a Department of 
Homeland Security and Other Federal Agencies. GAO-03-293SP. Washington, 
D.C.: November 14, 2002.
    Homeland Security: Critical Design and Implementation Issues. GAO-
02-957T. Washington, D.C.: July 17, 2002.

    The Chairman. Thank you, Ms. Shames. We will get to those 
questions in just a moment. I now would like to call on Mr. 
James Taylor, Deputy Inspector General for the Office of 
Inspector General, U.S. Department of Homeland Security to make 
your testimony, sir. Please proceed.

         STATEMENT OF JAMES L. TAYLOR, DEPUTY INSPECTOR
  GENERAL AND ACTING ASSISTANT INSPECTOR GENERAL FOR AUDITS, 
               OFFICE OF INSPECTOR GENERAL, U.S.
DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.; ACCOMPANIED 
   BY KATHLEEN S. TIGHE, DEPUTY INSPECTOR GENERAL, OFFICE OF 
                    INSPECTOR GENERAL, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Taylor. Thank you, Mr. Chairman. I am Jim Taylor. I am 
the Deputy Inspector General for Homeland Security, as well as 
currently serving as the Acting Assistant Inspector General for 
Audits for Homeland Security. We appreciate the opportunity to 
appear before you today to discuss our audit report on the 
United States Customs and Border Protection agriculture 
inspection activities, as well as other post-harvest work we 
performed. I say we because I am pleased to have with me today 
Ms. Kathleen Tighe, Deputy Inspector General of the Department 
of Agriculture. The report we will be discussing was a 
collaborative effort between the USDA-OIG and the Department of 
Homeland Security's Office of Inspector General. On March 1, 
2003, functions of several border agencies, including the 
former U.S. Customs Service, the Immigration and Naturalization 
Service, and U.S. Department of Agriculture's Animal and Plant 
Health Inspection Services were transferred to CBP upon 
creation of DHS. CBP assumed responsibility for inspection of 
agricultural goods arriving in the United States at ports of 
entry. USDA retained responsibility for setting policies and 
procedures in areas such as agricultural inspections, data 
collection, and risk assessment.
    In February 2005, DHS-OIG and USDA-OIG began a joint audit 
of the agriculture inspection activities transferred from USDA-
APHIS to CBP. This audit assessed how well CBP communicated and 
cooperated with USDA on issues relating to policies and 
procedures, complied with established procedures for 
agriculture inspections of passengers and cargo, and tracked 
agriculture inspection activities. It also assessed the 
effectiveness of USDA in providing CBP with the necessary 
policy and procedural guidance to perform this critical 
function. Our audit was a broad-based effort that generally 
covered agricultural inspection activities from March 2003 to 
February 2005. We tested procedures and controls and observed 
inspection activities in areas such as agricultural quarantine 
inspection monitoring and Work Accomplishment Data Systems.
    To accomplish the audit objectives, we conducted field work 
at CBP headquarters in Washington, and at ports located in 
Chicago, Detroit, Laredo, and Miami, Florida. The AQM, which is 
a risk assessment system that evaluates the effectiveness of 
inspection activities at both traditional and non-traditional 
pathways into the United States is one of the areas we 
specifically identified issues with. We found that CBP sampling 
did not meet requirements for 13 of 18 pathway activities at 
the four ports we reviewed. Further, CBP supervisors did not 
sufficiently monitor AQIM sampling requirements at the port 
level to ensure sampling was performed as required and sampling 
results were reported correctly, which is critical in helping 
USDA predict potential future risks to agriculture from pests 
and diseases.
    Second, we identified issues with the accuracy of CBP's 
Work Accomplishment Data System or WADS, which is used to track 
ports' agricultural inspection activities. All four ports we 
reviewed had WADS inspection activity errors. The errors 
included both under and over reporting of data needed to 
identify future agricultural risks. At the ports 107 of 148 
WADS activity codes examined were reported incorrectly or 
lacked supporting documentation to allow verification. CBP had 
inadequate second party reviews of data input, a lack of 
sufficiently trained personnel, and port personnel 
misinterpreting APHIS instructions. Similar issues were 
previously reported by the USDA when it reviewed APHIS prior to 
the transition. At the time of our audit the agricultural 
inspection staffing patterns were based on the staffing model 
previously used by APHIS.
    This model used WADS data to determine the staffing 
required for each inspection activity. Before the transition, 
USDA officials agreed with USDA-OIG that the existing staffing 
models were not well suited to determining staffing needs for 
cargo inspections. At the time of our audit CBP agricultural 
specialist staffing had decreased since the transition. CBP's 
agricultural inspection positions totaled 2,417 including 
vacancies with 2,071 on board as of June 2003. As of February 
2005, agricultural staffing had decreased to 1,721 total on 
board, a 17 percent reduction. As of September of this year, 
the total number of agricultural specialists has increased to 
2,142. In addition, CPB had not developed comprehensive 
performance measures to monitor the effectiveness of all its 
agriculture inspection activities.
    CPB used two performance measures, one for international 
air passengers, and another for border vehicle passengers. 
However, agricultural inspections related to air, truck, mail, 
pedestrian, and maritime pathways did not have performance 
measures. In all, we made 10 recommendations to DHS and three 
to USDA to improve the efficiency and effectiveness of 
agricultural inspection activities. Management concurred with 
all the recommendations and has reported implementation of all 
but one. In addition to the work listed above, DHS-OIG has 
conducted other inspections and reviews relating to post-
harvest food focused on prevention, protection, preparedness, 
and detection efforts. The Federal Government is charged with 
defending the food supply from international intentional 
attacks and natural hazards. While DHS is not the designated 
lead for a number of key activities in this area the Congress 
and the President assigned DHS many important food defense and 
critical infrastructure protection responsibilities.
    Our report examined DHS activities related to post-harvest 
food and focuses on prevention, protection, preparedness, and 
detection efforts. Last, in 2005 we performed an assessment of 
the proposal to merge border protection and immigration and 
customs enforcement. The merger was proposed to place customs, 
immigration, and agricultural inspectors at ports of entry 
under a single chain of command. It was an effort to integrate 
the seemingly common functions divided at the time among the 
three Departments. We made 14 recommendations to overcome the 
interagency coordination and integration challenges confronting 
CBP. While not making specific recommendations on agricultural 
activities our recommendations impacted policy affecting 
integration issues for all the legacy functions.
    Mr. Chairman, this concludes my prepared statement, and we 
would be pleased to answer any questions you and the Committee 
Members may have.
    [The prepared statement of Mr. Taylor follows:]

  Prepared Statement of James L. Taylor, Deputy Inspector General and
   Acting Assistant Inspector General for Audits, Office of Inspector
    General, U.S. Department of Homeland Security, Washington, D.C.
    Good morning, Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to discuss our audit report on United 
States Customs and Border Protection's (CBP's) agriculture inspection 
activities at the border \1\ and other work we performed in post-
harvest areas. Our statement today focuses on these results. I am 
pleased to have with me here today Kathleen Tighe, Deputy Inspector 
General of the U.S. Department of Agriculture, Office of Inspector 
General (USDA-OIG). The report we will be discussing was a 
collaborative effort between the Department of Homeland Security Office 
of Inspector General (DHS-OIG) and USDA-OIG.
---------------------------------------------------------------------------
    \1\ Review of Customs and Border Protection Agriculture Inspection 
Activities (OIG-07-32, February 2007).
---------------------------------------------------------------------------
Background
    On March 1, 2003, functions of several border agencies, including 
the former U.S. Customs Service, the Immigration and Naturalization 
Service (INS), and U.S. Department of Agriculture's Animal and Plant 
Health Inspection Service (USDA-APHIS), were transferred to CBP upon 
creation of DHS. CBP assumed responsibility for inspection of 
agricultural goods arriving in the United States at ports of entry. 
USDA-APHIS retained responsibility for setting policies and procedures 
in areas such as agricultural inspections, data collection, and risk 
assessments.
    In February 2005, with the DHS-OIG serving as the lead, DHS-OIG and 
the USDA-OIG began a joint audit of the agriculture inspection 
activities transferred from USDA Animal and Plant Health Inspection 
Service (APHIS) to CBP. This audit assessed how well CBP communicated 
and cooperated with USDA on issues relating to agriculture inspection 
policies and procedures; complied with established procedures for 
agriculture inspections of passengers and cargo; and tracked 
agriculture inspection activities. It also assessed the effectiveness 
of USDA-APHIS in providing CBP with the necessary policy and procedural 
guidance to perform agriculture inspection activities.
    Our audit was a broad-based effort that generally covered 
agricultural inspection activities from March 2003 to February 2005. We 
reviewed policies, procedures, and pertinent laws and regulations; 
interviewed CBP personnel; and reviewed documents and records. We 
tested procedures and controls, and observed inspection activities in 
areas such as Agricultural Quarantine Inspection Monitoring (AQIM) and 
the Work Accomplishment Data System (WADS). To accomplish the audit 
objectives, we conducted fieldwork at CBP headquarters in Washington, 
D.C., and at ports located in Chicago, Illinois; Detroit, Michigan; 
Laredo, Texas; and Miami, Florida. Areas of concern we identified 
included:

  <bullet> Agricultural Quarantine Inspection Monitoring--CBP's 
        Agricultural Quarantine Inspection Monitoring (AQIM) sampling 
        did not meet sampling requirements for 13 of 18 pathway 
        activities at the four ports we reviewed. Further, CBP 
        supervisors did not sufficiently monitor AQIM sampling 
        requirements at the port level to ensure sampling was performed 
        as required and sampling results reported correctly. AQIM 
        inspection results help USDA predict potential future risks to 
        agriculture from pests and diseases.

  <bullet> Work Accomplishment Data System--We identified issues with 
        accuracy of CBP's Work Accomplishment Data System (WADS) used 
        to track ports' agriculture inspection activities. All four 
        ports we reviewed had WADS inspection activity errors. The 
        errors included both under- and over-reporting of data needed 
        to identify potential agriculture risks.

  <bullet> Staffing--During our audit we found that CBP had not updated 
        the USDA agriculture specialist staffing model to ensure 
        staffing was sufficient and allocated in the most effective 
        manner. As such, CBP had no assurance that the model addressed 
        staffing needs and had the capability of adjusting to changes 
        in workload, processing time, complexity, and threat levels.

  <bullet> Performance Measures--CBP had not developed comprehensive 
        performance measures to monitor the effectiveness of all its 
        agriculture inspection activities. CBP used two performance 
        measures for agriculture inspection activities--one for 
        international air passengers and another for border vehicle 
        passengers. However, agricultural inspections related to air, 
        truck, mail, pedestrian, and maritime pathways did not have 
        performance measures.
Agricultural Quarantine Inspection Monitoring
    We identified issues of accuracy with AQIM at CBP. AQIM helps USDA 
predict potential future risks to agriculture from pests and diseases. 
AQIM is a USDA-APHIS risk-assessment system that evaluates the 
effectiveness of inspection activities in both traditional and 
nontraditional pathways into the United States. AQIM assesses the risk 
posed by agricultural pests approaching ports, and measures the 
effectiveness of the inspection program at mitigating that risk. AQIM 
at the ports of entry consists of daily or weekly random sampling and 
inspection of passenger baggage, vehicles, mail or cargo. The 
information obtained from this sampling provides USDA-APHIS with 
information on the potential future risks to the agriculture industry 
from pests and diseases. Based on the AQIM inspection results, USDA-
APHIS develops an interception rate for the particular pathway, such as 
air passenger, air cargo, and mail; the higher the interception rate, 
the greater the risk.
    AQIM is a statistically based system. CBP must provide USDA-APHIS 
with a sufficient number of results from inspections at each port to 
allow reliable risk assessments or to perform analyses that are 
beneficial to the ports in allocating their staffing resources. CBP's 
ability to better target its staffing resources to higher risk pathways 
may be limited if the required number of AQIM inspections is not 
performed and reported in a timely manner.
    CBP's AQIM sampling (October-December 2004) did not meet sampling 
requirements for 13 of 18 pathway activities at four ports. For 
example, Chicago did not meet its AQIM sampling requirements for mail, 
air passengers, and air cargo. Laredo did not perform AQIM sampling for 
pedestrians for the 3 months (October-December 2004) reviewed. Detroit 
did not have supporting documentation to verify the air passengers 
sampling and did not take the required samples for truck cargo and 
border vehicles. Miami under-reported mail for 1 month and did not meet 
its sampling requirements for maritime-perishables, maritime tiles, and 
solid wood packing. USDA-OIG had similar issues with AQIM when it was 
with USDA-APHIS.\2\
---------------------------------------------------------------------------
    \2\ Recommendation 4, page 14, USDA Report: Animal and Plant Health 
Inspection Service Safeguards to Prevent Entry of Prohibited Pests and 
Diseases into the United States (Report No. 33601-3-Ch, February 2003); 
USDA Report: Assessment of APHIS.
---------------------------------------------------------------------------
    Further, CBP supervisors did not sufficiently monitor AQIM sampling 
requirements at the port level to ensure samples were performed and 
reported correctly. During the course of our audit, CBP's Agriculture 
Programs and Liaison (APL) started follow-up action on AQIM and other 
data beginning the first quarter of FY 2005 to ensure the accuracy of 
statistical data. Prior to conducting our audit, in FY 2004, ports 
provided adequate results on only 53 of 153 AQIM activities. After APL 
started its follow-up actions, ports showed some improvement by 
reporting adequate results on 100 out of 153 AQIM activities.
    In addition to taking an insufficient number of AQIM samples, there 
were also problems with the methodology used in sampling. For example, 
the AQIM plans developed in Chicago did not provide sufficient detailed 
instructions on how to select the samples. Moreover, for air cargo, the 
sample selection plan did not include the entire universe of perishable 
products, as defined in the current USDA-APHIS requirements. Instead, 
the sampling plan was limited to sampling vegetables from the 
Netherlands. Perishables that are not sampled as required increase the 
risk that the extent of pests and diseases in these perishables may not 
be detected or known.
    Prior to our audit fieldwork, USDA-APHIS had broadened its coverage 
in certain nonagricultural items, such as solid wood packing materials 
and Italian tiles, which are known to carry pests. However, samples for 
other pathways, such as maritime freight containers and cargo-carrying 
vehicles, were generally limited to incoming cargoes already known to 
contain items of agricultural interest. Since other cargoes and 
vehicles were not sampled, the AQIM process was unlikely to identify 
pests entering through these alternate pathways. As noted in a USDA-OIG 
2003 audit report, even a limited number of AQIM inspections performed 
on nonagricultural cargoes could identify previously unknown pathways 
that should be monitored as part of CBP's agricultural inspection 
process. CBP and USDA-APHIS are currently working to address this issue 
by further broadening the scope of AQIM coverage to pathways that 
previously were not sampled.
    In addition, USDA-APHIS had not developed an AQIM process for 
incoming rail cargo. USDA-OIG identified this as an issue in a previous 
report. Our 2007 audit report noted a previous USDA-OIG recommendation 
that USDA-APHIS develop and provide to CBP a system of risk assessment 
for rail cargo so that the degree of risk associated with this pathway 
can be determined. Although USDA-APHIS officials had agreed with the 
need for a risk assessment process, they cited operational 
difficulties, such as the inability to obtain cargo manifests on a 
timely basis, as a barrier to the development of a workable AQIM 
system.
    In our 2007 report, we recommended that CBP provide adequate 
supervision and instructions to CBP personnel to ensure AQIM data 
samples are complete, properly taken, and accurately recorded. CBP 
concurred with our recommendation and reported that it issued a 
memorandum on December 1, 2006, to Directors of Field Operations (DFOs) 
reemphasizing the importance of AQIM guidelines to ensure daily AQIM 
samples are collected and all forms are completed. The DFOs also 
received a list of the AQIM required activities for Fiscal Year 2007.
    USDA-APHIS officials reported that a pest risk assessment is being 
developed for rail shipments, and its completion is anticipated by June 
30, 2008. APHIS officials also have provided plans to expand AQIM 
reviews to pathways that had previously not been covered.
Work Accomplishment Data System
    We identified issues of accuracy with CBP's Work Accomplishment 
Data System (WADS) used to track ports' agriculture inspection 
activities. The WADS database includes a daily record of agriculture 
inspection and interception activity, broken down by pathway (e.g., 
maritime, airport, land border). WADS identifies and tracks inspections 
and interceptions at the ports using different program categories, as 
well as numerous codes to denote specific activities under each program 
category. For example, activity codes for one port included aircraft 
arrivals, air passengers, and crew subject to inspection, air baggage 
interceptions, air cargo inspections, and air cargo interceptions. Each 
port is required to collect, report, and transmit this data to USDA-
APHIS. USDA-APHIS uses WADS data for setting risk management priorities 
and for staffing recommendations.
    CBP and USDA-APHIS cannot fully rely on the WADS data, which can 
impair the agencies' ability to manage the agricultural inspection 
programs and assess the results of those operations. At the ports, 107 
of 148 WADS activity codes examined were reported incorrectly or lacked 
supporting documentation to allow verification. CBP had inadequate 
second-party reviews of data input, a lack of sufficiently trained 
personnel, and port personnel misinterpreting USDA-APHIS instructions. 
USDA-OIG identified similar issues with WADS when it reviewed USDA-
APHIS.\3\
---------------------------------------------------------------------------
    \3\ Recommendation 24, page 53, USDA Report: Animal and Plant 
Health Inspection Service Safeguards to Prevent Entry of Prohibited 
Pests and Diseases into the United States (Report No. 33601-3-Ch, 
February 2003); USDA Report: Assessment of APHIS.
---------------------------------------------------------------------------
    All four ports we reviewed had WADS inspection activity errors. The 
reporting errors included both under- and over-reporting of data. For 
example, one port over-reported the number of agriculture inspections 
for passengers in buses by 39,869 or 63 percent. The same port reported 
102,600 inspections for bus passengers while the source documents 
showed only 62,731 passengers were inspected. Another port's rail 
pathway inspection and pest interception data were partially double-
counted, causing overstatements of 98 percent for both activities 
(9,661 reported versus 4,877 actual for rail pathway and 172 reported 
versus 87 actual for pest interceptions).
    Three ports also lacked documentation needed to verify 14 WADS 
inspection activity codes. For example, one port did not keep complete 
and accurate source records for the codes. Records were not always 
available for review purposes since some ports retained documents while 
others did not.
    WADS data was inaccurate for several reasons. CBP personnel cited a 
lack of staff adequately trained in WADS input procedures. Also, the 
WADS User's Guide did not specify the type or extent of secondary 
reviews that were to be performed. These reviews were not always 
adequate to ensure the accuracy of WADS data. In some instances, CBP 
port personnel did not report certain items in accordance with 
procedures outlined in USDA-APHIS WADS manuals. For example, at one 
port, reportable and non-reportable pests for certain pathways were 
recorded as a single line item rather than separate items as required. 
Without accurate data, USDA-APHIS would not be able to set risk 
management priorities and make staffing recommendations effectively.
    As with AQIM, during the course of conducting our fieldwork, CBP's 
Agriculture Programs and Liaison (APL) started follow-up action on WADS 
and other data beginning the first quarter of Fiscal Year 2005 to 
ensure the accuracy of statistical data. APL followed up with all four 
field offices of the ports we visited and identified as having provided 
inadequate results.
    We recommended in our 2007 report that CBP provide adequate 
instructions, resources, training, and supervision to CBP personnel to 
ensure WADS data are accurately compiled and entered in the computer 
system, and related records are properly retained. When needed, CBP 
should obtain the assistance of USDA-APHIS for training and guidance on 
WADS data.
    CBP concurred with our recommendation and, in a subsequent response 
to the report, outlined steps they have taken to address this issue. 
For example, CBP reported that its CBP-USDA Data Analysis Team for 
Evaluating Risk meets quarterly to review and address issues with data 
quality concerning WADS, PPQ-280, and AQIM data. CBP's Office of Field 
Operations, Field and Resource Management, is developing routines in 
the Operations Management Report Data Warehouse to address data quality 
and integrity issues.
    Further, training materials, user guides, and instructions for WADS 
and PPQ-280 will be available for field personnel. Field and Resource 
Management's Strategic Planning Division has established a Data 
Integrity Working Group composed of Headquarters and field 
representatives who have responsibility to ensure quality controls are 
developed and implemented in the field and port offices.
Staffing
    During our audit we found that CBP had not updated the agriculture 
specialist staffing model to ensure staffing was sufficient and 
allocated in the most effective manner. USDA-OIG had identified this as 
an issue with USDA-APHIS. CBP headquarters personnel determined the 
number of agriculture inspectional positions nationwide and the number 
to be allocated to each field manager. The field managers determine 
staffing placement within the ports. CBP staffing levels and patterns 
were based on the agriculture inspection staffing that existed at the 
time of transition and were not based on an up-to-date, comprehensive, 
nationwide plan, or assessment of risk.
    At the time of our audit, the agriculture inspection staffing 
patterns were based on the existing USDA-APHIS staffing model. This 
model used WADS data to determine the staffing required for each 
inspection activity. Before the transition, USDA-APHIS officials agreed 
with USDA-OIG that the existing USDA-APHIS staffing models were not 
well suited to determining staffing needs for cargo inspections. 
Although CBP Headquarters officials indicated that they planned to 
create a new staffing model, they had not established a timeframe for 
completion.
    At the time of our audit, CBP agriculture specialist staffing had 
decreased since the transition. The CBP's agriculture inspectional type 
positions totaled 2,417 (including vacancies) with 2,071 on board as of 
June 2003. As of February 2005, agriculture staffing had decreased to 
1,721 total on board, a 17 percent reduction. As of September 1, 2007, 
the total number of Agriculture Specialists was 2,142.
    We recommended in our 2007 report that CBP develop a staffing model 
and a comprehensive nationwide plan for agriculture specialist 
staffing. In response, CBP's Office of Field Operations reported that 
it has developed an optimal staffing allocation model for CBP Officers 
(CBPOs) and CBP Agriculture Specialists (CBPAS) at ports of entry. The 
first phase of the model, focusing on CBPO-Air Passenger Processing, 
has been completed and approved by CBP Management. The second phase, to 
include the remaining components in air, land and sea, as well as the 
CBPAS component, also has been completed and is awaiting CBP Management 
approval. This model will be used as a decision support tool and 
national guide for future allocation of resources. The model addresses 
staffing needs and has the capability of adjusting to changes in 
workload, processing time, complexity and threat levels.
Performance Measures
    CBP had not developed comprehensive performance measures to monitor 
the effectiveness of all its agriculture inspection activities. CBP 
used two performance measures for agriculture inspection activities--
one for international air passengers and another for border vehicle 
passengers. These current performance measures are the same ones USDA 
previously used. A number of CBP agriculture inspection activities, 
such as those for air and truck cargo, mail, pedestrians, and maritime 
pathways, did not have performance measures. USDA-OIG had identified 
this as an issue with USDA-APHIS.
    We recommended in our 2007 report that CBP ensure that a 
comprehensive set of performance measures is developed to monitor the 
efficiency and effectiveness of all agriculture inspection activities. 
CBP concurred with our recommendation and reported that it initiated 
two new performance measures for measuring the agriculture mission: (1) 
number of pest interceptions at ports of entry, and (2) number of 
quarantine material interceptions seized at ports of entry. These 
measures were shared with USDA prior to implementation. The new 
measures facilitate USDA's ability to conduct and provide pest risk 
assessments. This represents a good first step and CBP needs to 
continue to examine its performance measures to ensure all agriculture 
inspection activities are represented.
    I have highlighted our office's work in the area of CBP agriculture 
inspection activities. Previously, USDA-OIG issued two reports \4\ on 
agriculture inspection activities, prior to the transfer of the 
inspection activity to DHS, which had numerous recommendations that 
addressed agriculture activities, and which are now a part of CBP. Our 
review was to determine if problems that existed when agriculture 
inspection activities were in USDA-APHIS still existed after their 
transfer to CBP. Further, we coordinated with the Government 
Accountability Office (GAO) during the planning stages of this audit 
and it was decided that audit work in the areas of (1) Training of 
Agricultural Inspectors, and (2) use of APHIS User Fees would be 
performed solely by GAO, the results of which I believe they will be 
discussing here today.
---------------------------------------------------------------------------
    \4\ USDA Report: Animal and Plant Health Inspection Service 
Safeguards to Prevent Entry of Prohibited Pests and Diseases into the 
United States (Report No. 33601-3-Ch, February 2003); USDA Report: 
Assessment of APHIS and FSIS Inspection Activities to Prevent the Entry 
of Foot and Mouth Disease Into the United States (Report No. 50601-
0003-CH, July 2001).
---------------------------------------------------------------------------
Other DHS-OIG Inspections and Reviews
    In addition to the work above, DHS-OIG conducted other inspections 
and reviews in the post-harvest area. We examined DHS activities 
relating to post-harvest food, and focused on prevention, protection, 
preparedness, and detection efforts.\5\ The Federal Government is 
charged with defending the food supply from intentional attacks and 
natural hazards. While DHS is not the designated lead for a number of 
key activities in this area, the Congress and the President have 
assigned DHS many important food defense and critical infrastructure 
protection responsibilities. Our report examined DHS activities 
relating to post-harvest food, and focuses on prevention, protection, 
preparedness, and detection efforts.
---------------------------------------------------------------------------
    \5\ DHS report: The Department of Homeland Security's Role in Food 
Defense and Critical Infrastructure Protection (OIG-07-33, February 
2007).
---------------------------------------------------------------------------
    We observed four main limitations in DHS' related efforts:

  <bullet> First, DHS could improve internal coordination of its 
        related efforts. DHS food sector activities are distributed 
        across multiple organizational units, and similar program 
        thrusts have emerged. Consolidated management attention is 
        required to reduce the risk of duplication and promote 
        collaboration.

  <bullet> Second, DHS needs to improve its engagement of public and 
        private food sector partners. Food sector partners were 
        frustrated by the quality and extent of DHS external 
        coordination in sector governance and information sharing; 
        mapping; and research, development, education, and training.

  <bullet> Third, DHS could do more to prioritize resources and 
        activities based on risk. DHS units have used different 
        approaches to prioritizing food sector activities in the 
        context of their larger missions and have not developed a 
        common perspective on food sector risk.

  <bullet> Finally, DHS must fully discharge its food sector 
        responsibilities. DHS has satisfied basic requirements in most, 
        but not all, areas of responsibility. The Department has not 
        submitted an integrated Federal food defense budget plan or 
        clearly established assessment standards for use in the food 
        sector.

    Our report contained 16 recommendations to enhance DHS' performance 
and improve the security posture of the food supply. DHS concurred with 
12 of these recommendations.
    We conducted a review of DHS' BioWatch program,\6\ an early warning 
system designed to detect the release of biological agents in the air 
through a comprehensive protocol of monitoring and laboratory analysis. 
DHS, through the Science and Technology Directorate, provides 
management oversight to this program. We determined the extent BioWatch 
program management implemented proper controls for coordinating 
responsibilities and funding with its partner agencies.
---------------------------------------------------------------------------
    \6\ DHS' Management of BioWatch Program (OIG-07-22, January 2007).
---------------------------------------------------------------------------
    The BioWatch program operates in various cities, but DHS still 
needs to design and implement management controls to follow up on 
deficiencies in field and laboratory operations. Further, DHS has not 
properly enforced or monitored partner agency reporting needed to 
coordinate BioWatch. The need to enhance management controls over 
BioWatch exposes the program to possible mismanagement of funds and 
could jeopardize DHS' ability to detect biological agents and protect 
the populace of the United States.
    We recommended that the Under Secretary for Science and Technology: 
(1) address and rectify after-action and previous field operation 
findings; (2) enforce Federal partners' requirements, including monthly 
and quarterly reporting requirements; and (3) closely review and 
monitor required reports submitted by its Federal partners to determine 
and resolve discrepancies.
    We also conducted a review of the DHS National Bio-Surveillance 
Integration System Program.\7\ Recognizing a gap in national biological 
threat analysis, in 2004, the President directed DHS to consolidate 
Federal agency bio-surveillance data in one system. In response, DHS 
began efforts to develop the National Bio-Surveillance Integration 
System (NBIS), the nation's first system capable of providing 
comprehensive and integrated bio-surveillance and situational 
awareness. Our audit objectives were to determine (1) the efficacy of 
DHS' plans, policies, and procedures for collaborating with other 
Federal, state, and local stakeholders to gather and share bio-
surveillance information via NBIS; and (2) whether the system will meet 
user needs, information security requirements, and privacy policies and 
procedures.
---------------------------------------------------------------------------
    \7\ Better Management Needed for the National Bio-Surveillance 
Integration System Program (OIG-07-61, July 2007).
---------------------------------------------------------------------------
    We found that DHS has not provided consistent leadership and staff 
support to the NBIS program. As a result of the repeated program 
transitions and staffing shortfalls, planning documentation and 
guidance have not been finalized, stakeholder communication and 
coordination activities have been ineffective, and program management 
of contractors has been lacking. We recommended that the Assistant 
Secretary and Chief Medical Officer of the Office of Health Affairs 
ensure that NBIS program management apply adequate resources to support 
program management activities; develop a program plan, concept of 
operations, and communications plan; and perform an information needs 
assessment.
    Last, in 2005, we performed an assessment of a proposal to merge 
Border Protection with Immigration and Customs Enforcement.\8\ The 
merger was initiated to place customs, immigration, and agriculture 
inspectors at ports of entry under a single chain of command and was an 
effort to integrate the seemingly common functions divided at the time 
among three departments.
---------------------------------------------------------------------------
    \8\ An Assessment of the Proposal to Merge Border Protection with 
Immigration and Customs Enforcement (OIG-06-04, November 2005).
---------------------------------------------------------------------------
    We undertook an examination of the history of the organizations, 
the roles assigned to them, and the degree to which they met their 
interrelated goals, in the process interviewing over 600 individuals 
from Border and Transportation Security, Immigration Custom Enforcement 
(ICE), and CBP in 10 cities and at 63 ICE and CBP facilities.
    We made 14 recommendations to overcome the interagency coordination 
and integration challenges confronting ICE and CBP. While not making 
specific recommendations on agriculture activities, our recommendations 
impacted policy, affecting integration issues for all legacy agency 
functions (Immigration and Naturalization Services, Customs and USDA-
APHIS) transitioned to CBP.
    Mr. Chairman, this concludes my prepared statement. We would be 
happy to answer any questions that you or the Members may have.

    The Chairman. Thank you, Mr. Taylor. The Chair would like 
to remind Members that they will be recognized for questioning 
in order of seniority for Members who were here at the start of 
the hearing. After that, Members will be recognized in order of 
arrival, and I appreciate the Members' understanding. We will 
now start the questioning, and I will begin. Mr. Jurich, in 
your testimony you state that transfer of the AQI function to 
CBP has been traumatic for the legacy field staff and the 
inspection staff voted basically with their feet. Can you 
describe the effect on performance of an organization when it 
suffers an exodus experience by the staff in this way, and can 
you draw a correlation between the lack of experienced staff 
and your observations of marked declines in interceptions?
    Mr. Jurich. Mr. Chairman, I think the relationship with the 
correlation is obvious. I was told that almost every port of 
entry that I visited that the very best of the agricultural 
specialists and their supervisors had left. When I got there in 
2005 and 2006 the staffs were basically halved, and I think it 
had three effects. One, you lost the productivity of the best 
people. They were the ones making the most interceptions. You 
also lost CBP having people in house that were the best to 
promote. That was a secondary effect. The effect on 
interceptions and inspections was obvious. It is just that the 
interceptions went dramatically down especially at the 
airports.
    You also had legacy customs and immigration supervisors and 
chiefs making decisions that adversely affected the 
agricultural mission, and that caused an intense amount of 
grief and unhappiness and morale problems amongst the staff.
    The Chairman. Thank you, sir. If I look at the testimony 
from all three of our witnesses who have presented so far today 
the only conclusion that I can make is that the process of 
border inspection is in a shambles. When you lose half your 
people the testimony is dramatic to me. Mr. Jurich, can you 
give us two or three concrete examples of things that you saw 
that were simply unacceptable?
    Mr. Jurich. When the transfer occurred at many of the 
larger ports there was not a sufficient understanding amongst 
the managers and the first and second line supervisors from the 
other legacy agencies that took part in determining the role of 
the inspectors in protecting agriculture. They were the first 
line of defense for American agriculture in the country. I 
think that the mission was devalued by a majority of the 
supervisors and chiefs. They did not understand it, and 
basically they treated the staff as either garbage collectors 
or bug collectors and didn't understand what they were doing, 
serving a valuable part of the American agriculture impeding 
the insects and plant diseases from dramatically affecting 
Americans agricultural economy. That is about it.
    The Chairman. Thank you. Ms. Shames, you state in your 
testimony that three districts, Tampa, El Paso, and Tucson 
experienced a significant increase in their rates of 
inspections, yet significant decreases in their interception 
rates. This is an alarming finding. It seems red lights were 
flashing but either no one was paying attention to the data or 
understanding its significance. Does this indicate a problem 
with the data in the reporting system or was CBP management 
simply ignoring the warning signals?
    Ms. Shames. You are right, Mr. Chairman. We did find 
anomalies in the data that would cause alarms, and we thought 
required further analysis. CBP told us that they would not 
explain why interceptions were increasing or decreasing and 
likewise inspections were increasing or decreasing. So you are 
correct to identify that there are two issues: first, that they 
weren't using the data that they were collecting but there is 
an underlying issue that the data are reliable, and there may 
be some question about that as well.
    The Chairman. Thank you. Mr. Taylor, you state in your 
testimony that there were serious accuracy problems with the 
Agriculture Quarantine Inspection Monitoring System. You 
further stated that CBP agreed with your recommendations and 
issued a December 1, 2006, memorandum reemphasizing the 
importance of the AQIM guidelines. Given its significance were 
you given the opportunity to review or comment on this memo?
    Mr. Taylor. No, sir, we did not.
    The Chairman. Thank you. Do any one of you wish to further 
elaborate at this time on your general observations? 
Specifically, my question is based on the fact that I believe 
that you probably saw things that you have not elucidated yet: 
Mr. Jurich, in particular, can you give us any example of what 
you saw where--you actually saw that pests got through the 
border. Was that something that you witnessed firsthand?
    Mr. Jurich. I did not see any pests get into the border, 
but I was--what I had heard from some of the inspectors and 
most of the management is that the basic agricultural 
inspection function was devalued and it was subordinated to 
anti-terrorism, drugs, guns, money, intellectual property right 
concerns. On the part of CBP it is that agriculture stood 
firmly in last place by way of budgetary resources, manpower, 
equipment, supplies, and things like that. There are many 
troubling things about the review that are not mentioned in the 
testimony. For example, there was almost as much criticism by 
the younger officers who have recently gone through Frederick 
to the new officer training and who are looking to leave as 
soon as they got to the ports of entry. They didn't have the 
taint of APHIS experience and basically they were unhappy with 
their role and with the support they got from CBP and 
management.
    At one port I visited in late 2006, as I stopped by the 
SITC office and talked with the SITC supervisor, APHIS 
Smuggling Interdiction and Trade Compliance, he had an 
announcement out for a GS-11 position, a safeguarding 
specialist or SITC inspector, and he said that out of the 15 
applicants, 12 were from CBP, and it included two supervisors 
at CBP at the 12 level who were willing to take a downgrade to 
get out of the agency. This is very troubling because it calls 
into question everything that is done since 2003 to 2006 to 
help stem the exodus of their agricultural specialist 
personnel.
    The Chairman. I totally agree, Mr. Jurich. Thank you for 
your testimony. Mr. Goodlatte, would you like to question our 
witnesses?
    Mr. Goodlatte. Yes. Thank you, Mr. Chairman. Let me ask all 
of our witnesses this question. Is the mission of safeguarding 
the United States from foreign pests and diseases being done as 
well by DHS as it was by the U.S. Department of Agriculture? 
Mr. Jurich?
    Mr. Jurich. No, sir.
    Mr. Goodlatte. Ms. Shames.
    Ms. Shames. Our work didn't look at that question 
specifically. It is clear now that there are management 
problems and morale issues that could affect the conduct of 
agricultural inspection at DHS. We didn't do a comparison with 
the DHS performance versus the USDA performance.
    Mr. Goodlatte. Do you have plans to go back and do that?
    Ms. Shames. We could at Congressional request.
    Mr. Goodlatte. Mr. Taylor.
    Mr. Taylor. We didn't look at that as well, sir. There are 
two answers I could give you. One is that if the over 50 
recommendations that were made to APHIS and to CBP before, and 
after the transition, were followed then we think that they 
could make substantial progress in improving agricultural 
inspections, as well or better I don't know. The second part of 
the answer is that the data that we try to look at to compare 
activities before and after were not sufficient to come to any 
kind of a conclusion as to what was going on before the 
transition or after.
    Mr. Goodlatte. Thank you. Mr. Chairman, I am convinced by 
Mr. Jurich's one-word answer. However, if the Committee thinks 
that there is further doubt, I would join in making such a 
request to the GAO or to the DHS Inspector General's office 
that they do go back and do some comparative looks at what kind 
of personnel were available, the qualitative work that was 
done, the number of interceptions that were made during the 
time it was under USDA control and the time it has been under 
DHS control. It might be very useful information.
    The Chairman. Mr. Goodlatte, I couldn't agree more. I will 
speak with the Chairman who has stepped out of the hearing to 
see if we can't coordinate a joint request to do exactly that 
because I am compelled by the testimony of Mr. Jurich as well. 
A simple no answer is very clear to me as well. Thank you.
    Mr. Goodlatte. Thank you, Mr. Chairman, I have some more 
questions. This Committee has raised questions about the 
commitment of pest and disease protection at the Department of 
Homeland Security since the original conceptual conversations 
about creating DHS. The June 2007 report of the APHIS-CBP joint 
task force on improved agriculture inspection is such a 
complete list of concerns we have raised that it could have 
been written by this Committee. Why shouldn't we just admit 
things have not worked out and return this function to the USDA 
where program managers will make it their first priority. Mr. 
Jurich.
    Mr. Jurich. There are a few things that CBP has done that 
improved the performance of the agricultural mission. If you 
could take those back with you, I agree with you.
    Mr. Goodlatte. Thank you. Ms. Shames.
    Ms. Shames. We did have a chance to look at the task force 
and the implementation plans that it prepared as well, and it 
acknowledges that the agricultural function has lost its 
significance when bumped up against anti-terrorism and drug 
interdiction priorities. We found what was positive with the 
implementation plans: that they sent tasks to be done; they had 
time frames; there were accountability offices; and also 
required reporting requirements. We feel that this at least 
lays a road map for further oversight and at least to measure 
any sort of progress or improvements that may be made on the 
part of DHS. If there is any criticism that could be made is 
that these implementation plans are 4 years too late, and 
should have been done at the time that the one look at the 
border looking at an integrated border security approach was 
starting to be envisioned and to anticipate then that there 
would be these integration problems.
    Mr. Goodlatte. Thank you. Mr. Taylor, both the OIG and the 
GAO audits highlighted the need for DHS to develop a 
comprehensive set of performance measures to monitor the 
efficacy and effectiveness of the AQI program. Specifically 
with regard to the OIG recommendation the Department of 
Homeland Security concurred and indicated that a system had 
been put in place on October 1, 2006. Interestingly, I am told 
that the new Assistant Commissioner for Customs and Border 
Protection spoke to a meeting of the Association of State 
Departments of Agriculture last week stressing the need for his 
agency to develop systems to collect information and analytical 
data on pests and disease interceptions. Can you comment on 
this obvious contradiction?
    Mr. Taylor. I cannot, sir. I am not aware of the comments 
that were made by the Assistant Commissioner.
    Mr. Goodlatte. Are you aware that such a system was put in 
place on October 1, 2006?
    Mr. Taylor. We were told that it was, yes.
    Mr. Goodlatte. Have you confirmed that? Have you verified 
that it is operational?
    Mr. Taylor. No, sir. We have not gone back to confirm.
    Mr. Goodlatte. I would add that to the list, Mr. Chairman.
    The Chairman. I totally agree. Thank you.
    Mr. Goodlatte. Mr. Chairman, thank you very much.
    The Chairman. Mr. Mahoney.
    Mr. Mahoney. Thank you, Mr. Chairman. And thanks to the 
panel for coming in today to talk about such an important 
issue. In my State of Florida we are being bombarded by one 
invasive species or disease a week, and greening, which is one 
of the issues is pushing the citrus industry to the brink of 
extinction. So this is a very important matter for all 
Floridians. And I would like to make an observation. It appears 
based upon the testimony that the focus or the preoccupation on 
the part of FEMA is with terrorism. And organizations like 
FEMA, which protect the lives of people post disaster have been 
mismanaged.
    And thanks to Dave Paulison, a great Floridian, we have 
gotten some sanity back into that organization but there is 
still a question as to whether or not it has gotten to the 
right level to operate. Now we are talking about the same issue 
with agriculture, and it is very interesting to hear your 
testimony. I guess the first question I would like to ask 
everybody is if your testimony is based on observations or 
review over what period of time? Mr. Jurich?
    Mr. Jurich. Late 2005 to late 2006.
    Mr. Mahoney. Okay. Ms. Shames?
    Ms. Shames. We completed our audit work in early 2006, and 
our survey was as of January 2006.
    Mr. Mahoney. Okay. Mr. Taylor?
    Mr. Taylor. The time period from March 2003 until February 
2005.
    Mr. Mahoney. Okay. And I guess, Ms. Tighe, is that it?
    Ms. Tighe. Yes. We had----
    Mr. Mahoney. Working together?
    Ms. Tighe. We were working together, yes.
    Mr. Mahoney. It was a collaborative effort.
    Ms. Tighe. The same period as Mr. Taylor stated.
    Mr. Mahoney. Okay. So that gets us to basically through 
2005 and clearly there is a concern as to the performance 
during that period of time. I would be interested in any 
observations. Has anything improved? Has there been any changes 
at DHS that have increased the performance of this organization 
in terms of being able to protect American agriculture? Mr. 
Jurich?
    Mr. Jurich. They have introduced the AQI function to the 
electronic age utilizing a variety of electronic systems. It 
has improved their targeting capabilities both at the airports 
and with respect to cargo. They have a number of systems in 
place that help them with targeting people and cargo. That is a 
dramatic improvement. They also did something on discipline and 
conduct issues. APHIS was a little loose in the field, 
tolerated a lot more than CBP does. However, I think CBP is 
basically a draconian kind of organization, paramilitary, and 
it has destroyed the morale of the people by depriving them of 
a lot of their independence and authority that they had under 
APHIS supervision and management.
    Mr. Mahoney. Do you feel that there is still a morale 
problem within----
    Mr. Jurich. Absolutely, absolutely.
    Mr. Mahoney. Ms. Shames?
    Ms. Shames. CBP has taken some action in response to the 
recommendations that we made in our report. For example, they 
have increased the number of the K-9 teams. They are putting in 
place a more robust set of performance measures. They are also 
putting in place better mechanisms to insure that the user 
fees, that the monies are coming over from APHIS to USDA, but 
let me quickly add that we haven't evaluated these actions to 
see if they get to your point whether or not they contribute to 
improved performance.
    Mr. Mahoney. Mr. Taylor?
    Mr. Taylor. Yes, sir. The CBP and USDA were provided 13 
recommendations, and they accepted every recommendation, and 
they have informed us, and again we haven't gone back to follow 
up to make sure that they have actually completed all the 
actions. They reported to us that they have completed all but 
one of those activities, which would show at least management 
is taking it seriously and that APHIS and CBP are trying to 
jointly make this work.
    Mr. Mahoney. Thank you, Mr. Chairman. I yield back my time.
    The Chairman. Thank you. Next we have Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I would ask any of you 
to respond to this, but I am always curious as to how we have 
so much difficulty getting agencies to move on even simple 
issues. It has been brought to my attention that there is a 
problem with simply creating e-mail lists so that people are 
properly--what I hear constantly in these kind of hearings is 
the problems again about getting people to move on the simple 
kind of issues. You just said that CBP has taken the 13 
recommendations, and they are going to be moving on them. But 
things like creating the e-mail list, I understand they didn't 
even have a good e-mail list to send out information to people. 
They couldn't verify whether their e-mail list was accurate for 
the agricultural specialists to get information out to them. 
But are we getting them to really respond to things like 
correcting their e-mail list and saying, ``Yes, we are doing 
this and verifying that that is happening.'' Tell me about 
that, please, the policy manual updates, getting that 
information out to people. Mr. Jurich.
    Mr. Jurich. From testimony from the agricultural 
specialists themselves at the field level many of them were 
getting the policy mandates immediately via the electronic 
system, but they were coming from APHIS in Riverdale from the 
manual section right to the ports of entry and to the 
specialist directly. Where you had the alerts, manual changes 
or other things, policy directives going through from Riverdale 
to the Reagan Building in Washington, D.C. down to the district 
field offices to the ports there were a lot of problems. The 
specialists simply were not getting stuff in a timely fashion 
not within the chain of command. It is very structured, and it 
takes a long time for information to flow down.
    Ms. Foxx. Is anything being done to clarify that so that it 
doesn't take a long time to get? I mean with our modern 
technology it is ridiculous that it takes a long time to get an 
e-mail through a chain of command. It seems to me that that 
ought to be done very quickly.
    Mr. Jurich. It was obvious to me that the APHIS means of 
communication was far better than CBP's. What CBP has done to 
improve things, I don't know. I don't know given the chain of 
command and going from level to level will ever change the 
speed of delivery.
    Ms. Foxx. And will you have any other recommendations on 
how to make that happen?
    Mr. Jurich. I think with respect to the alerts, I think 
what they should do is what APHIS did; basically eliminate some 
of the mid-levels and send the stuff immediately to the 
officers themselves. CBP is resistant to that, send it both to 
the officers and down the chain of command so that the 
intermediary levels have it but at least send it to the 
officers immediately.
    Ms. Foxx. Could we get some response to whether that is 
going to happen or not?
    The Chairman. Ms. Foxx, I think we absolutely deserve that 
response, and my observation to your questions, to Mr. 
Goodlatte's questions, to all of our questions so far is that 
it reminds me of an old I Love Lucy show where, ``You got some 
`splaining to do, Lucy.'' Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank you 
for being here, and I apologize for being in and out because I 
have two hearings going on at the same time. Mr. Jurich, let me 
thank you for the work you have done over the past year because 
it is important. And it is important information for us to know 
and for the American public to have. My question is this--and 
we heard some things we don't have and what we need--my 
question to you is what can we do in the near term to alleviate 
this situation and bring these inspections up to standard 
because we are just waiting for answers doesn't correct the 
problem. The problem is still out there and the American people 
want results, so what can we do to correct it in the near term 
because what we have been hearing today is quite large in 
scale.
    Mr. Jurich. I will give you the answer that the majority of 
the field personnel gave me.
    Mr. Etheridge. Okay.
    Mr. Jurich. And that is, one, remove the function and 
return it to USDA and to APHIS or remove the agricultural 
element from CBP and let it be a stand alone function under the 
Department of Homeland Security where they have their own 
leadership, their own management, their own supervisors, their 
own policies and procedures, and are basically not subordinated 
to other concerns.
    Mr. Etheridge. Thank you, sir. Ms. Shames, in your 
testimony you brought up a point about the whole employee 
management system and problems that arose in the transfer, and 
we just heard some comment on that as well. And I think we all 
understand if you move people from point A to point B 
especially after years somewhere else there tend to be 
problems. My question to you is from that standpoint what is 
the answer to this issue? How do we fix that problem very 
quickly to get the results we need to get, not for this 
Committee but for the American people?
    Ms. Shames. I am sorry to say that there is really no quick 
answer to it, and what we had said, and what we are on record 
as saying, is that for a major change management initiative 
such as this, a huge merger such as this, then it can take at a 
minimum from 5 to 7 years. It is not to say that it shouldn't 
be monitored on a very frequent and regular basis. Certainly 
the employees are at the heart of any sort of merger and there 
ought to be communication and pulse surveys to make sure that 
their needs and concerns are addressed. But I think the 
constant monitoring of the implementation plans to basically 
make sure that the actions that are proposed are addressed and 
taken, and then to see if there is any improvement based on 
what they have laid out. But there is no quick solution for a 
merger along the lines of what happened here.
    Mr. Etheridge. But I think I am trying to get an answer of 
how to get the results we want. I understand the management and 
other pieces but productivity is also the issue of dealing with 
products coming and going. You are not saying yes about the 7 
year issue.
    Ms. Shames. No. That is something that is real-time and 
needs to be addressed, and unfortunately what private sector 
experience has shown is that there is a decline in productivity 
with a merger along these lines so this is very consistent with 
what you and others have predicted would happen in a merger 
along these lines.
    Mr. Etheridge. Thank you. Mr. Taylor, you have heard 
comment from everyone today. My question to you as it deals in 
this whole issue of more of a management issue, more of a 
funding issue. I know there isn't a simple answer but the facts 
are we have a new Department doing a new job and yet we are 
doing some of the same jobs, and the jobs have got to get done. 
What is your comment on this area?
    Mr. Taylor. I think it is critical for the success of this 
mission, and it is an important mission, for the Department to 
ensure they are adequately funding, staffing, and training the 
activity. There is a combination of factors there that the 
Department and management has to address that we pointed out in 
our report. But the funding issue is something that APHIS and 
CBP need to work closely together on to make sure that----
    Mr. Etheridge. Well, let me help narrow it down a little 
bit. Can you give us some sense of a schedule that you will use 
to follow up with the CBP to insure that corrective action is 
indeed in place and what a time line will be?
    Mr. Taylor. Sure. In fiscal or calendar year 2008 we plan 
to follow up on the recommendations for----
    Mr. Etheridge. 2008 is a long year.
    Mr. Taylor. Yes, sir.
    Mr. Etheridge. That is 12 months. Can you give us a time 
line a little tighter than that?
    Mr. Taylor. At this time I cannot, sir, but I would be 
happy----
    Mr. Etheridge. Can you get back to us with it?
    Mr. Taylor. Yes, sir, I can.
    Mr. Etheridge. Thank you, Mr. Chairman. I yield back.
    The Chairman. I am going to turn this over to Mr. Conaway, 
but just briefly did anyone do a review on funding sources?
    Ms. Shames. Mr. Chairman, we did report on the user fees, 
and what we found was that APHIS was not giving CBP the user 
fee funding that covered all of the costs, the CBP could not 
depend on when it would receive the funding or how much it 
would receive. In fact, in two fiscal years there was a 
shortfall of $125 million. Now we understand that APHIS and CBP 
are working together to ensure more regular, consistent amount 
of transfer of funds but it is something that we reported on as 
a contributing factor.
    The Chairman. That is one heck of a shortfall. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Thank you, folks, for 
being here. My private sector background was to be on the 
receiving end of a merger where I was in senior management of a 
small bank that was acquired by a big bank. We had huge 
problems that mirror what you have had there, but the issue is 
management and management attention. Can Ms. Shames or Mr. 
Taylor or someone give us an organization chart and point to 
the manager slot that failed to make the changes necessary to 
make sure that agriculture inspection maintained its proper 
priority in looking at things coming across the border. Can we 
find out where on the organization chart that failure occurred, 
and take some actions to decide what to do with those managers 
or at least begin now 4 years later to hold that layer of 
management specifically responsible for making sure that this 
works?
    Ms. Shames. Our response would be that accountability 
starts with top leadership and cascades down.
    Mr. Conaway. Exactly, but there is somewhere in the chain 
that broke down. I am guessing that the Secretary of Homeland 
Security said let us do this. Somewhere between his comment and 
the ground there is a break in the chain. Can you back track 
through the chain and find out where the emphasis on 
agricultural inspection became so limited that the mission has 
looked like it is failing?
    Mr. Jurich. The management slot that failed was the 
management slot that never existed both at the district field 
offices and at the ports. There was no one in management in 
those areas at the district field office level or the port 
level to represent agriculture. A person with agricultural 
education, agricultural training, agricultural experience, and 
that was a fault in setting up the system the way they did.
    Mr. Conaway. There is a management layer above that person 
that should have done it. Let me ask another question. We 
sometimes learn from our failures. Have we been able to have or 
have we had outbreaks of food borne illnesses or pests or other 
things that we were able to trace back through the system to 
see where the inspection at the ports failed to catch that food 
borne illness or those pests? Are there circumstances where we 
actually learn from our mistakes?
    Mr. Jurich. APHIS would be better prepared to answer that 
question.
    Mr. Conaway. Have we--maybe we have not had any food borne 
illnesses or any pests that came through the borders. Maybe 
this thing is working the way it should.
    Mr. Jurich. There are moths in San Francisco in the East 
Bay that are a blight.
    Mr. Conaway. Have we been able to trace those back through 
the system to see where the inspection process failed to catch 
the moth or whatever?
    Mr. Jurich. I can't answer that question.
    Mr. Conaway. A lot of heads shaking around. Apparently not. 
Mr. Taylor.
    Mr. Taylor. No, sir, we cannot identify any.
    Mr. Conaway. Okay. Is that something that is unreasonable 
in terms of trying to make sure we inspect the way we are 
supposed to and improving those inspections, is it unreasonable 
to have in place a system that says if we let something sneak 
through how did that happen? Is that irrational?
    Mr. Taylor. No, accountability is critical.
    Mr. Conaway. Okay. And speaking of that, Mr. Taylor, 
someone has given AQI, which is an interesting acronym--I am on 
the Armed Services Committee, and I spend more time talking 
about Al-Qaeda and Iraq than I do agriculture quarantine so I 
had a bit of a jolt there when I looked at that. AQI was given 
a clean audit report and yet the recommendations seem to not 
support necessarily a clean audit report. Mr. Taylor, can you 
give us a quick 101 on what your audit standards are, what kind 
of audit--I am a CPA, but what kind of audit standards you are 
held to?
    Mr. Taylor. Sure. We are held to the Federal financial 
audit standards provided by GAO. The CBP itself received a 
clean audit opinion. We did not look below at the fees 
themselves, the collection process, and separately opine on 
that. We did look at the fee collection process in terms of 
whether they were being properly accounted for and whether they 
were being properly collected, not of the policies in terms of 
how the amounts were determined. Customs and Border Protection 
is the only entity within DHS that has been receiving a clean 
audit opinion.
    Mr. Conaway. Okay. So the collection of user fees and the 
accounting for that is being done well?
    Mr. Taylor. We found no problems, no significant problems.
    Mr. Conaway. Okay. All right. Thank you, Mr. Chairman. I 
yield back.
    The Chairman. Thank you for your questions, Mr. Conaway. It 
is clear from your questions and others that the conduct of 
this agency is just shameful. It is just very serious. Mr. 
Neugebauer.
    Mr. Neugebauer. I thank the Chairman. I want to go back to 
a little bit of a follow-up from the Chairman's question, but 
during the course of your individual investigations were any of 
you able to determine if all of the AQI funds currently being 
transferred to DHS are being solely used for AQI operational 
port inspections?
    Mr. Taylor. We did not look at that in our joint review.
    Mr. Neugebauer. And I guess the question is it sounds like 
from your answer or the previous answer to the Chairman's 
question we did an operational review from the inspection 
process but we are not tracing the resources.
    Mr. Taylor. We had coordinated with GAO. They were looking 
at the fee side of the program so we stayed with the 
operational side. We made a conscious decision not to look at 
the fee side because of the overlap.
    Mr. Neugebauer. Do you think the resources flowing to those 
particular--that is a part of the process to make sure that the 
job gets done, and if there aren't resources getting to the 
inspection process then you can't expect--have higher 
expectations of the inspection process, I wouldn't think.
    Mr. Taylor. That is true, sir.
    Mr. Neugebauer. So that is probably something we probably 
need to do sooner rather than later?
    Mr. Taylor. We have been discussing with the staff 
performing some reconciliation and trying to provide some 
information working with CBP.
    Mr. Neugebauer. And I think you probably already alluded to 
that but there is a lot of discussion going on here today about 
whether to return this to the old way. We already have made the 
transition to the new process. In your review as our colleague 
from Texas said, mergers are kind of like marriages. There are 
some things to work out. I would think it would break down into 
two different areas, the structural change and the cultural 
change. And in view of the deficiencies that you found, and 
they are fairly substantial, and I understand some of this is 
2005 data and hopefully things are better today, but I just 
would be interested to hear from you how much of it was 
structural and how much of it was cultural that led to some of 
the deficiencies. Mr. Jurich, we will just start with you. We 
will just go down the line.
    Mr. Jurich. I would not term it a cultural change. I would 
term it a cultural collision. I think it was about 50/50. Some 
of the structural changes that they made had an obvious 
deleterious effect upon the agricultural function. Not having 
agricultural managers present to help make decisions, replacing 
agricultural supervisors and chiefs with legacy immigration and 
legacy customs officials who knew nothing about APHIS or AQI 
policy and procedures. I think the compartmentalization that 
Customs and CBP has done over the past few years has had few 
good effects, but what it did is dramatically reduce the number 
of people at the airports and at the cargo examination sites 
who do the actual inspections, and consequently it resulted in 
a reduction of the number of clearances, the number of 
inspections, and the number of interceptions, and that is the 
core of the agricultural mission at the ports of entry.
    Mr. Neugebauer. Ms. Shames.
    Ms. Shames. I have to agree with Mr. Jurich that the 
cultural change was a huge factor in part of this, that the 
people issues need to be attended to, and it is important 
especially in a function like this where it is so dependent on 
keen inspections and interceptions that people are concerned 
about the transfer and concerned about how people see 
themselves in the new organization. And it is clear from our 
survey, which we can generalize to the whole agricultural 
specialist population where there were many severe issues, 
negative issues.
    Mr. Neugebauer. Mr. Taylor.
    Mr. Taylor. I think the cultural issues make it very 
difficult to resolve the problems that occur when you try to 
bring something like this together. We looked at processes and 
the programs, the structure of the organizations in trying to 
properly report and properly track and properly staff. And we 
saw a lot of problems with this as those are more of the 
structural issues. But if you have significantly different 
cultures it makes it very difficult to resolve those problems, 
and that is a lot of what has been taking so long Mr. 
Neugebauer.
    Ms. Tighe. We certainly saw within APHIS based on our audit 
work just prior to the transition, the transfer to Customs, the 
same sort of structural and process issues that in fact we 
ended up reviewing with DHS-IG's office. We also did a look-see 
during the transition process at other issues going on, and 
noted some of--in general terms--the delays to fixing the 
structural issues caused by cultural problems. Things were just 
taking too long. I think some of that--as testimony is given 
here today--is understandable given the fact that you have two 
agencies coming together and things are going to slow down a 
bit. But they certainly led to delays over several years, and 
in dealing with many of the issues we pointed out in 2003. So I 
think it is really both.
    Mr. Neugebauer. I see my time has expired, Mr. Chairman. 
Thank you.
    The Chairman. Thank you, Mr. Neugebauer. I would like to 
open this up to one more quick round of questions. We need to 
get our other panel up here, but I think there are a couple 
more questions that still need to be asked, and I would like to 
begin with that. I want to make a point in asking this 
question. Former Secretary Ann Veneman was from my district and 
a good friend, and we had a number of discussions with regard 
to the K-9 units, and she put a high priority on those K-9 
units in the inspections when she was Secretary, feeling that 
that was something that was the front line of defense in many 
cases. We received testimony, and I believe it was Ms. Shames 
who said that there were formerly 140 units, K-9 units. That 
was reduced to 80. Now there are 92 but only 60 percent, was 
that correct, that testimony, that only 60 percent passed 
muster?
    Ms. Shames. Right. And in 2005 there was a proficiency 
test, and only 60 percent of the K-9 teams were proficient. And 
what the K-9 inspectors told us is that because they were being 
pulled off of direct K-9 inspection responsibilities their dogs 
were in effect sidelined and were losing some of their skills.
    The Chairman. So basically what we have is an original 
mandate under Ms. Veneman's tenure where her priority and her 
focus was that we needed at least 140 K-9 units to do the job, 
and in effect what we have effectively are 30 units that are 
currently capable of meeting those needs. Is that a correct 
assumption?
    Ms. Shames. Well, that test was done in 2005 so we can't 
project that the proficiency has stayed at that level since 
then. We did contact CBP to try to update the information when 
the hearing was called. They have increased the number of teams 
from the low that we reported from 80 to 90.
    The Chairman. I gave them credit for 92 when I made the 
calculation for 30.
    Ms. Shames. But we have done no further analysis to see if 
the teams are as proficient as they ought to be.
    The Chairman. I am going to ask my colleagues to be able to 
ask further questions but I got to tell you what I have 
witnessed today is worse than I thought it was when we included 
in our bill to move the agency out of the Department. We have 
heard the testimony that there are simply cultural differences 
that preclude the new agency from working with the former 
inspectors. You have seen them voting with their feet. I want 
to give the panelists one further opportunity just to elaborate 
on any point that they may wish to present to the Committee 
that they haven't had an opportunity to do, so far. Mr. Jurich, 
do you want to make any observations?
    Mr. Jurich. Let me relate one instance because I think it 
shows both what has gone well and what has gone dramatically 
wrong in the agency. In San Francisco, I believe last year or 
maybe the year before, an agricultural technician intercepted a 
box destined for southern California with citrus cuttings in 
it. The citrus cuttings were contaminated with canker. The 
technician turned the package and the citrus cuttings over to 
the agricultural specialist for resolution; ``Look what I 
found, here it is.'' Once he saw what it was and could see that 
there was a problem with the cuttings, which were not 
enterable, much less they were also disguised. It didn't come 
in identified as citrus cuttings, it came in as something else. 
It was being smuggled into the country.
    He went to his supervisor and said, ``I seized these 
cuttings.'' And the answer, ``I am telling you to get something 
done,'' and the supervisor's retort was, ``Look, we are here to 
protect the country from acts of terrorism, what do you expect 
me to do?'' He was not an agricultural supervisor. He was 
legacy Customs and Immigration. The agricultural specialist in 
this instance got on the phone and called APHIS. He called the 
SITC staff, Smuggling Interdiction and Trade Compliance, and 
informed them. They came right over, seized the items, and both 
CBP and APHIS worked together to resolve the issue. CBP got ICE 
involved and they actually prosecuted the person who was 
responsible for importing the cuttings. APHIS went out into the 
groves where there were other citrus trees and burnt them all 
because they too were contaminated.
    What happened to the officer who made the seizure was he 
was told by his supervisor, ``Never again are you to call SITC. 
You violated the chain of command.'' He also within a month was 
taken from the mail center and sent to the airport to work 
opening passenger baggage. He went from purgatory to hell.
    The Chairman. Well, Mr. Jurich, I will tell you the person 
who did that should be fired, and we should as a Committee look 
into this even further. Anyone else? Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman, and this sort of 
follows on with the example that was just cited, but I would 
just like to give Mr. Jurich one more opportunity. You suggest 
that morale is deteriorating particularly among the legacy 
agricultural inspectors. This conclusion seems to be backed up 
the GAO's review. What is it about DHS' management of this 
program that is driving morale down among these highly 
dedicated and experienced civil servants?
    Mr. Jurich. I think it is the cultural issue. APHIS was a 
regulatory agency. CBP is primarily an enforcement agency. 
APHIS has a scientific bent. CBP has a law enforcement bent. 
The APHIS staff work with hand lens, with flashlights, with 
microscopes. The CBP staff works with automatic pistols with 
glocks or whatever. There was at the larger ports a major rift 
between the staffs. They did not get along together. There were 
a lot of petty jealousies and a lot of bickering and a lot of, 
``You are bug collectors, bugs before drugs, drugs before 
bugs,'' and things like that, and that has continued to this 
day. It perhaps is a little better with the CBPOs coming out of 
FLETSI. You received a little bit of agricultural training--16 
hours.
    But it also has had one adverse effect, some of the 
agricultural specialists told me that CBPOs with 3 days of 
training think that they can make regulatory decisions about 
products they find without referring them to the ag folks which 
is again bad. But the cultural differences are immense. It is a 
chasm.
    The Chairman. Thank you, Mr. Goodlatte. Mr. Mahoney.
    Mr. Mahoney. Thank you, Mr. Chairman. I know protecting 
American agriculture is not as sexy as going after Osama Bin 
Laden, and I appreciate again the testimony. It just seems to 
me that there is--and it is not for this Committee obviously 
but there are a lot of questions raised about the wisdom behind 
DHS, and as somebody prior to coming here, having been involved 
in well over 100 mergers and acquisitions, when something is 
started based on politics as opposed to mission driven 
objectives that in many cases you have a situation where you 
find yourself having an unclear idea of what the mission is and 
how things should work. And I guess the sense is that there may 
have been a mistake that the government made in trying to 
create this new agency with regards to agriculture, and we 
don't really know based on this testimony what the current 
status of that is today. I don't know how we would go about 
getting a real update on how well the agency is performing, 
CBP.
    But my question for the panel is let us say we have come to 
the conclusion and that this was a terrible mistake and we need 
to undo it. Mr. Jurich, is this irreversible at this point in 
time? Is there a path back to where we were before we merged 
the functions into DHS?
    Mr. Jurich. I think there is, but it would be difficult to 
wrench everybody back to USDA or to an independent agency, but 
I think that the mission of agriculture under CBP will never be 
primary, and that is the basic core of the matter. It is 
subordinate and it will always be so whether it be drugs, 
terrorists, illegal aliens, money laundering or gun smuggling.
    Mr. Mahoney. Ms. Shames, any thoughts on that in terms of 
doing this?
    Ms. Shames. As Mr. Jurich suggested, there would be other 
merger issues to return AQI to USDA.
    Mr. Mahoney. Well, now I am going to get Ms. Tighe involved 
here. She is the expert on this. What are your thoughts 
representing the Department of Agriculture?
    Ms. Tighe. It is worth pointing out that there were certain 
issues in APHIS prior to the functions moving to DHS that made 
it a less than optimally run organization for purposes of doing 
effective border inspections. Based on the recommendations we 
have made that existed before the transition that are now being 
acted upon, things seem to be moving on a modest upward trend. 
Now the question is what would happen should the function move 
back then to APHIS. We still have to deal with them 
implementing the things they have told us they are going to 
implement.
    Mr. Mahoney. Thank you. Mr. Taylor, do you have a comment 
that you would like to make?
    Mr. Taylor. I agree with Ms. Tighe on this. No matter which 
way you go the coordination requirements between CBP and APHIS 
do not go away. You can pull it back, but you still have a lot 
of the same issues you need to address.
    Mr. Mahoney. I yield back my time, Mr. Chairman.
    The Chairman. Thank you. I have to make an observation at 
this point. When the United States engaged in the Manhattan 
project when we had our tails down because we were bombed at 
Pearl Harbor we didn't say that we couldn't get it done, we 
just got it done. And we are being invaded by other folks 
here--other things. We are invaded by pests. And this Committee 
is telling the bureaucracy out there whether they are listening 
or not that this is an important function, and it is time to 
get it done; and that is what seems to be a disconnect here. 
Mr. Neugebauer.
    Mr. Neugebauer. Well, I agree exactly. There has been a 
listing and whether it is a cultural problem or if it is a 
structural problem we have to fix that. We can't wait around to 
see if we are going to move it back--what are we going to do--
but a lot of people don't realize that agriculture is a 
national security issue, and whether you want--one of my 
friends said whether it is sexy or not but it is a national 
security issue. How we feed America, making sure Americans have 
safe food, making sure that we have the agricultural 
infrastructure in place to be able to feed America, and if we 
have a disease or something that comes into this country and 
inflicts a substantial problem with American agriculture, we 
have got an issue.
    And so I think the Chairman is exactly right and I 
appreciate Ranking Member Goodlatte's initiative early on in 
this process, but we have heard what the problem is. I think 
what we need to hear is pretty quickly how we are going to fix 
those problems, rectify them. If we have people that feel like 
that is not my job, then we need to give them a new job or they 
need to go find a new job. But just to say we don't like this 
structure or we don't like this cultural arrangement is an 
unacceptable answer and not one that I think this Committee is 
willing to take. And so as we move forward, Mr. Chairman, I 
will be working right along side you and the Ranking Member and 
the Chairman of the full Committee. This is something we have 
to get right.
    The Chairman. You are absolutely right, Mr. Neugebauer. I 
think we are unanimous in that observation. I want to direct 
the clerk, I don't know how to do this formally, but I would 
like the answer of Mr. Jurich to Mr. Mahoney's question 
highlighted in the record so that when we have the full 
Committee hearing in a couple weeks, I want that to be the 
start of where we begin that hearing because, frankly, what he 
said in answer to Mr. Mahoney's question in my mind summarizes 
the entire problem very well.
    With that, thank you all for your testimony. Thank you for 
your work. Thank you for your honesty in trying to get to the 
bottom of this question. I would like to now call up our second 
panel. Have the witnesses approach their places at the table. 
We are going to start this hearing back up. I announced the 
recess would be until 12:20 and I intended to keep to that time 
line. So Mr. Mahoney is here, and we know that other Members 
will be coming back. I realize that Members have some 
significant challenges. We were actually preferring to put this 
hearing over until 1 p.m. but some of the witnesses have 
airplanes to catch, and we don't want to hold you up. You have 
been so gracious to be here. So we are going to take your 
testimony, start it. As the Members come in, we will 
acknowledge that they have ability to ask questions, and we 
will try to encourage everyone to get their say in, but we will 
go ahead and take the testimony at this time.
    Let me formally introduce panel number two if I can find my 
information. Mr. Mahoney, you go ahead and introduce Mr. 
Bronson since you have made that request.
    Mr. Mahoney. Thank you, Mr. Chairman. It is a my pleasure 
to introduce to the Subcommittee Charles Bronson, Florida 
Commissioner of Agriculture, and a person who has a record of 
public service and goes back a little bit of ways. He is a 
fifth generation Floridian and traces his roots in agriculture 
back to 1635. I hope you were making money back then, Mr. 
Commissioner. But as Agriculture Commissioner he manages the 
largest state Department of Agriculture in the country with 
more than 3,700 employees. Mr. Bronson's priorities include 
overseeing the state's vast agricultural industry and helping 
to promote products, safeguarding the state's food supply, 
protecting consumers from unfair and deceptive trade practices 
and managing about 1 million acres of state forest. 
Commissioner Bronson has received numerous honors and awards 
including an FFA honorary national degree for outstanding 
personal commitment, a Nature Conservative Legislative 
Leadership Appreciation Award, a Florida Farm Bureau 
legislative award, and both Florida Sheriff and Florida Police 
Chiefs Association legislative awards.
    The only thing bad I can say about him is that I think he 
went to the University of Georgia, and that is not usually a 
problem unless we have an occasional game against them. But it 
is with great honor, Chairman Bronson, that you are here. You 
have made the State of Florida proud. You are a great leader in 
agriculture, and I have enjoyed having the opportunity of 
working with you, and I look forward to hearing your testimony 
today.
    The Chairman. Thank you, Mr. Mahoney. We also have with us 
today Mr. John McClung, President and CEO of the Texas Produce 
Association, Mission, Texas, and I would guess that you are 
here at the request of Mr. Neugebauer. It makes sense to me. 
And welcome to the Committee, and I am sure Randy welcomes you 
as well. And from my area, not quite from my district, but a 
good friend for a number of years, Mr. Joel Nelsen, President 
of California Citrus Mutual. He hails from Exeter, California. 
Welcome, Joel. Thank you for being here. And thank you for 
being a tireless critic of what is going on and keeping me 
informed of this because you have driven a lot of the facts 
that we are here today listening and taking this testimony from 
your personal experience.
    I have to tell you that I was sharing some of the previous 
testimony we had received on that San Francisco incident with 
citrus canker, and every Member that I mentioned that to during 
the period of votes that we were just talking about were 
absolutely outraged that someone who does their job gets 
demoted for that. So we have a tremendous amount of work to do 
on this topic. But thank you for being here with us. We are 
going to start with Mr. Bronson. Mr. Bronson, please feel free 
to begin with your testimony.

  STATEMENT OF HON. CHARLES H. BRONSON, COMMISSIONER, FLORIDA 
 DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES, TALLAHASSEE, 
                               FL

    Mr. Bronson. Thank you, Chairman Cardoza. Thank you very 
much for having me here today to talk about issues at the State 
of Florida level concerning these serious matters and to 
Representative Mahoney, a good friend who has been a very 
strong supporter of agriculture in our state and in the 
country. You heard my background. We do have the largest 
Department of Agriculture in the country, state Department of 
Agriculture. And we have some very highly qualified individuals 
doing the very same jobs that USDA does at the Federal level 
and very extensive, I might add. I know that the Committee has 
had a longstanding concern about the ramifications that have 
arisen from the AQI functions going over to the Department of 
Homeland Security. I also wanted to thank Representative 
Goodlatte for his efforts in the past and currently on these 
issues.
    And I will tell you that I was at a meeting in Oklahoma 
when the decision was made to make this move, and there wasn't 
a single Commissioner of Agriculture elected, appointed 
Secretary or Director of Agriculture in the country from any of 
the states that thought this was a good move.
    The Chairman. On a bipartisan basis.
    Mr. Bronson. On a bipartisan basis, absolutely. And it is 
because you have a law enforcement function, and I think DHS is 
doing a great job of protecting us against incursion from those 
who would attack us, but it is a different mission when you are 
looking for pests and disease. And I just want to make sure 
that everybody understands I still respect what DHS is doing 
from that standpoint. We need to look at, which I think is one 
of the most dangerous positions we can be in is in letting 
plant and animal pests and disease come into our states and 
into this country that is going to cripple our state economy 
and our Federal economy and therefore cripple our national 
security from our food supply, quality and quantity as well as 
the protection of our people from different diseases that could 
be spread.
    We face a unique challenge. We have 28 ports of entry, 14 
deepwater ports, 14 international airports. We have over 50 
million visitors who come to our state every year, and we 
receive over six million tons of perishable cargo annually: 88 
percent of the flour imports, 55 percent of the fruit and 
vegetable imports, and 85 percent of the plant imports that 
come into our country come through the Port of Miami. That 
coupled with our climate almost ensures us to be a breeding 
ground for any pest or disease, both plant and animal, that may 
be brought to our state. We find one new plant or animal pest 
or disease a month in the State of Florida, and it is a 
constant battle with us and costs us billions of dollars over 
the years to take care of these problems.
    Since the transfer of AQI in 2003 there has been a 27 
percent increase in the number of new plant pests and diseases 
discovered in my state.
    The Chairman. Can you repeat that, sir?
    Mr. Bronson. Since the 2003 transfer there has been a 27 
percent increase in the number of new plant pests and diseases 
discovered in the State of Florida. And these are some of the 
examples, the chili thrips, which can attack numerous plant 
types, and, by the way, the nursery industry is our first 
industry of the state now and citrus has been moved to second 
because of canker and greening problems that we have had. We 
have the South African longhorn beetle, and some of the states 
are fighting longhorn beetles in other areas of the country, 
rice cutworm, gladiolus rust, and we have spent over $400,000 
on that disease alone because it is very dangerous to our 
industry. And now we are looking at the sugarcane, orange rust, 
and, by the way, we have over 400,000 acres of sugarcane 
growing in the State of Florida, and it is one of our major 
crops, so we are very concerned about that.
    At the writing of this report, Mr. Chairman, Members, we 
had 25 counties in the State of Florida out of the 67 that had 
citrus greening. Since this report was written, and by the time 
I got here today, two more counties have been found with citrus 
greening in the State of Florida. We are now at 27 as of today. 
And because of this greening, we had to implement new 
regulations that mandate all citrus plant production must be 
inside approved structures of greenhouses. In other words 
everything will have to be grown from the ground level inside 
greenhouses before it is reintroduced into any of the fields. 
We have lost over 900,000 trees or actually we are 900,000 
trees short of what we need to replant, and we have raised the 
price of those young trees from $4.00, what they were worth, 
now to over $10.00 because of the lack of the numbers that we 
have for replanting.
    The estimates to the citrus industry alone which is a $9 
billion industry and has over 900,000 jobs--or 90,000 jobs in 
the state's economy is going to cost that industry about $375 
million annually for all these pest and disease problems that 
we are having and how to handle them. Nearly 18 percent of all 
foreign pests and disease interceptions are in Miami, the 
highest rate for any city. And I am not as much concerned about 
what they are catching right now because we have determined 
based on all kinds of reports that we have seen that less than 
6 percent of the actual products are able to be inspected 
because of a lack of inspectors and those types of things. I am 
worried about the 94 percent of those products that come 
through our state and into our state and go to your states, and 
what is left there that didn't get caught and what is being 
spread there is what is in my opinion shocking.
    We receive a high volume of commercial and passenger 
traffic from the Caribbean, and we know that because of USDA's 
working with us and our own inspectors how much activity of 
pest and disease is in the Caribbean as well. Eighty percent of 
all animals can pass zoonotic diseases onto humans, 80 percent. 
That is how dangerous allowing one of those animals that is 
diseased out before it has been properly kept in quarantine. 
And you not only have the disease spread from animals to humans 
of some very bad diseases but you also have some spread through 
feces and other things of animals back to plant material that 
have caused some things. Mr. Chairman, in your own state that 
can happen if you don't catch these animals in time.
    No one believes that port exclusion activities will 
completely eliminate the introduction of foreign pests and 
diseases. We understand that but the quicker we find out about 
them and be able to work between the states and Federal 
Government agencies the quicker we can get around it. In short, 
Mr. Chairman, the most important thing that we have to make 
sure is no matter where this Congress decides this AQI should 
go if the manpower is not adequate and the funding doesn't 
follow, we won't be any better off than we are right now, and I 
hope that however you decide to do this that the manpower and 
the money will follow. That is my statement, Mr. Chairman.
    [The prepared statement of Mr. Bronson follows:]

 Prepared Statement of Hon. Charles H. Bronson, Commissioner, Florida 
    Department of Agriculture and Consumer Services, Tallahassee, FL
    My name is Charles Bronson and I am Florida's Commissioner of 
Agriculture. My Department, the Florida Department of Agriculture and 
Consumer Services (FDACS), is the largest state Department of 
Agriculture in the country with over 3,700 employees. FDACS has a broad 
and varied statutory mission in Florida that covers everything from 
food safety and forestry to consumer services and aquaculture. These 
are in addition, of course, to the plant and animal duties borne by 
most state departments of agriculture. Even with all of these areas of 
operation, FDACS spends the majority of its time and resources on 
protecting our agricultural industry from the spread of pests and 
diseases. Agriculture is Florida's second largest industry with farm 
gate receipts over $7.8 billion and an estimated annual economic impact 
of $97.8 billion. Protecting this industry from pests and diseases is a 
job that we simply cannot afford to fail at.
    I want to express my appreciation to the Chairman and Ranking 
Member for not only inviting me to testify on an issue that has great 
importance to my state of Florida, but also for all of your actions 
relative to bringing the Agriculture Quarantine Inspection (AQI) 
program back to the United States Department of Agriculture (USDA). I 
know that this Committee has had a long standing concern about the 
ramifications that have arisen from the transfer of AQI to the 
Department of Homeland Security (DHS). I am very grateful to Ranking 
Member Goodlatte for his foresight in ensuring this Committee never 
allowed the AQI functions and the ensuing transfer problems to fade 
away from Congressional scrutiny. Over the last 4 years, I have been 
very outspoken about my concerns regarding the lack of attention the 
agriculture function was receiving from DHS officials and I appreciate 
the time he and his staff have given to our concerns.
    Let me be clear, I am extremely supportive of the role that DHS 
plays in protecting our shores from intentional terror attacks. They 
have done a phenomenal job in carrying out that specific mission. 
Unfortunately, DHS has been trained to focus on people and cargo that 
would purposefully harm U.S. citizens and businesses. Agricultural 
pests and diseases are almost always brought into the U.S. by people or 
companies who do not intend to cause harm. Whether a foreign traveler 
who brings fruits, vegetables or meat products to family and friends or 
a foreign company that has exported a product to sell here, both of 
these can cause tremendous economic damage if not properly inspected, 
and appropriate mitigation measures employed, for pests or diseases. 
This economic damage can equal, if not exceed, those caused by 
intentional acts. I sit here before you today knowing all to well the 
economic impacts a foreign pest or disease can have on both an 
agricultural sector as well as a state's economy.
    In Florida, we face a unique challenge in that we have over 28 
ports of entry (including 14 deep water ports and 14 airports), nearly 
50 million visitors a year and six million tons of perishable cargo 
that enters our state every year: 88% of the flower imports, 55% of the 
fruit and vegetable imports and 85% of the plant imports that come into 
the country come in through Miami. That, coupled with a climate that 
ranges from tropical to temperate depending on where you are in the 
state ensures that our agricultural production is at great risk of a 
pest or disease incursion. In fact, historically, we discover one new 
foreign plant or animal pest or disease a MONTH in Florida. It is a 
battle we fight on a daily basis.
    Since AQI was transferred to DHS in 2003, there has been a 27% 
increase in the number of new plant pests and disease incursions in the 
state of Florida. Chili thrips, South American longhorn beetle, 
gladiolus rust and citrus greening are just a few examples. Chili 
thrips is a serious insect that attacks over 100 different plants and 
is a major pest of strawberries, cotton, soybeans and chilies. We have 
spent over $400,000 on eradication efforts for gladiolus rust and the 
damage the longhorn beetle is causing to trees in my state is still 
being determined. Even more serious and economically damaging than 
these is citrus greening. The presence of this disease, now in 25 of 
Florida's counties including some of our largest citrus production 
areas, has resulted in the implementation of new regulations that 
mandate all citrus plant production must be inside approved structures. 
The consequences of these regulations to Florida's citrus industry is 
that we are 900,000 trees short of what is needed for new plantings and 
the price of new citrus trees has increased from $4.00 per tree to over 
$10.00. Total costs of this disease to an industry that contributes $9 
billion and 90,000 jobs to the state's economy have yet to be fully 
calculated but preliminary estimates suggest it will be in excess of 
$375 million annually.
    In fact, the last few months have resulted in detections of two 
potentially devastating pests--sugarcane orange rust and the rice 
cutworm. My Department, working in conjunction with USDA-APHIS, is 
still in the process of delimiting these infestations given their 
recent detection, but I have no doubt there will be both economic and 
ecological impacts felt in my state from them.
    Nearly 18% of all foreign pest and disease interceptions are in 
Miami, the highest rate for any city. But I am not as concerned with 
what they are catching. It is what they aren't that is the problem. And 
unfortunately, due to Florida's plant and animal diversity, I usually 
find out about what they missed when we find it on a plant or animal 
species in Florida. If we can get to it quickly, then the costs can be 
contained. But if we don't catch it quickly and it has spread, then the 
costs to the Federal Government, the state government and industry can 
be enormous. While quarantines can help mitigate the spread, the 
reality is that they will never be 100% effective. And we can't always 
count on our exporting countries in this effort. For some, a pest or 
disease that could have devastating impacts in the U.S. is not a 
problem in its native habitat so there is no recognition of risk. 
Others, including some in the Caribbean Region, have no functioning 
plant protection organization. Florida receives a high volume of 
commercial and passenger traffic from the Caribbean and so we have been 
actively involved in efforts within USDA to mitigate the risks these 
countries pose to my state through both onshore and offshore 
activities.
    But it is not just plant pests and diseases that cause me concern. 
Recently we have received reports of birds imported as pets bypassing 
quarantine facilities in Miami. Or animal hides brought into the 
country for taxidermy purposes arriving with ticks attached yet DHS 
failed to notify USDA. Further, there seems to be a lack of rigorous 
enforcement of cleaning and disinfection procedures for animal and 
animal by product (such as semen) shipping containers. Believe me when 
I say hearing stories such as these cause a state Agriculture 
Commissioner to lose sleep at night.
    No one believes that port exclusion activities will completely 
eliminate the introduction of foreign pests and diseases. But neither 
will offshore threat identification and mitigation efforts alone. In 
fact, APHIS relies on close collaborations with the Agricultural 
Research Service (ARS), the U.S. Forest Service (USFS) and the 
Cooperative State Research, Education and Extension Service (CSREES) 
for surveys, risk assessments and research for both their onshore and 
offshore activities. These collaborations are an integral part of 
APHIS' operations. The port exclusion activities are critically 
important since many of APHIS' offshore mitigation activities are 
deployed based on DHS' pest/disease entry interceptions. We must 
therefore, have a functioning and effective AQI if APHIS' overall risk 
identification and mitigation strategy is to be successful.
    Florida is a good example of a situation where the global 
marketplace, increasing imports of agricultural goods and the number of 
international travelers overwhelms our safeguarding systems to 
effectively deter establishment or achieve early detection. 
Unfortunately, this situation is not unique to Florida. I recently met 
with my colleagues around the country during our annual National 
Association of State Departments of Agriculture meeting. Pest and 
disease is always on the agenda as it seems we are fighting a never 
ending battle. My good friend in Hawaii, Sandra Kunimoto, the Chair of 
the Hawaii Department of Agriculture, shared with me that the varroa 
mite, a pest that devastates honeybee colonies, was recently discovered 
on the Island of Oahu which has the potential to cause millions of 
dollars in damage to Hawaii's queen bee producers who, due to their 
previous mite-free status, have built a thriving queen bee industry. 
She also shared with me the devastation the erythrina gall wasp has 
caused to native trees throughout the state, killing many different 
species and requiring significant resources for tree removal. In 
addition, the culturally significant taro plant is threatened by a 
disease that has been detected on imports of a different type of taro 
called dasheen. While DHS has told Hawaiian officials about the amounts 
of taro that have been intercepted, they will not divulge any 
information as to inspections or the destination of the shipments so as 
to allow Hawaiian officials to conduct inspections of intended 
destinations in the state.
    DHS is responsible only for exclusion activities for pests and 
diseases. If they fail in their mission, there is no consequence for 
their inaction. The entities that have had to deal with the 
consequences, USDA and all of its agencies that collaborate on pests 
and diseases such as ARS, USFS and CSREES, as well as state and 
industry stakeholders, have had little choice the last 4 years other 
than to deal with the repercussions of DHS' failure in this arena. This 
includes the significant costs associated with mitigation, suppression 
and eradication activities. These costs can quickly reach the tens of 
millions of dollars. Citrus canker, for example, ended up costing a 
combined Federal-state total of nearly $1 billion.
    DHS is fond of saying that with all three inspection entities 
combined into one agency, there are more sets of eyes looking for 
foreign pests and diseases. I look at it a little differently. I fear 
that the inspectors are becoming a little like ``jack of all trades, 
masters of none''. Moving AQI inspectors back to USDA accomplishes two 
very important things. First, it ensures that agriculture inspectors 
are dedicated full time to preventing a pest or disease incursion. But 
also, and I would say this was perhaps even more important, it allows 
the inspection workforce that remains at DHS to focus solely and 
completely on preventing a terrorist attack or weapon of mass 
destruction from damaging the United States. Neither one has their 
mission diluted. Rather than weakening the current infrastructure, I 
see a transfer of AQI back to USDA as strengthening both USDA and DHS 
in their primary mission area.
    Again Mr. Chairman, I want to thank you for having this hearing on 
an issue that you can see I feel very strongly about. I look forward to 
working with you on this issue in the future and would be happy to 
answer any questions you may have.

    The Chairman. Thank you very much, Mr. Bronson. Mr. 
McClung.

STATEMENT OF JOHN M. McCLUNG, PRESIDENT AND CEO, TEXAS PRODUCE 
                    ASSOCIATION, MISSION, TX

    Mr. McClung. Thank you, Mr. Chairman. My name is John 
McClung. I am the President of the Texas Produce Association 
headquartered in the lower Rio Grande Valley. The Association 
represents the interests of growers, shippers, and importers of 
fresh fruits and vegetables, and I want to thank you for both 
holding the hearing today and for allowing me to participate. I 
am sure you know the fresh fruit and vegetable industry is 
rapidly globalizing. The USDA has just released a study on 
imports, and it points out that between 1990-1992 and 2004-
2006, between those two windows, average annual imports in this 
country jumped from $2.7 billion to $7.9 billion worth of 
fruits and vegetables.
    It also reported that 44 percent of U.S. fresh fruit 
consumption and 16 percent of fresh vegetables comes from 
imports in 2003-2005. That is up 31 percent from about 20 years 
earlier. Texas, as a southern border state with a strong 
investment in produce, has been directly and substantially 
impacted by that surge in imports. Twenty years ago, Texas was 
the number three state in terms of fresh fruits and vegetable 
production in the nation. We always lag behind California and 
Florida. In 2001 when Congress passed the block grants that 
were distributed based on sales volume to the states, we had 
slipped to 10th place in production tied with New York, but 
those numbers are very misleading because during that same time 
period while our domestic production was slipping our imports 
were increasing dramatically. We now are over half of what we 
sell to the rest of the country as imports, most of it from 
Mexico, and those numbers are increasing while domestic 
production decreases, and that business is going to continue to 
grow.
    The core problem for purposes of this discussion today is 
that as you increase imports you also increase the risk of 
foreign pests, particularly imports that are coming out of 
Latin America which has a pest base that is really problematic 
for us. So we spend a lot of time in the Rio Grande Valley 
trying to figure out how to avoid infestation by canker and 
greening. Those diseases have been mentioned earlier today. We 
watched those two diseases devastate the fresh citrus industry 
in Florida, and in the process defeat the best efforts of the 
state and Federal Government to prevent the introduction and 
subsequently to curtail their spread. We are exceedingly 
fearful that should either of those two diseases gain a 
foothold in Texas they would decimate our citrus industry in 
short order.
    And those are only two examples. There is a long list of 
potential pests that could be exceedingly damaging. Our shield 
against those threats is the government's import inspection 
service. Now everybody knows that following 9/11 AQI went over 
to Department of Homeland Security. The industry at the time 
believed the shift was unwise, but, obviously, the momentum 
then was such that you didn't get very far with that argument. 
Since then we have worked diligently trying to get DHS to put 
the proper emphasis on AQI but we have been consistently 
disappointed. In the dynamic, in the competition within that 
agency between bugs, drugs, and thugs, obviously bugs get short 
shifted. We are always playing second fiddle if not third 
fiddle. And I don't see any way that that is going to change as 
long as AQI remains under DHS. It is the nature of the animal.
    I won't try and improve on the GAO review released in May 
of 2006, but I will tell you that we generally agree with the 
analysis. It is of real concern to us that DHS insists that 
they are making progress and we see deterioration ongoing in 
the inspection process. I am over my time limit. I will close 
this out, but I do want you to know that before I came down 
here today I called some of the folks that are DHS employees at 
the Pharr/Reynosa Bridge, which is where most produce comes 
into South Texas, and these are people I have worked with for 
years, and there is a level of trust and respect, I hope, set 
up. These people won't even talk to me about this. They won't 
return phone calls. Finally, after multiple phone calls, I get 
a call from some guy I don't know with Customs and Border 
Protection, and his best effort is to refer me to a website in 
Washington I can access if I want to know more about the 
agency.
    I have never seen these people so concerned about talking 
about their situation.
    The Chairman. Would you characterize it, sir, as 
intimidation?
    Mr. McClung. I am not on the receiving end of that. I am 
reluctant to do so. I just know that they have always talked to 
me before about important things that were worth discussing, 
and I think that the testimony this morning was accurate. DHS 
is an agency that discourages communication at least with the 
outside, and I think that is what is going on here. Is it 
intimidation for the agricultural inspectors? I think so. I 
don't know that it is a systemic process but I know they are 
certainly limited in what they are willing to say to you.
    In any event, I think it is important to note that the 
coalition of produce industry groups, 120 of us or so, that 
have been working on farm bill issues are generally of the 
opinion that our interests can only be served long term if AQI 
goes back to APHIS, that it can't happen under DHS, and that is 
based on the experience of trying to make it work under DHS. 
What we ultimately need is an AQI program that works, that is 
housed in the agency that puts foreign pest exclusion above its 
other priorities, and that is not going to happen in DHS in our 
opinion. I want to thank you for allowing me to appear today, 
and I welcome any questions you might have.
    [The prepared statement of Mr. McClung follows:]

Prepared Statement of John M. McClung, President and CEO, Texas Produce 
                        Association, Mission, TX
    Mr. Chairman, Members of the Subcommittee. My name is John McClung. 
I am President of the Texas Produce Association, headquartered in 
Mission, Texas, in the Rio Grande Valley. The Association represents 
the interests of growers, shippers and importers of fresh fruits and 
vegetables. I greatly appreciate the opportunity to appear before you 
today to present my association's views on produce import inspections 
and this nation's efforts to defend itself against destructive foreign 
pests.
    As I'm sure you know, the fresh fruit and vegetable industry is 
rapidly globalizing. The U.S. Department of Agriculture has just 
released a study entitled ``Increased U.S. Imports of Fresh Fruits and 
Vegetables.'' That study points out that between 1990-1992 and 2004-
2006, average annual imports into this country jumped from $2.7 billion 
to $7.9 billion. It also reported that 44 percent of U.S. fresh fruit 
consumption and 16 percent of fresh vegetables came from imports in 
2003-2005. That's up from 31 percent for fresh fruit and 9 percent for 
vegetables in 1983-1985.
    Texas, as a southern border state with a strong investment in 
produce, has been directly and substantially impacted by the surge in 
imports. Some 20 years ago, Texas was the number three producer of 
fresh fruits and vegetables among the states. When the 2001 block 
grants to horticulture were passed by the Congress, with distribution 
based on sales volume, Texas had slipped to tenth place, tied with New 
York. Importantly, that ranking was based solely on domestic 
production. In reality, distribution from Texas to consumers nationwide 
increased over those same years; the apparent discrepancy was, and is, 
that over 50 percent of our sales within the state and outside the 
state are of foreign produce, the great bulk of it from Mexico. In 
2005, for example, Texas points of entry from Mexico recorded some 
76,577 loads of fresh fruits and vegetables. At 40 to 44,000 pounds per 
load, that's obviously a lot of produce.
    Let me give you just one specific example. Last year, Texas 
imported some 20,000 forty pound boxes of large limes from Mexico. 
That's most of the limes we consume in the U.S. Go back 25 years or 
more, and those limes came from Florida. There probably aren't 200 
commercial acres of limes left in Florida, nor are there commercial 
acres elsewhere in the U.S. By comparison, we only produced some 10,000 
forty pound boxes of oranges and grapefruit combined, so our imports of 
limes were about double our production of citrus in the state. And we 
expect the business to grow. For Texas, that growth is driven by 
greater consumer demand, and also by business realities. At the current 
price of diesel fuel, it costs roughly $1000 to $1500 less to run a 
truck to the East Coast if it comes through South Texas than if it 
enters the U.S. further west. That makes a lot of difference to the 
bottom line of importers and truckers alike.
    I can't resist pointing out that unless the Congress is able to 
quickly resolve the immigration reform issue, more and more of the 
grower/shippers in Texas will accelerate the trend of moving production 
to Mexico and elsewhere offshore. I have no one on the board of the 
association, and few of any size in the industry, who are not working 
both sides of the frontier. If we cannot secure labor in the U.S., we 
will move operations to where we can find labor. Then we will have 
succeeded in outsourcing yet another U.S. industry.
    Back to the issue at hand. The core problem is that as imports 
increase, so do the risks from foreign pests. We spend a lot of time in 
the Rio Grande Valley trying to figure out how to avoid infestation by 
citrus canker or greening. We've watched these two bacterial diseases 
devastate the fresh citrus industry in Florida, and in the process 
defeat the best efforts of state and Federal Government to prevent 
their introduction and then curtail their spread. We are exceedingly 
fearful that should either of these two diseases gain a foothold in 
Texas, they would decimate our citrus industry in short order. We only 
have some 28,000 acres of citrus in Texas, compared with about 700,000 
acres in Florida and 335-350,000 acres in California. Our entire 
commercial citrus production area is only about 50 miles long and maybe 
20 miles deep, so we feel terribly vulnerable.
    And these are only two examples of potential pests that could do us 
grave economic damage in both our fruit and vegetable sectors. For many 
years, we have battled against Mexican fruit flies in the Rio Grande 
Valley, where we are at the northern extreme of their range. I am 
pleased to report that because of an increased effort on the part of 
USDA to suppress Mexflies in the state, we finally appear to be winning 
that battle, at least for now. Any advances we have made have been the 
result of expanded resources and focused attention from APHIS in both 
the U.S. and Mexico. That is the kind of effort we need at our borders 
to deal successfully with many other pests.
    Our shield against these threats is the government's import 
inspection service. Following 9/11, as we are all well aware, the 
Agriculture Quarantine Inspection functions previously housed in the 
Agriculture and Plant Inspection Service at USDA were transferred over 
to the Department of Homeland Security. The industry thought the shift 
unwise at the time, but the momentum could not be successfully 
challenged.
    Since then, we have worked diligently to try to get the Department 
of Homeland Security to put the proper emphasis on AQI, but we have 
been consistently disappointed. In the competition within the agency 
between ``bugs'' and ``thugs,'' we inevitably play second fiddle. When 
we complain, we always get various versions of two themes from the 
agency; sometimes they tell us they are aware of the problem, they're 
working on it, they just need a little more time. On other occasions 
they tell us they have bested the early organizational problems and are 
actually doing a better job of it than APHIS ever did. We simply don't 
agree.
    I won't try to improve on the GAO review of AQI functions released 
in May of 2006, but I will tell you that we generally agree with that 
analysis. It is of real concern to us that while DHS insists there are 
more inspectors working on agriculture because of cross-training, in 
fact the GAO study confirmed that even the previous APHIS inspectors 
were doing fewer product inspections and more non-agriculture work. In 
another telltale measure, some 60 percent of inspectors felt their job 
was not respected by CBP officers and management.
    In talking with inspectors and supervisors at the Pharr/Reynosa 
bridge, which is about 5 miles from my office and is the most important 
produce port of entry by far between Texas and Mexico, employees are 
very guarded about what they say, but they are quick to tell you that 
they can only skim the surface because they are just too few and 
resources are too limited given the emphasis on border security and 
terrorism.
    I do want to note that we had our differences with APHIS, too, when 
that agency was responsible for AQI. Perhaps one of the most vexing 
issues for the industry was, and continues to be, the government's 
insistence on working bankers' hours at the crossing points. It is the 
nature of our perishable industry to want to move product in the 
afternoon, after picking and packing in the morning, but it is 
government's nature to quit for the day at about 4 or 4:30 in the 
afternoon. So our trucks sit on the bridge approaches or in impoundment 
lots over night. But that's a worry for another day, and in any event, 
we in industry aren't always as efficient as we might be.
    In fairness, DHS does seem to be trying to improve the AQI 
function. But in the grand scheme of things, they are much more 
inclined to put resources into counterterrorism than they are into 
foreign pest prevention. The irony is that in economic terms, the real 
terrorists may well prove to be the six and eight legged variety. One 
credible recent study put economic damage from foreign pests at around 
$120 billion annually. I'm not aware that terrorists slipping across 
our borders are exacting such a toll. It is also obvious that there 
were many difficulties during the long transition period between USDA 
and DHS that have either been addressed, to some extent, or at least 
papered over. And there are those who believe that it would be best at 
this point to try to make the most of DHS rather than creating a whole 
new period of upheaval by sending AQI back to USDA. But it is our 
perception that import protections actually are eroding at the very 
time they should be improving.
    The coalition of some 120 regional, state and national produce 
organizations working on farm bill issues--the Specialty Crop Farm Bill 
Alliance--recommends a transfer back to APHIS. Our objectives are 
simple to explain, if not to implement: we want a Federal AQI program 
housed in an agency that puts foreign pest exclusion above all other 
priorities, and we believe the experience of the past few years shows 
that only can happen in the long run under USDA. We advocate 
legislation consistent with the proposals from Chairman Cardoza, 
Senator Feinstein and others to move AQI back to where it originated, 
for good reason, in USDA.
    Again, thank you for allowing me to testify today.

    The Chairman. Thank you, Mr. McClung. Mr. Nelsen. Have at 
it, my friend.

   STATEMENT OF JOEL A. NELSEN, PRESIDENT, CALIFORNIA CITRUS 
                       MUTUAL, EXETER, CA

    Mr. Nelsen. Thank you, Mr. Chairman. Good morning, Members 
of the Committee. As already noted, my name is Joel Nelsen, 
President of California Citrus Mutual, which is a citrus 
producers' trade association in California. Our membership is 
throughout the state, 2,200 farm families farming over 300,000 
acres of citrus, a value exceeding $1.3 billion. Where I live 
is the number one agricultural region in the world. Where I 
reside is the number one agricultural state in the nation. This 
is a serious issue. In my written statement, I explain in depth 
our credentials that allow us to speak on the issue. Simply 
stated, we have been quarantined as a result of an invasive 
pest, and we were the lead organization in the mid-1990s that 
led the floor fight that changed the method of funding the 
agricultural inspection program to what it is today.
    The failure of our pest exclusion system that we face today 
is one of cost borne by the Department of Agriculture, by state 
government, by local government, and by stakeholders in 
agriculture. The failures have manifested themselves to a point 
where local government is demanding that we, the victims, help 
defray the cost of eradication. At the Federal level the costs 
have been so outlandish that OMB now requires sign off before 
APHIS can engage in a major eradication program. Metaphorically 
speaking that is akin to the fire captain seeking permission 
from the mayor prior to engaging in fire depression and then 
asking the victim for a check before he can release water from 
the hose.
    We understand the nuances of this program. We get the 
budgeting. We understand the risks and the pressures. We have 
been a valuable member of the USDA support team in the past, 
and we will continue to do so in the future. We are now a 
member of the DHS team that evaluates this program. They tried 
to put more guard dogs in front of the door but it didn't work. 
We still get in. Soon after Homeland Security was housed a 
group of specialty crop association execs, John McClung and 
myself are two of them, met with then Commissioner Bonner and 
Assistant Commissioner Jay Ahern. We were assured that the 
program would be better than ever. ``One face at the border 
would work,'' they said. ``There are more inspectors now 
working to protect agriculture,'' we were told.
    ``We are sensitive to the concerns, and we remain open to 
stakeholder communications,'' so we were told. ``Training and 
education will be cornerstones of the program,'' we were told. 
``We have an excellent working relationship with USDA,'' we 
were told. It sounds great. It sounds familiar. And we all know 
it didn't happen. We now know that the quality of the program 
has suffered tremendously. Notwithstanding the above, the dog 
team program was allowed to deteriorate immensely. AQI dollars 
were not properly utilized and there has been a massive 
turnover in personnel. There never was the harmonious 
relationship with the Department of Agriculture. We have come 
from an understaffed, highly trained team to an understaffed 
team of new personnel spread too thin with too many ports, too 
many responsibilities, and too little ability to focus on the 
agricultural mission.
    We raise concerns that in the past 3 years no less than 
five reports were issued all of which spoke to a deteriorating 
system. I don't believe we need another report. I have listed 
those in my written testimony and they are for everybody to 
evaluate obviously. I, myself, conducted a minimum of four to 
five meetings with DHS in the past 4 years seeking 
clarification on improvement efforts. After the last report, 
our specialty crop industry met with the authors at GAO. We 
then unanimously came to a conclusion, the program must be 
transferred back to the Department of Agriculture. Transfer it 
back to the managers that understand the importance of the 
program. Transfer it back to the team that trained line 
employees. Transfer it back to the team that establishes the 
benchmarks for success and establishes operational guidelines, 
transfer it back to a home where the productivity and quality 
of the program blooms rather than deteriorates.
    Simply stated, it is now a management issue. It is 
remarkable that the efforts of this Committee during the farm 
bill debate, legislation introduced by Congressman Putnam, and 
the introduction of S. 887 by Senator Feinstein to accomplish 
that objective has all resulted in one thing, a massive 
communication outreach by CBP-DHS to stakeholders such as 
myself. Well, for me it is too late. This is why we supported 
Congressman Putnam. This is why we supported this Committee's 
efforts. This is why we are supporting Senator Feinstein and 
her efforts. We are through with second chances, done with 
third chances, and tired of fourth chances. It is not as if a 
path for improvement had never been identified. It is simply a 
fact that management did nothing with it.
    The issue is one of management and focus. Do we accept 
statements that management had been reborn and better 
appreciates how best to accomplish the objective, or do we 
transfer the program back to a management team that has created 
the path for this rebirth. Almost 100 percent of the bullet 
points for improvement identified in all of the reports signed 
this past June require the creativity, direction, and training 
by APHIS. Don't ask us to believe that the management team that 
created the decline in operations is going to sustain that 
which is being rebuilt for them now. Give it another chance. 
Why? Why maintain the status quo? Let us have one team, 
singularly focused, working in a climate where job performance 
is recognized and rewarded. Transferring this program was a 
good idea that just didn't work. Not recognizing that from a 
management perspective just compounds the error. Adoptions are 
a great thing but in most cases there is no place like home. 
Move it back. Thank you for your time and attention to this 
issue, and I appreciate this opportunity.
    [The prepared statement of Mr. Nelsen follows:]

  Prepared Statement of Joel A. Nelsen, President, California Citrus 
                           Mutual, Exeter, CA
    Good morning Mr. Chairman and Members of the Subcommittee; as noted 
my name is Joel Nelsen and I am President of California Citrus Mutual 
(CCM), a citrus producers' trade association in California. Our 
membership is statewide and consists of 2,200 farm families producing 
citrus on almost 300,000 acres, with an economic value exceeding $1.3 
billion. CCM greatly appreciates the opportunity to share our views and 
concerns on an issue that is extremely important to the California 
citrus industry.
    Today I want to provide a justification for why CCM and other 
industry organizations strongly support legislation to transfer the 
Agriculture Quarantine and Inspection (AQI) functions from the 
Department of Homeland Security back to the Department of Agriculture 
(H.R. 2629 and S. 887). We want to commend you, Mr. Chairman, for 
including this legislation in the House Agriculture Committee-approved 
version of the 2007 Farm Bill, and we also want to commend Congressman 
Putnam and Senator Feinstein for their leadership on this issue in the 
House and the Senate. CCM strongly believes that this legislation is 
necessary to ensure the protection of U.S. agriculture from the threat 
of invasive pests and diseases.
    As an industry totally reliant upon fresh fruit sales for economic 
viability, we have always been sensitive to issues surrounding invasive 
pests and diseases. We have suffered through quarantines in the San 
Diego and Riverside areas. We have lost lemon sales in Ventura County 
as a result a of medfly outbreak. Fruit flies in Fresno County have 
limited our ability to export to China.
    These quarantines adversely impact sales, require specific cultural 
practices that destroy integrated pest management programs, cost jobs 
and are a public relations nightmare. They have a tremendous negative 
cost impact on state and local government not withstanding the hundreds 
of millions of dollars allocated by the U.S. Department of Agriculture. 
The ripple effects are countless, ranging from transportation, ports, 
and local businesses.
    Our state and our industry was the first to partner with USDA and 
utilize a sterile fly approach to eradication programs. Our industry 
has always been at the forefront of efforts to maximize budget support 
for pest exclusion activities at the state and Federal level. The 
challenges in this area have been increasing, with the most notable at 
the Federal level now being a mandate that the Office of Management and 
Budget agree to eradication dollars before they are spent by USDA. I 
submit that's synonymous with a fire chief calling a mayor and needing 
to receive permission to race to a site in order to put out a fire.
    The cost and frequency of these programs have now reached a level 
that has triggered action by state and local government to seek 
financial support to help underwrite eradication programs from impacted 
stakeholders. Going back to my fire chief metaphor that's synonymous 
with a home owner being forced to write a check to the fire captain 
before the water is released. Specialty crop growers are the primary 
victims in this alarming scenario.
    In 1994, our organization, along with a sister group in California, 
led the effort to change the funding methodology for agricultural 
inspection at ports of entry. We led the charge for authorization and 
then helped the Agricultural Committee in the floor fight with 
appropriators. The existing method for funding port of entry 
inspections was achieved during that fight.
    I make mention of all this to emphasize the fact that we are an 
integral part of and supporter for the ag inspection program. Staff 
members of APHIS are very tired of me as I constantly participate and 
advocate in their budget, policy, education and implementation 
components of this valuable program. The Department of Homeland 
Security is now becoming well aware of us also.
    We have a passion for the program, we understand it and no other 
agricultural entity has a greater working knowledge of this program. 
This passion was first presented to DHS in 2003 when a small group of 
CEO's from agricultural organizations across the country met with 
Commissioner Bonner and senior assistant Jay Ahern. At that meeting we 
were assured of the following: that the program would be better than 
ever; that one face at the border would work; that there are more 
inspectors working to protect agriculture with the merger of Customs & 
Border Protection; that CBP is sensitive to our concerns and remains 
open to stakeholder communications; that training and education will be 
cornerstones of the program; and that we have an excellent working 
relationship with USDA. These statements were elements of that 
discussion.
    Unfortunately, this situation did not materialize. Since then I 
have had no less than six meetings at DHS headquarters in which I was 
assured identified problems were being corrected. Identified problems 
ranged from the slowness of the training program, adequate utilization 
of AQI dollars, the reduction in interceptions, interagency battles, a 
major deterioration of the beagle brigade program, and high staff 
turnover, just to name a few.
    In 2004, I took a copy of a California Department of Food & 
Agriculture report entitled Protecting California from Biological 
Pollution which dealt with invasive species, thereby emphasizing the 
need to ``get the DHS act together'' so to speak. My colleagues and I 
became alarmed at the attrition rate as new management styles and new 
priorities encumbered the mission of USDA transfers. We soon asked 
respective Members of Congress to initiate their own studies.
    Below is a brief listing of what was collectively developed:

  <bullet> May 2004, a Congressional Research Service Report for 
        Congress on Border Security and Agriculture;

  <bullet> March 2005, GAO report determines that defenses against 
        agro-terrorism needs bolstering;

  <bullet> May 2006, GAO report states that Management & Coordination 
        Problems Increase Agriculture Vulnerability;

  <bullet> November 2006, GAO report to House Agriculture Committee 
        regarding Agricultural Specialists Views of Program Efficacy 
        after the transfer; and

  <bullet> February 2007, OIG report by DHS and USDA reviewing their 
        joint activity and program efficacy.

    The DHS response basically was recruiting an APHIS employee to run 
the program at DHS. The position was filled, but he had no staff nor 
budget for too long a period of time. Meanwhile, institutional 
knowledge left in droves, position vacancies remained and the quality 
of the program suffered. That's the opinion of the industry which was 
subsequently confirmed by the plethora of reports listed above. After 
the November 2006, GAO report was published members of the specialty 
crop industry requested and received a meeting with the report authors. 
Our understanding of the report was confirmed. Our fears of quality and 
quantity reductions were being realized. The people were over-extended, 
management was not focused and our risk was magnified.
    Thus, our industry came to the conclusion that enough was enough; 
the program must be transferred back to where it belongs, at the 
Department of Agriculture. The transfer was a well-intended effort that 
just didn't work. Good ideas don't always work, but the real failure is 
not recognizing that an effort is failing and doing nothing to correct 
it. We mounted an effort to accomplish the only solution visible, 
transfer of the functions back to the agency which believed this 
inspection program was a priority. Transfer it back to managers that 
understood the importance and the nuances of this inspection effort. 
Transfer it back to a home where the productivity and quality of the 
program blooms rather deteriorates.
    That is why we encouraged Members of Congress to introduce 
legislation to transfer the AQI program back to USDA's Animal and Plant 
Health Inspection Service. The response by DHS to the introduction of 
this legislation in Congress has been amazing. Rather than simple 
verbal responses we received a game plan in writing. There was a joint 
session with stakeholders and the two agencies (albeit with only a 2 
week notice). Outreach exploded and a road map developed. 
Communications were forwarded to Members of Congress as to how and why 
the program is and will be improved. There's a massive effort, now, to 
revitalize, reenergize and rebuild the program.
    There's a greater appreciation of the mission, more enlightenment 
as to how best to carry it out. It's almost as if a rebirth is 
occurring and we should allow the status quo to mature. I've heard it 
before and now it's in writing. We heard it in 2003. I heard it in a 
meeting on December 9, 2004; July 19, 2005, and then again February 3, 
2006. I have heard it in industry meetings and private discussions for 
the past 4 years.
    Well, we're through with second chances, done with third chances, 
and tired of fourth chances. It's not as if a path for improvement had 
never been identified. I read the reports, you read the reports but 
nobody of consequence acted as a result of the reports. And now the 
agencies and certain Members of Congress ask us for one more chance 
with the status quo?
    That fact remains that DHS has failed to properly implement this 
component of their mission. But who pays the price? Stakeholders are 
quarantined, USDA and states are responsible for the eradication 
project, but from DHS all we get is another pledge. A close examination 
of the training regime speaks to the fact that almost an entire team of 
1,800 transfers has been hired and trained to replace original 
employees. The diverse dynamics of the existing CBP mission may not be 
compatible.
    I do not believe that a transfer back to USDA would lead to another 
degradation of the program or another ``cultural shock'' which was one 
excuse after the original transfer. The employees would be working for 
the management team that trained them, established the benchmarks for 
improvement, established the operational guidelines and that have the 
passion for the mission. That's defined as one team on the same page at 
all times. That's defined as a management team that is singularly 
focused and creates a climate of responsibility for optimum job 
performance, satisfaction, reward, recognition and ultimately success. 
It's now a management issue, not a line or personnel problem.
    A tremendous amount of rhetoric is being disseminated regarding the 
efforts and efficacy of the new personnel and new and improved program. 
But the reality is that we have heard it all before. Sure, we all want 
to believe in the new energy, but it's a management problem. The 
framework does not exist at the Department of Homeland Security to 
achieve the desired results. Four years worth of history proves that 
point. Adoptions are a great thing but in most cases there is no place 
like home.
    CCM strongly urges Congress to enact legislation to transfer the 
AQI program from DHS back to USDA's APHIS (H.R. 2629 and S. 887). We 
believe this will greatly improve the AQI function and is necessary to 
adequately protect U.S. agricultural producers and other stakeholders 
from the threat and highly adverse impacts of invasive pests and 
diseases.
    Again, thank you for this opportunity to express CCM's views in an 
effort to improve the efficiency of an important government program.

    The Chairman. Thank you, Mr. Nelsen. As I listen to the 
three of you speak it is indicative to me what is wrong in 
government so often, and it is a frustration that so many of us 
have that I will go home and I will listen to my constituents 
at a rotary club. They will say how come Congress isn't doing 
something, and we are trying. And I don't know if we are going 
to have to have Mr. Mahoney and I carry pickets in bug suits 
out in front of the Department of Homeland Security but if that 
is what it takes, we may just do that. But I will tell you that 
we are not going to let this drop, and if I were the folks at 
Homeland Security, I would be very afraid of what is going to 
happen because we are going to keep after them and after them 
and after them until they get the message.
    Mr. Bronson, you state that new pests and disease 
incursions in Florida have increased 27 percent since the 
transfer in 2003. Do you have any sense on how much import 
volume has increased since 2003?
    Mr. Bronson. I can get you the volume figures. I will tell 
you it has increased and of course our free trade issues are 
bringing in more produce from various countries that have pests 
and disease, and we knew that from the beginning so we know 
that that is part of that increase as well. However, we know 
there are not as many people inspecting. We know that the 
morale level is low. I heard earlier, I think I heard a 
statement saying that they trained the inspectors for pest and 
disease--16 hours of training. Mr. Chairman, I have people who 
have worked in this for 20 and 30 years, and they are still 
learning about pest and disease. I am a law enforcement 
officer. I am a state-certified officer, and I can tell you the 
mindset is I can take a pathologist in plant and animal 
diseases and train them to be a police officer a lot easier 
than I am going to train a trained police officer to look for 
insects, pest and disease that they don't understand, don't 
know, and don't know how they react in the food supply. They 
are just not going to be capable of doing that.
    That is why I have my law enforcement division totally 
separated from my plant and animal pest and disease inspectors 
because if there is a violation of law they will call my law 
enforcement agency and together they will go out and do the 
process. But now I have got both issues covered, and that is 
what I think needs to happen here again at the Federal level.
    The Chairman. Thank you, sir. Mr. McClung, in your 
testimony you expressed concern over the hours worked at 
crossing points not matching product flows. It is my 
understanding that AQI used to hire part-time seasonal workers 
to more closely match harvest patterns. Can you comment further 
on how this mix-match between hours worked and how produce flow 
doesn't work?
    Mr. McClung. We had a problem back in the APHIS days with 
hours at the crossing points because the government likes to 
knock off at the end of the day at 4 or 4:30 p.m. and in our 
industry you pick in the morning and you transport in the 
afternoon and the evening, and getting product across that 
bridge is a key consideration for us so that problem was there, 
but with APHIS it was much more flexible. You could work with 
them. They understood the priorities, and we simply did a 
better job. In addition, the people who were doing the fruit 
and vegetable inspection did that. They did fruit and vegetable 
inspection. They weren't pulled off to do other kinds of things 
so the volume an individual could move was greater.
    The Chairman. Mr. Nelsen, you have been a vocal advocate 
for transferring this process back to USDA. There are some in 
the Administration who say that moving it back would cause 
further damage to an already demoralized workforce. I don't 
know how that would happen exactly because frankly half the 
workforce is already demoralized; but how would you 
characterize your response to that?
    Mr. Nelsen. I think it is bunk. The individuals that have 
been hired now by DHS, approximately 1,200 of them, there were 
1,800 transferred over. All of them had been trained by APHIS 
personnel. All of them have been working under guidelines 
developed by APHIS communicated through CBP to be certain. 
Those people understand and appreciate the training that they 
receive from the people and the knowledge base that they had. 
All of a sudden they are back over at CBP where the knowledge 
base doesn't exist, where the appreciation for the work product 
no longer exists. You move those individuals, those line 
employees back to the management team that has the passion, the 
understanding, that actually trained them, there is naturally a 
nexus where you are going to have a more common bond between 
management and line employee. That doesn't exist now. That 
merger as far as creating additional problems is a phony straw 
man issue as far as I am concerned, and I am a manager.
    The Chairman. Mr. Nelsen, if that gentleman hadn't done his 
job at the San Francisco airport and that citrus canker had 
gotten into the fields in California, can you speculate on the 
potential damage that could have caused your industry?
    Mr. Nelsen. Mr. Chairman, it is devastating. It was a 
family that illegally imported root cuttings from their home in 
Asia. They brought the product in on a minor scale to begin 
with, and they got away with it. They had a nursery going. 
Secondarily, they brought it in at a much higher volume and 
that is what was inspected and ultimately discovered. 
Fortunately, government fulfilled its enforcement obligations 
and there was a major penalty to be paid here. Our industry is 
a billion dollar industry. We would be facing the same turmoil 
that our colleagues in Florida are presently undergoing.
    It would be more devastating to us, because as a fresh 
industry, you cannot produce fresh fruit for a fresh market 
with a canker infestation. It is just impossible to do. At 
least in Florida for the time being while they learn to manage 
through this disease, they have the fall back position of a 
products market. They do a much better job in that arena than 
we can and ever will be able to do. But as a fresh industry, we 
would have been devastated, 12,000 employees destroyed, 
approximately, as I mentioned, 2,200 to 2,500 farm families. 
Our industry creates another three-quarters of a billion 
dollars in economic outlook in the State of California. It 
would have been a devastating situation if that canker had been 
allowed to be--canker infested root stock been allowed to be 
planted in the state.
    The Chairman. So basically this gentleman doing his job 
going around normal chain of command saved the California 
industry billions of dollars.
    Mr. Nelsen. There is no question about it, and 
approximately 12,000 jobs. Can I make a comment on that same 
vein, Mr. Chairman? I didn't mean to interrupt you, but you 
asked a comment earlier of the first panel or somebody did 
about can we document where a failing has occurred since the 
transfer to CBP. You are well aware, as we alluded to, the 
situation we have in northern California with the light brown 
apple moth. That moth only exists in two countries. It came in 
from one of those two countries. A DNA profile has been done to 
confirm where it came from. The only way it came in was through 
the San Francisco airport. An offshore product is mandated to 
go through a CBP system. That is a failure of the system. And 
how much money have we spent on that program in the State of 
California? How much local turmoil is going on between state 
government and local government and citizens of that state? How 
many nursery owners are presently losing their nurseries 
because of the economic quarantine that they are being 
impacted? That is a real life failure of CBP.
    The Chairman. I couldn't agree more, Mr. Nelsen. I am going 
to go over my time just a little bit and then I am going to 
turn it over to Mr. Mahoney, but I just want to follow up with 
saying the following. I spoke with Chairman Waxman about this 
issue during the break, and I let him know that because he 
doesn't come from an agricultural region what it means to his 
area to investigate since he is Chairman of the Oversight and 
Government Reform Committee. And as we know and as he remembers 
there have been a number of times where his neighborhoods in 
Los Angeles have had to be flown over and had eradication 
efforts, malathion sprayed into the neighborhoods because of 
the need of eradicating the pests in his area. He got it 
immediately.
    And I just would like to say that the fellow who found the 
citrus canker in San Francisco and got transferred out and 
punished for doing his job should get a silver medal from the 
government, not transferred. And the fellow who did the 
transferring should be screening--should be checking for IDs in 
the line. Frankly, he is not qualified to clean latrines in the 
airport, let alone do the job he is doing if that is the 
attitude of what he has done. And, frankly, that is who ought 
to lose their job. And we haven't done our job in Congress 
until we pinpoint that person and make an example of his 
malfeasance in his job.
    Frankly, we have to make some examples out of some of these 
people in order to make people understand that the job you are 
charged with doing is something very important to this country. 
And it makes me sick when people are totally malfeasant in 
their responsibilities to take the kind of action that that 
gentleman did. Thanks for enduring my editorial comment. Mr. 
Mahoney.
    Mr. Mahoney. Thank you, Mr. Chairman. Yes, this is very 
sobering today. And when I first got to Congress 10 months ago, 
I had the opportunity to go to APHIS in Fort Pierce to begin my 
education on this whole issue. And Mr. Neugebauer said it well 
earlier on when he said that agriculture is no longer just 
about feeding the population. It is a matter of national 
security, and that this nation cannot find itself in a 
situation where we are going to be dependent upon foreign 
sources of food and to the extent that we access foreign 
imports of food, we have to make sure that they are secure. I 
mean take a look at what happened with China when we had a 
couple of entrepreneurs that combined, held a third grade 
education, and figured out how to taint our food supply. Could 
you imagine what could possibly happen if you had somebody that 
was a lot smarter?
    But be that at is may, I think this panel gives us a very 
interesting opportunity and that is, Mr. Bronson, I would be 
curious to understand in terms of your considerable 
responsibilities for the people of the State of Florida, could 
you explain what the nexus is between what you manage and what 
you are responsible for and what Department of Homeland 
Security is. What do you depend on Homeland Security to do for 
your organization and then could you just comment on how 
effective they have been?
    Mr. Bronson. Thank you, Congressman. I sit on the state 
Homeland Security Board myself. I deal with those issues at the 
state level. We work with Homeland Security at the Federal 
level. Thanks to this Congress, or the previous Congress, and 
my own state legislature, we were able to acquire two VACUS 
machines, gamma ray trucks from the Federal Government, and two 
from the state. They are all mobile and we have 23 interdiction 
stations or inspection stations in the State of Florida, and I 
can move those wherever I need to. First, I guess let me 
explain by saying I have got qualified people that I will put 
up against anybody at the Federal or any other state level. 
They are highly qualified people with Ph.D.s, very well 
trained. Law enforcement is very well trained.
    Because of 9/11, when I lost one of my key personnel in 
food safety, I hired a lieutenant colonel veterinarian to come 
in and be our head person because I knew that he had worldwide 
experience being in the military for those issues. As soon as 
the veterinarian who handled the last Northeast breakout of 
Avian influenza, the big one, retired from the Federal 
Government, I hired him as my Chief Veterinarian in the State 
of Florida because I wanted to be prepared for those issues as 
well. So we are very prepared at the state level. I think where 
the breakdown really happens is while we are willing to pass 
information up the line from state to Federal so that they 
understand what is happening to us and what we need to do, we 
don't necessarily get that passed down. And I hold a secret 
clearance. All of my key personnel, we went through the process 
with the FBI to get a secret clearance thinking that we would 
receive this information so that if a shipment was coming in 
from a port, and we have asked for this information, if a ship 
was coming in from a port that we know there is a pest and 
disease problem, we already know that, that we would have an 
opportunity to work with the Federal Government to make sure 
that shipment was safe. We don't get that information, and it 
is a shame because we have personnel that can handle that at 
the state level and by the time we find out about it, we 
already have it.
    Mr. Mahoney, if they don't react fast enough through the 
chain of command some of these pests and diseases can multiply 
anywhere from 48 hours to 21 days. We could be in a mess by the 
time the chain of command comes back down to us.
    Mr. Mahoney. Is it fair to say that the people in the State 
of Florida hold you responsible for making sure that these 
pests and diseases don't come in, and you have people at these 
ports and points of entry into the state?
    Mr. Bronson. We do not have people at the ports. We usually 
find out that we have a problem at our 23, and we are lucky. We 
are one of the very few states in the country that has 23 
inspection stations on our natural border to the State of 
Florida. We find a lot of stuff coming into the state including 
people hiding in boxes, stolen equipment, drugs, the whole 
thing, and pests and disease, both plant and animal have been 
detected at those stations. So we do the best job we can but I 
can assure you when I had to go through people's back yards 
ripping out citrus trees because we were doing it at the 
commercial level, we had to do it at the back yard level to 
keep the disease from spreading. We were getting ahead until 
those 2 years of hurricanes hit us and then it just spread 
everywhere.
    I had people looking for my head for having to go do that, 
but I felt it was my responsibility to do that. I felt I needed 
to do my job, and I never shirked from that because I have 
always believed that if you do the right thing for the right 
reason, and you have science to back you up--they may be on you 
but at least you know you are doing the right thing.
    Mr. Mahoney. Has the situation, sir, in your opinion since 
Department of Homeland Security has taken over this 
responsibility, has it improved or has it deteriorated?
    Mr. Bronson. Well, I would have to say this particular 
portion has deteriorated and, like I said, they have done a 
good job of keeping people from attacking us, from purposely 
putting anything into our food supply. I think they have done a 
great job at that. The problem is you can't take a fully 
trained police officer and tell them it is important to look 
for these tens of thousands of pests and disease because they 
are not trained for it, they don't understand it, they don't 
understand the economic dangers. We could actually lose more 
naturally through pest and disease spread than we have ever 
lost through purposeful introduction, and that is a fact.
    Mr. Mahoney. If I may take a little more time, Mr. 
Chairman.
    The Chairman. I would be able to recognize the gentleman 
after I let Mr. Neugebauer----
    Mr. Neugebauer. That would be fine for the gentleman----
    Mr. Mahoney. Thank you, sir. Last year coming up to a year 
anniversary, we had this little situation in Florida where we 
had a disease that was being brought in with horses that came 
in from Europe. My understanding is that the quarantine 
function looking at these kinds of issues is a Department of 
Agriculture function.
    Mr. Bronson. It is generally a USDA APHIS function in 
coordination with Homeland Security, of course, for coming 
overseas.
    Mr. Mahoney. Did you have an opportunity to take a look at 
and assess what happened there? I mean it almost wiped out what 
I would call the performance horse industry, which would have 
been a huge economic disaster for the State of Florida. Did you 
ever determine what caused that?
    Mr. Bronson. We at the state level pretty much know that 
that particular horse was not kept long enough in quarantine 
and probably did not show its true signs of being infected 
while it was there, therefore, it was thought that it may be 
safe. They released the horse, went through a series of pickups 
with other horses in Virginia, North Carolina, and down the 
line, came into Florida. Some of those other horses died. This 
particular horse made it because it had already been infected 
and made it through the worst part of the disease but it was a 
carrier and also other horses.
    Mr. Mahoney. Was that a failure on the Department of 
Agriculture or Homeland Security?
    Mr. Bronson. Well, it could have been--I am not going to 
speak to that.
    Mr. Mahoney. I am just trying to understand. We are talking 
about maybe doing something different and bringing something 
back to Agriculture, and if Agriculture has the responsibility 
for doing quarantining and they are not doing a good job there, 
then that makes me concerned about maybe moving it back so that 
is really what I am trying to get at.
    Mr. Bronson. Well, you are bringing up a good point though, 
Congressman, because if shared information between state and 
Federal Government was a little bit better, we already know 
every country in the world, Mr. Chairman, every state has this 
capability, and I want this to be very much stated here, we 
have highly qualified people just as qualified as anybody at 
the Federal level. They know and my people know where all of 
the highly potential problems in the world are, every country 
where there is bad disease, pest problems, that may be doing 
trade with us. We already know that. If we were given enough 
information ahead of time, we could also start looking for the 
potential of these problems and actually help the Federal 
Government by doing that.
    Sometimes we don't hear about it until way after it has 
already gotten there, and that is a big problem for us. As I 
said, these diseases can take off so fast that it costs us 
hundreds of millions, even billions of dollars to control them 
at both the state, and this is what I want to get across, we 
spend hundreds of millions of state taxpayer dollars fighting 
this just as we spend Federal taxpayer dollars at the Federal 
level fighting this. It was about a 54-46 split on the cost of 
this, and it was right at a billion dollars in total fight for 
canker alone in the State of Florida.
    Mr. Mahoney. Thank you very much.
    The Chairman. Thank you, Mr. Mahoney. Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. Mr. McClung, 
welcome.
    Mr. McClung. Thank you, sir.
    Mr. Neugebauer. It is good to always have a fellow Texan 
here. We heard a considerable amount of testimony today 
documenting the decline of AQI port inspection program since 
its transfer to DHS. How has that impacted Texas?
    Mr. McClung. Well, Texas is one of the major importers of 
produce into the country; the bulk of it out of Mexico. Mexico 
has many diseases, as do all tropical areas, that we don't have 
in the United States so we are particularly sensitive to the 
possibilities. We have spent years in the Rio Grande Valley 
trying to control Mexican fruit fly because we are at the 
northern limit of its range in the United States and in the 
valley. We have finally gotten in this last year to where we 
are within striking distance of really controlling that pest. 
That is only because APHIS has put the resources and the effort 
into the control program necessary to suppress the fruit fly.
    That is a victory for APHIS, and it certainly is an 
enormous benefit for us, but we are also concerned that there 
are other diseases filtering up through Latin America that 
APHIS is no longer dealing with because they are not finding 
them because they are not inspecting any longer.
    Mr. Neugebauer. Isn't it true, in fact, that the amount of 
vegetables that we are importing has increased fairly 
substantially just in the last few years?
    Mr. McClung. Oh, it increases--every year it increases. The 
USDA study I referenced earlier is saying that vegetable 
imports are up. In 20 years they are up, they are now 16 
percent of our vegetable consumption compared with 9 percent 20 
years ago. That is a lot of product.
    Mr. Neugebauer. I want to commend you for your proactive 
meeting with USDA and DHS. One of the things, and it is kind of 
what I heard Mr. Bronson saying just a little bit, is are there 
working groups--always when the Secretary of Agriculture comes 
in here, and he is talking about changing agricultural policy, 
one of the things I am a big proponent is are you interfacing 
with industry, are you getting their input because nobody has 
more at stake on a lot of these issues than the producers and 
the producer groups themselves, and so they are major 
stakeholders. And I guess I would have a question to the panel, 
do you feel like the resources that Mr. Bronson said you all 
have databases and things like that, do you feel like the 
stakeholders are a part of the team here? Do we need to 
encourage our friends over at Homeland Security now and other 
places that we need to make sure the stakeholders have a seat 
at the table?
    Mr. McClung. Well, you are well aware, sir, in the Rio 
Grande Valley these days the Department of Homeland Security is 
not beloved because of the fence issue which is an enormous 
thing for us, but it has nothing to do really minimally with 
the problem of foreign pests. You heard Mr. Jurich this morning 
say that DHS is sort of paramilitary. That sounds a bit 
overwrought on first blush, but I think it is true. We try and 
talk to them. They are not very willing to talk to us. And when 
I tried, I said earlier today, when I tried to talk to some of 
the inspectors that either were previously APHIS or have come 
into the agency after the merger with DHS, they won't even talk 
to you anymore. They simply are not willing to tell you what 
they really think and how they really feel anymore which is a 
very sad issue in my mind.
    Mr. Neugebauer. I am going to take that as a no, Mr. 
McClung. Mr. Bronson.
    Mr. Bronson. Well, once again I think the lack of 
communication from the Federal level down to the local level is 
very evident. I mean we are finding out things way too late. We 
have so much capability in the State of Florida to react to 
these issues and to help the Federal Government get around them 
much quicker if they would just pass on the information. If I 
got to get all my top people in my laboratories and my animal 
and plant health in my law enforcement to try to get top secret 
clearance to get that then I will certainly do that. I don't 
think that is going to help either because I think the culture 
is--this is Federal, that is state. They are just not going to 
pass on that kind of information.
    If you are trying to protect this country, and I don't care 
from what, if you don't pass on information and make sure 
everybody is prepared, I don't see how you protect the country.
    Mr. Neugebauer. Along those lines, if we were to put 
together that structure or encourage the Administration to put 
together that structure, and if you don't have those thoughts 
and ideas today, I think the Chairman and I would be very 
interested, but I think that is something near term we could 
encourage is putting together a working group with the Federal, 
state, and local, and when I say local I mean different 
producer stakeholder groups to be in the room and talk about 
how to get this fixed because I think this Committee is 
committed to make sure this gets fixed. We think it is too 
important, and so there are some things we can do and there are 
some things we can't do. I think one of the things we can do is 
get the Administration folks at the table and begin to have 
some dialogue on how we make this a better process because you 
all have probably as good an idea on this as anybody.
    Mr. Bronson. Well, Mr. Chairman, if I could, these things 
happen even though they are at the ports. These things happen 
maybe at a Federal port but it really happens in every state 
that this is found in. It actually happens in the state and 
that is what I think has been forgotten here. While the Federal 
mission is the ports themselves of imported products it is in 
that state whether it is New York, Florida, California, Texas, 
wherever it is, it is in the state as soon as it is found, and 
that is why we need to be able to react very fast and know 
about it immediately so that we can put our people into play.
    Mr. Neugebauer. Just for my edification how long was it in 
the issue in San Francisco, I guess it was, how long before 
that information was widely disseminated that there was a 
potential breach there?
    Mr. Nelsen. Congressman, if I may answer that from 
California, too damn long.
    Mr. Neugebauer. Yes. That is kind of the way we talk in 
Texas.
    Mr. Nelsen. I figured you would get it there, yes, sir. 
Last May I was notified and asked if I could participate in a 
discussion such as you described. There was a stakeholder 
meeting with APHIS to identify flaws. We were given 2 weeks 
notice. I couldn't make it back here, times being what they 
were, the scheduling. They put together a rather comprehensive 
game plan, a lot of words on paper, but I think we got to go 
back to the fundamental issue, do we believe that the existing 
management structure at CBP can implement what we identify to 
be flaws and corrective measures. That is the fundamental 
question, ladies and gentlemen, and for me the answer is no. We 
have tried it. The GAO reports, the Congressional Research 
Service reports, the OIG reports, all of those reports gave 
them road maps and they haven't done it. No more chances.
    Mr. Neugebauer. Thank you, Mr. Chairman. Well, thank you, 
Mr. Chairman, and I think this has been a very informative 
hearing, and I think we have some things we need to work on.
    The Chairman. I absolutely agree. Mr. Mahoney was wanting 
to ask another question, but what I would like to do is, Mr. 
Mahoney, if you could submit those questions or mention those 
to the witnesses and have them submit in writing their answers 
to the Committee, I would appreciate it. I, and I think some of 
them, need to catch a plane as well. Mr. Neugebauer, I want to 
give you an opportunity to close. Maybe you have already done 
that. And then I wanted to say a couple concluding remarks.
    Mr. Neugebauer. Well, I thank the Chairman. I just think a 
couple things that are glaringly evident from the testimony we 
heard today, we have a problem, and it is not going away. Maybe 
it has gotten better in some areas, maybe it hasn't, and I 
think a full review of the structure and why the cultural 
problems are not working and maybe the structure is causing the 
cultural problems. I don't know, but we have problems and we 
need to fix them. And I think the other piece of it is I am a 
little discouraged to hear that we are not communicating more 
with the industry and the other stakeholders whether it be the 
states. And I think you are exactly right, the states and the 
agricultural community within those states are very much a part 
of those stakeholders. They are the people that have to bear 
the consequence and the brunt of when we don't do our job, and 
so to say this is a Federal issue and not a state issue, well, 
that is easy to say until half of your citrus population has to 
be burned or eliminated or fruits. There are just all kinds of 
consequences, quarantines of thousands of animals. So I don't 
like that kind of talk from our Federal Government. I think 
sometimes we forget who our customers are.
    I came from the private sector, and I tell my folks on my 
staff we have 652,000 customers that are depending on us every 
day to take care of what needs to be taken care of, and I would 
hope that our agencies have that same attitude, and if they 
don't maybe this Committee can help them with some attitude 
adjustments. I thank the Chairman.
    The Chairman. Mr. Neugebauer you and I think a lot alike in 
many areas. I think you just summed up my feelings absolutely. 
I tell my staff the same thing that you just indicated you said 
to yours, and I do it on a fairly regular basis as well. I 
would characterize this as colossal incompetence by the 
Department of Homeland Security resulting in a colossal waste 
of Federal tax dollars. Simply unacceptable. We are not meeting 
the needs of our constituents. And I just think we have to do 
better, and we are not going to quit until we find the right 
people who can do better. Before we adjourn, we have already 
had closing statements. I would just like to say under the 
rules of the Committee the record of today's hearing will 
remain open for 10 days to receive additional material and 
supplementary written responses from witnesses to any question 
posed by a Member of the panel. I want to especially extend 
that courtesy to Mr. Mahoney, and if you would, Mr. Mahoney, 
discuss your additional questions with the panel after this 
because unfortunately we do have to call the hearing to an end 
but I want you to have--you have done a great job asking 
questions today, and I want to make sure you have a chance to 
ask them all. This hearing of the Subcommittee on Horticulture 
and Organic Agriculture is adjourned.
    [Whereupon, at 1:20 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Prepared Statement of Michael W. Neff, Executive Director, American 
           Society for Horticultural Science, Alexandria, VA
``Mid-pleasures and palaces though we may roam, be it ever so humble, 
        there's no place like home.''
    Those famous words penned by playwright John Howard Payne 185 years 
ago still ring true today. Like people and places, some Federal 
agencies have a natural home where they operate more effectively. For 
the Animal Plant Health Inspection Service (APHIS), the American 
Society for Horticultural Science (ASHS) believes that natural home is 
the U.S. Department of Agriculture (USDA).
    As the professional society of horticultural researchers and 
educators keeping specialty crop industries competitive, healthy, and 
safe for consumers and the environment, ASHS maintains a keen interest 
in APHIS inspection functions at America's border points-of-entry. 
Fulfilling its mission for ``protecting the health and value of 
American agriculture'', APHIS is our first line of defense against 
harmful diseases, pests, and other harmful infestations. Left 
unchecked, these contaminants could adversely affect the health and 
safety of America's food, fiber, and ornamental plant supplies--
creating costly disruptions with both our domestic economy and 
competitive edge in global agricultural trade.
    Legislation creating the U.S. Department of Homeland Security (DHS) 
in 2002 shifted APHIS border inspectors to DHS. Yet recent studies by 
the U.S. Government Accountability Office (GAO) document declining 
inspection rates at several key entry points, lack of coordinated 
management programs, and insufficient staff levels adequately trained 
to perform APHIS' assigned mission. Though operating under jurisdiction 
of DHS' Customs and Border Protection Service, Federal salaries and 
other APHIS resources remain under the purview of USDA's appropriations 
budget. This includes administrative funds for inspection training as 
well as regulatory and wage scale guidelines.
    For the most efficient and effective use of resources, with on-site 
expertise providing timely response to potential hazards in the food 
inspection system, ASHS believes inspector specialists currently under 
DHS' Agriculture Quarantine Inspection Program should be transferred 
back to a unified arrangement under APHIS at USDA--its natural and 
proven base of operations.
    For more information on ASHS' view with this issue, please contact 
Michael W. Neff, ASHS Executive Director, in Alexandria, VA, at 703-
836-4606, e-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ae7fde4efececcaebf9e2f9a4e5f8eda4">[email&#160;protected]</a>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
